No. 20-915
IN THE

Supreme Court of the United States
________________
UNICOLORS, INC.,
Petitioner,
v.
H&M HENNES & MAURITZ, L.P., ET AL.,
Respondents.
________________
ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT
________________
JOINT APPENDIX
________________
E. Joshua Rosenkranz
Counsel of Record
ORRICK, HERRINGTON &
SUTCLIFFE LLP
51 West 52nd Street
New York, NY 10019
(212) 506-5000
jrosenkranz@orrick.com

Peter K. Stris
Counsel of Record
Stris & Maher LLP
777 South Figueroa Street
Los Angeles, CA 90017
(213) 629-6000
pstris@stris.com

Counsel for Petitioner

Counsel for Respondents

PETITION FOR WRIT OF CERTIORARI FILED
JANUARY 4, 2021
CERTIORARI GRANTED JUNE 1, 2021

i
TABLE OF CONTENTS
Page
Relevant District Court Docket Entries ................... 1
Relevant Court of Appeals Docket Entries .............. 4
Order re Plaintiff’s Ex Parte Application To
Continue Pretrial and Trial Dates (September 1,
2017) .......................................................................... 6
Joint Witness List (September 26, 2017)
(excerpts) ................................................................. 11
Plaintiff’s Objection to Defendant’s Request for
Judicial Notice; Request for Leave To File Motion for
Sanctions and Depose Staci Riordan, Esq.
(November 1, 2017) ................................................. 23
Order Granting Defendant’s Request for Judicial
Notice in Part and Denying it in Part
(November 30, 2017) ............................................... 30
Final Pretrial Order (November 16, 2017)
(excerpts) ................................................................. 36
Transcript of 2017 Jury Trial Proceedings
(excerpts) ................................................................. 40
Notice of Defendant H&M Hennes & Mauritz LP’s
Motion for Judgment as a Matter of Law, or in the
Alternative, Motion for New Trial
(April 10, 2018) ....................................................... 87
Unicolors, Inc.’s Opposition to Defendant’s Renewed
Motion for Judgment as a Matter of Law, or in the
Alternative, Motion for a New Trial
(April 27, 2018)........................................................ 97

ii
Defendant H&M Hennes & Mauritz LP’s Reply
Memorandum of Points and Authorities in Support
of Motion for Judgment as a Matter of Law, or, in
the Alternative, for New Trial (May 4, 2018) ...... 146
Order Denying Defendant’s Motion for Judgment
as a Matter of Law and Granting Defendant’s
Motion for a New Trial in Part (August 1, 2018) . 175
Notice of Supreme Court Grant of Petition for Writ
of Certiorari and Request To Continue Response
Date from Copyright Office (June 3, 2021) .......... 203
Opposition of Defendant H&M Hennes & Mauritz
LP to Unicolors’ Request To Continue Response Date
from Copyright Office, or, in the Alternative, To Stay
Proceedings (June 4, 2021) ................................... 211
Reply in Support of Notice of Supreme Court Grant
of Petition for Writ of Certiorari and Request To
Continue Response Date from Copyright Office
(June 7, 2021) ........................................................ 220
Supplemental Excerpts of Record (June 14, 2019)
Trial Exhibit 32, copyright registration
certificate for Unicolors artwork .................. 227
Trial Exhibit 37, physical exemplars of H&M
garments, with tags and receipts ................. 232
Trial Exhibit 38, physical exemplar of Unicolors
artwork fabric and attachments ................... 233

iii
The following opinions, decisions, judgments,
and orders are omitted because they appear on
the following pages in the appendix to the
petition for certiorari:
Opinion, United States Court of Appeals for
the Ninth Circuit,
Filed May 29, 2020 ........................................... 1a
Order, United States District Court for the Central
District of California Granting
Plaintiff’s Motion for Attorneys’ Fees and Costs,
Filed September 25, 2018 ............................... 19a
Amended Judgment, United States District Court for
the Central District of California,
Filed October 22, 2018 .................................... 32a
Order, United States District Court for the Central
District of California Granting Joint Stipulation
Regarding Supersedeas Bond Amount,
Filed November 13, 2018 ................................ 34a
Order, United States District Court for the Central
District of California Granting Joint
Motion for Entry of Judgment Pending
Appeal and Approving Supersedeas Bond,
Filed November 28, 2018 ................................ 36a
Order, United States District Court for the Central
District of California Re-Opening Case,
Filed September 4, 2020 ................................. 38a
Order, United States Court of Appeals for
the Ninth Circuit Denying Petition for
Rehearing,
Filed August 7, 2020 ..................................... 134a

JA-1
Chronological List of Relevant Docket Entries
United States District Court Central District of California
Unicolors, Inc. v. H & M Hennes & Mauritz, L.P. et
al
Case No. 2:16-cv-02322-AB-SK
Date

Dkt. Description

04/05/2016

1

COMPLAINT

08/12/2016

21

MINUTES

08/26/2016

25

First AMENDED COMPLAINT

09/09/2016

27

ANSWER to Amended Complaint/Petition

11/15/2017

180

MINUTES (IN CHAMBERS)

11/30/2017

186

MINUTES (IN CHAMBERS)

12/05/2017

202

MINUTES OF Jury Trial

12/06/2017

204

MINUTES OF Jury Trial

12/07/2017

211

MINUTES OF Jury Trial

12/07/2017

228

REDACTED SPECIAL VERDICT FORM

JA-2
12/07/2017

229

UNREDACTED SPECIAL
VERDICT FORM

08/01/2018

262

ORDER DENYING DEFENDANT'S MOTION FOR
JUDGMENT AS A MATTER
OF LAW AND GRANTING
DEFENDANT'S MOTION
FOR A NEW TRIAL IN
PART

08/13/2018

263

NOTICE of Acceptance of Remittitur filed by plaintiff Unicolors, Inc.

08/14/2018

264

(IN CHAMBERS) ORDER

08/22/2018

267

JUDGMENT by Judge Andre
Birotte Jr.

09/21/2018

275

NOTICE OF APPEAL to the
9th Circuit Court of Appeals
filed by Defendant H & M
Hennes & Mauritz, L.P.

09/25/2018

279

ORDER GRANTING PLAINTIFF'S MOTION FOR ATTORNEYS' FEES AND
COSTS

10/22/2018

289

AMENDED JUDGMENT

11/16/2018

292

NOTICE OF APPEAL to the
9th Circuit Court of Appeals

JA-3
filed by Defendant H & M
Hennes & Mauritz, L.P.
05/29/2020

297

OPINION from Ninth Circuit
Court of Appeals filed re: Notice of Appeal to 9th Circuit
Court of Appeals 275 filed by
H & M Hennes & Mauritz,
L.P., Notice of Appeal to 9th
Circuit Court of Appeals 292
filed by H & M Hennes &
Mauritz, L.P. CCA # 1856253 and 18-56548.

08/17/2020

298

MANDATE of Ninth Circuit
Court of Appeals filed re: Notice of Appeal to 9th Circuit
Court of Appeals 275, Notice
of Appeal to 9th Circuit Court
of Appeals, 292, USCA Memorandum/Opinion/Order, 297,
CCA # 18-56253, 18-56548.

09/04/2020

303

MINUTES (IN CHAMBERS)

04/23/2021

305

MINUTE ORDER (IN
CHAMBERS)

JA-4
Chronological List of Relevant Docket Entries
United States Court of Appeals for the Ninth Circuit
Unicolors, Inc. v. H&M Hennes & Mauritz, LP
Case No. 18-56253
Date

Dkt. Description

09/24/2018

1

DOCKETED CAUSE AND
ENTERED APPEARANCES
OF COUNSEL

03/27/2019

8

Submitted (ECF) excerpts of
record. Submitted by Appellant
H&M Hennes & Mauritz, L.P.
in 18-56253, 18-56548

03/27/2019

9

Submitted (ECF) Opening
Brief for review. Submitted by
Appellant H&M Hennes &
Mauritz, L.P. in 18-56253, 1856548

06/14/2019

19

Submitted (ECF) Answering
Brief for review. Submitted by
Appellee Unicolors, Inc. in 1856253, 18-56548

06/14/2019

20

Submitted (ECF) supplemental
excerpts of record. Submitted
by Appellee Unicolors, Inc. in
18-56253, 18-56548

JA-5
08/05/2019

26

Submitted (ECF) Reply Brief
for review. Submitted by Appellant H&M Hennes & Mauritz, L.P. in 18-56253, 1856548

08/05/2019

27

Submitted (ECF) further excerpts of record. Submitted by
Appellant H&M Hennes &
Mauritz, L.P. in 18-56253, 1856548

03/30/2020

50

SUBMITTED ON THE
BRIEFS TO CARLOS T. BEA,
BRIDGET S. BADE and JON
P. MCCALLA

05/29/2020

51

FILED OPINION (CARLOS T.
BEA, BRIDGET S. BADE and
JON P. MCCALLA)

08/07/2020

58

Filed order (CARLOS T. BEA,
BRIDGET S. BADE and JON
P. MCCALLA)

08/17/2020

59

MANDATE ISSUED (CARLOS
T. BEA, BRIDGET S. BADE
and JON P. MCCALLA)

JA-6
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC.,
a California Corporation;
Plaintiff,

Case No. 2:16-cv-2322AB-SK
ORDER RE:
PLAINTIFF’S EX
PARTE
APPLICATION TO
CONTINUE
PRETRIAL AND
TRIAL DATES

vs.
H&M HENNES & MAURITZ L.P.,
a New York limited partnership, and
DOES 1-20, inclusive,
Defendants.

Honorable André
Birotte Jr.

The Court is in Receipt of Plaintiff UNICOLORS, INC.’s (“Plaintiff”) ex parte motion to continue
the pretrial and trial dates to any other dates convenient to the court and sufficient to reach a decision
as to summary judgment. (Dkt. No. 110). Defendant
H&M HENNES & MAURITZ L.P. (“Defendant”)
filed an opposition to Plaintiff’s Ex Parte Motion
(Dkt. No 111).

JA-7
Based on the parties’ submissions, and for good
cause shown, the courts orders that the pretrial and
trial dates be continued as follows:
Current
Deadline
Last day to hold Local 9/6/2017
Rule
16-2
Conference, and to
disclose witness list
and exhibit list
File Memorandum of 9/12/2017
Contentions of Fact
and Law, Exhibit and
Witness Lists, Status
Report
regarding
Settlement, and all
Motions in Limine
Lodge
Pretrial 9/19/2017
Conference
Order,
file agreed set of Jury
Instructions
and
Verdict forms, file
statement regarding
Disputed
Instructions
and
Verdict Forms, and
file oppositions to
Motions in Limine
Final
Pretrial 10/16/2017
Conference
and at 11:00 AM
Hearing on Motions
in Limine

New
Deadline
9/20/2017

9/26/2017

10/3/2017

10/20/2017
at 11:00 AM

JA-8
Trial Date (Est. 4 11/14/2017
Days)
at 8:30 AM

11/14/2017
at 8:30 AM

IT IS SO ORDERED.
Dated: September 1, 2017

[h/w signature]
The Honorable André Birotte Jr.
United States District Court Judge

JA-9
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC.,
a California Corporation,
Plaintiff,
vs.

Case No.: 2:16-cv-02322
Hon. André Birotte, Jr.
[PROPOSED] ORDER TO CONTINUE
THE TRIAL DATE
AND RELATED
DEADLINES

H & M HENNES & MAURITZ LP,
a New York Limited Partnership,
and DOES 1-20, inclusive,
Pretrial Conf.:
August 7, 2017
Trial Date: August 29, 2017
Defendants.

JA-10
ORDER
For Good Cause Shown, the parties’ stipulation to
continue the trial scheduled to begin on August 29,
2017 to November 14, 2017, and to continue the Final
Pretrial Conference scheduled for August 7, 2017 to
October 16, 2017, and to continue the related deadlines to the dates listed below, is hereby GRANTED.
DEADLINES
Last day to exchange
proposed jury instructions
(14
days
before
16-2
conference)
Last day to exchange
objections to proposed jury
instructions (10 days before
16-2 conference)
Last day to hold Local Rule
16-2 Conference, and to
disclose witness list and
exhibit list
File
Memorandum
of
Contentions of Fact and
Law, Exhibit and Witness
Lists,
Status
Report
regarding Settlement, and
all Motions in Limine
Lodge Pretrial Conference
Order, file agreed set of Jury
Instructions and

CONTINUED TO
8/23/2017

8/25/207

9/6/2017

9/12/2017

9/19/2017

JA-11
Staci Jennifer Riordan (SBN 232659)
Aaron M. Brian (SBN 213191)
Jessica N. Walker (SBN 275398)
Neal J. Gauger (SBN 293161)
NIXON PEABODY LLP
300 S. Grand Avenue, Suite 4100
Los Angeles, CA 90071-3151
Tel: 213-629-6000
Fax: 213-629-6001
Attorneys for Defendant
H & M Hennes & Mauritz LP
Stephen M. Doniger (SBN 179314)
stephen@donigerlawfirm.com
Scott Alan Burroughs (SBN 235718)
scott@donigerlawfirm.com
Trevor W. Barrett (SBN 287174)
tbarrett@donigerlawfirm.com
DONIGER / BURROUGHS
603 Rose Avenue
Venice, California 90291
Telephone: (310) 590-1820
Attorneys for Plaintiff
UNICOLORS, INC.

JA-12
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC., a California Corporation,
Plaintiff,
vs.
H & M HENNES & MAURITZ, L.P., a New York
Limited Partnership,
Defendant.
Case No. 2:16-cv-02322-AB-SK
JOINT WITNESS LIST
Pre-Trial Conf. Date: October 20, 2017
Pre-Trial Conf. Time: 11:00 a.m.
Trial Date: November 14, 2017
Courtroom: 7B
Judge: Hon. André Birotte Jr.

JA-13
The parties to this action herewith submit their
joint witness list in accord with this Court’s local
rules:
Plaintiff’s Witnesses:
Witness’s Name, Phone Number, Address:
1. Nader Pazirandeh
Reachable via Plaintiff’s counsel.
Summary of Testimony / Why Testimony
Unique:
Mr. Pazirandeh is the President of Unicolors. Mr.
Pazirandeh will testify regarding the business practices of Unicolors, including the policies and procedures of the company; the company’s copyright
registrations and registration processes; the obtainment of source art; the sampling and sales by Unicolors of fabric featuring its proprietary artwork,
including the design at issue in this case; the damages and lost profits of the company; the company’s
customer base and design library; the costs of operating the company, and the company’s sampling and
sales procedures. His testimony is unique because he
is the president of the company and oversees the design and sales processes and has extensive
knowledge as to operations.
Time for Direct Exam: 2 hours
Time for Cross:
Dates of Testimony:

JA-14
Witness’s Name, Phone Number, Address:
2. Hannah Lim
Reachable via Plaintiff’s counsel.
Summary of Testimony / Why Testimony
Unique:
Ms. Lim is a designer at Unicolors and will testify
regarding her conception, development, and creation
of the artwork at issue, as well as the possibility of
another artist independently creating a substantially
similar artwork. She will testify as to the substantial
similarity between the artworks. She will also testify
in regard to the operation of Unicolors’ design room
and the impact of infringement on the company. Her
testimony is unique because she created the artwork
at issue.
Time for Direct Exam: 2 hours
Time for Cross:
Dates of Testimony:
Witness’s Name, Phone Number, Address:
3. Jin Young Suh*
Reachable via Plaintiff’s counsel.
Summary of Testimony / Why Testimony
Unique:
Jin Young Suh is a Principal of Unicolors, and directly supervises Unicolors’ design team. Suh will
testify regarding the business practices of Unicolors,

JA-15
including the policies and procedures of the company; the company’s copyright registrations and registration processes; the obtainment of source art; the
company’s sampling and sales procedures; the creation and formatting of designs by Unicolors’ design
team, and the specific formatting of the design at issue in this action. His testimony is unique because
he oversees the design room.
Time for Direct Exam: 1 hour
Time for Cross:
Dates of Testimony:
Witness’s Name, Phone Number, Address:
4. Jonathan Rho*
655 S. Santa Fe Ave. #237
Los Angeles, CA 90021
Summary of Testimony / Why Testimony
Unique:
Mr. Rho will testify as to H&M’s sales of the garments at issue and marketing research related to
H&M’s marketing and sale of the disputed product
and likelihood of independent creation. His testimony is unique given his design experience and
knowledge of H&M’s sales of the disputed product
Time for Direct Exam:
Time for Cross:
Dates of Testimony:

JA-16
Witness’s Name, Phone Number, Address:
5. Xiaomin Qian*
Shaoxing County DOMO Apparel Co., Ltd.
No. 797 North Jingshui Road Qixian, Shaoxing,
Zhejiang, China
+86 575 855 87799
Summary of Testimony / Why Testimony
Unique:
Ms. Qian will testify in regard to her design process
and the development of the artwork on the disputed
product. Her testimony is unique because she developed the artwork on the disputed product.
Time for Direct Exam:
Time for Cross:
Dates of Testimony:
Witness’s Name, Phone Number, Address:
6. Chelsea Wharton
Reachable via Defendant’s counsel.
Summary of Testimony / Why Testimony
Unique:
Ms. Wharton will testify as to Defendant’s development, manufacture, importation, marketing, distribution, and sale of the disputed product at issue, as
well as the units sold and revenues realized as a result of said sales. Her testimony is unique because
she is the 30(b)(6) designee for H&M and has

JA-17
knowledge of its development, marketing, and sales
of the disputed product.
Time for Direct Exam:
Time for Cross:
Dates of Testimony:
Defendant’s Witnesses:
Witness’s Name, Phone Number, Address:
Chelsea Wharton
c/o Nixon Peabody 300 S. Grand Ave.
Los Angeles, CA 90071
213-629-6000
Summary of Testimony / Why Testimony
Unique
Ms. Wharton is the CFO of defendant H & M LP and
was the Rule 30(b)(6) deposition witness for H & M
LP in this matter. She will testify about H & M LP’s
business operations, business structure, and sales
and profit data relevant to the accused garments.
Her testimony is unique in that she is H & M LP’s
corporate representative and the only corporate witness on these topics.
Time for Direct Exam: 3 hours
Time for Cross: 1 hour
Dates of Testimony:

JA-18
Witness’s Name, Phone Number, Address:
Justin Lewis
Ocean Tomo LLC
101 Montgomery St. #2100
San Francisco, CA 94104
(415) 946-2600
Summary of Testimony / Why Testimony
Unique
Mr. Lewis is H & M LP’s expert witness on damages.
He will testify regarding Unicolor’s alleged damages
assuming a finding of liability against H & M LP, including his calculation of potential damages based
on disgorgement of H & M’s profits attributable to
the alleged infringement, in addition to other opinions stated in his expert report. His testimony is
unique as he is the only expert witness that will discuss these topics.
Time for Direct Exam: 1.5 hours
Time for Cross:
Dates of Testimony:
Witness’s Name, Phone Number, Address:
Robin Lake
Santa Monica College
1900 Pico Blvd.
Santa Monica, CA 90405
(310) 434-4000

JA-19
Summary of Testimony / Why Testimony
Unique:
Ms. Lake is H & M LP’s expert on the originality and
construction of the Xue Xu pattern, similarity between EH101 and public domain prints and what degree of similarity, if any, exists between Xue Xu and
EH101, in addition to other opinions stated in her
expert report. Her testimony is unique in that she is
the only expert witness that will discuss these topics.
Time for Direct Exam: 2.0 hours
Time for Cross:
Dates of Testimony:
Witness’s Name, Phone Number, Address:
Xiaomin Qian
Shaoxing County DOMO Apparel Co., Ltd.
No. 797 North Jingshui Road Qixian, Shaoxing,
Zhejiang, China
+86 575 855 87799
Summary of Testimony / Why Testimony
Unique:
Ms. Qian is a designer for Shaoxing County DOMO
Apparel Co., Ltd, located in Shaoxing, China. She
designed the copyrighted Xue Xu design that was licensed for use by the manufacturer of the accused
garments. She will testify about her design of Xue
Xu, including her inspiration materials. She will also
testify about the copyright registration DOMO ob-

JA-20
tained for Xue Xu from the Chinese government. Her
testimony is unique in that is the only witness that
has first-hand knowledge of the design of Xue Xu.
Time for Direct Exam: 1.5 hours
Time for Cross:
Dates of Testimony:
Witness’s Name, Phone Number, Address:
Nadir Pazirandeh
Unicolors Inc. 3251 E. 26th St.
Vernon, CA 90058
(323)-307-9878
Summary of Testimony / Why Testimony
Unique:
Mr. Pazirandeh is the President and custodian of
records for plaintiff Unicolors and was the Rule
30(b)(6) witness for plaintiff. He will testify about
the business operations of Unicolors, the copyright
registration that Unicolors obtained for EH101, and
also about business records relevant to EH101. He
will also testify about Unicolors’ sales of EH101. He
is the only witness that will testify about these topics.
Time for Direct Exam: 2.0 hours
Time for Cross:
Dates of Testimony:

JA-21
Witness’s Name, Phone Number, Address:
Hannah Lim
Unicolors Inc. 3251 E. 26th St.
Vernon, CA 90058
(323) 307-9878
Summary of Testimony / Why Testimony
Unique:
Ms. Lim is a designer for plaintiff and is the alleged
designer of EH101. She will testify about her design
of EH101, including her design process and inspiration. She is the only witness that has first-hand
knowledge about the design of EH101.
Time for Direct Exam: 1.5 hours
Time for Cross:
Dates of Testimony:
Dated: September 26, 2017
NIXON PEABODY LLP
By: /s/ Staci Jennifer Riordan
Staci Jennifer Riordan
Jessica N. Walker
Attorneys for Defendant
H & M Hennes & Mauritz LP
Dated: September 26, 2017
DONIGER / BURROUGHS

JA-22
By: /s/ Scott Alan Burroughs
Stephen M. Doniger, Esq.
Scott Alan Burroughs, Esq.
Attorneys for Plaintiff
Unicolors, Inc.

JA-23
Stephen M. Doniger (SBN 179314)
stephen@donigerlawfirm.com
Scott Alan Burroughs (SBN 235718)
scott@donigerlawfirm.com
Trevor W. Barrett (SBN 287174)
tbarrett@donigerlawfirm.com
DONIGER / BURROUGHS
603 Rose Avenue
Venice, California 90291
Telephone: (310) 590-1820
Attorneys for Plaintiff
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC., a California Corporation,
Plaintiff,
vs.
H&M HENNES & MAURITZ, LP; et al.,
Defendants.
Case No.: CV-16-02322 AB (SKx)
Honorable Andre Birotte, Jr. Presiding
PLAINTIFF’S OBJECTION TO DEFENDANT’S
REQUEST FOR JUDICIAL NOTICE; REQUEST
FOR LEAVE TO FILE MOTION FOR SANCTIONS AND DEPOSE STACI RIORDAN, ESQ.
Final Pre-Trial Conf.: November 3, 2017

JA-24
Time: 10:00 a.m.
Courtroom: 350 West First Street, Los Angeles, CA
90012 - Courtroom 7B
Trial Date: November 14, 2017

Id., Ex. D.
These sketches were crucial to H&M’s claim that
Ms. Qian personally created the artwork on the
H&M garments, as they bear resemblance to certain
major elements of said artwork and were supposedly
created without reference to Unicolors’ artwork.
And, they provide the basis for the other registrations and documents that H&M has produced as evidence of independent creation in this case.
But, Unicolors has now uncovered evidence, including film footage, that makes clear that Ms. Qian

JA-25
not only had motive to fabricate evidence (and H&M
had strong leverage to force Ms. Qian to commit perjury), but that she indeed committed perjury. Attached as Exhibit A are stills from a film that a
Chinese company named Huiming Jacquard Weaving Co., Ltd., also doing business as Huiming Adornment Co. Ltd. (“Huiming”), posted three months ago
to its official LinkedIn page, and on its official
YouTube page, and on its official website. Notably,
the Qian Declaration was submitted to the Court on
May 1, 2017, five months ago, or only a few months
before this film was posted by Huiming.
1. The Film Footage
In the film, a number of shocking facts come to
light, facts that completely eradicate the Qian creation defense that H&M is wholly relied on as the
parties have prepared this case for trial:
a. Ms. Qian’s Professional Role
Ms. Qian’s primary job is not a “designer for
Shaoxing County Domo Apparel,” as she testified to
under penalty of perjury to this Court. Instead, she
is the CEO of Huiming, a jacquard fabric company.
The following footage makes that clear:

JA-26

JA-27

The above footage also establishes that
Ms. Qian’s statement that she was a “designer” with
Shaoxing County Domo was a ruse. Instead, she is
the Chief Executive Officer of Huiming, which may
perhaps have some relationship with Shaoxing
County Domo (to the extent this company even exists or is anything more than a shell company). Tellingly, Ms. Qian spends the entirety of the film
extolling the virtues of Huiming’s jacquard fabric

JA-28
work,1 but she makes absolutely no mention of any
role at Shiaxong County Domo or that she does any
sketching or artwork creation for any company.
And at no time in Ms. Qian’s declaration is the
Huiming company or Ms. Qian’s position as its CEO
disclosed. And there is no reference to any relationship between Huiming, Shaoxing County Domo, or
any of H&M’s vendors for the product at issue. Put
simply, her role as the “designer” for the H&M artwork was misrepresented and her true role was obfuscated.
b. Ms. Qian’s Perjury Motivation
The motivation for the obfuscation is now clear.
While H&M asserts in its Memorandum of Contentions that the offending product at issue came from
“two companies in China, Real Hope International
Limited and Hempel China Limited[,]” the fabric for
those garments came from another party, one left
unnamed by H&M – Huiming. See U.S.D.C. Dkt.
123, 3:21-23; Exhibit B. As it was Huiming that
provided the jacquard fabric and artwork at issue to
H&M, Huiming (and the individual we now know to
be its CEO, Ms. Qian) had ample reason to misrepresent the provenance of the artwork. Indeed, Ms.
Qian states in the film, and Huiming details on its
website, the importance of Huiming’s relationship
with H&M and that H&M has even awarded Huim-

1 Importantly, the H&M product at issue is made of jacquard fabric.

JA-29
ing a “certified silver status” designation. The following footage reflects just two of such examples:

JA-30
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.: CV 16-02322-AB (SKx)
Date: November 30, 2017
Title: Unicolors, Inc. v. H & M Hennes & Mauritz
L.P.
Present: The Honorable ANDRÉ BIROTTE JR.,
United States District Judge
Carla Badirian
Deputy Clerk

N/A
Court Reporter

Attorneys Present for Plaintiffs:
None Appearing
Attorneys Present for Defendants:
None Appearing
Proceedings:

[In Chambers] Order GRANTING Defendant’s Request for
Judicial Notice in Part and
DENYING it in Part

Pending before the Court is the Request for Judicial Notice (“RJN”) (Dkt. No. 171) filed by Defendant
H & M Hennes & Mauritz, L.P. (“Defendant”). Plain-

JA-31
tiff Unicolors, Inc. (“Plaintiff”) filed an opposition1 and
Defendant filed a reply. For the following reasons, the
Court GRANTS the RJN in part and DENIES it in
part.
I.

BACKGROUND

In this matter, which is set for trial on December
5, 2017, Plaintiff accuses Defendant of infringing a
copyright covering its “EH101” design. First Amended
Complaint (“FAC”), ¶ 18 (Dkt. No. 25). Plaintiff registered the design with the United States Copyright Office on February 14, 2011. FAC, Ex. B. It claims
Defendant copied the EH101design and used it on
garments sold at Defendant’s stores FAC, ¶ 18.
Defendant claims it did not copy Plaintiff’s design. Rather, it contends it acquired the design from
a Chinese company that independently created the
design and registered it as a Chinese copyright. Final
Pretrial Conference Order, at pp. 20-23 (Dkt. No.
182). In support of that defense, Defendant asks the
Court to take judicial notice of three documents:


Exhibit A to the RJN is a Chinese copyright
registration for the “Xue Xu” design, including an English translation of the registration.
RJN, Ex. A.

1 Plaintiff requested leave to move for sanctions in its opposition to Defendant’s RJN. Opp’n, at p. 17 (Dkt. No. 174). The
Court declines to issue sanctions and encourages counsel for
both parties to focus on the substance of this case.

JA-32


Exhibit B to the RJN includes the Xue Xu copyright registration, but also adds a certification from Chinese copyright authorities and
paperwork associated with the registration.
RJN, Ex. B.



Exhibit C to the RJN is a United States copyright registration, No. VA 2-070-265. RJN,
Ex. C. The title of the registered work is “Xue
Xu,” and the registration’s effective date is
October 4, 2017. Id. The registration was obtained by Defendant’s trial counsel, Staci
Riordan. Id.

II. LEGAL STANDARD
Federal Rule of Evidence 201 allows a court to “judicially notice a fact that is not subject to reasonable
dispute because it (1) is generally known within the
trial court’s territorial jurisdiction or (2) can be accurately and readily determined from sources whose accuracy cannot reasonably be questioned.” Fed. R.
Evid. 201(b). However, “judicial notice is inappropriate where the facts to be noticed are irrelevant.”
Meador v. Pleasant Valley State Prison, 312 F. App’x
954, 956 (9th Cir. 2009) (citing Ruiz v. City of Santa
Maria, 160 F.3d 543, 548 n. 13 (9th Cir.1998)).
III. DISCUSSION
A.

Exhibit A – Chinese Xue Xu Copyright Registration

Exhibit A is the Chinese copyright registration for
Xue Xu, which was obtained by Shaoxing County

JA-33
DOMO Apparel Co., Ltd. on September 22, 2015.
RJN, Ex. A. It indicates that the Xue Xu work was
first published on June 18, 2014. Id.
Courts may take judicial notice of copyright registrations. See Warren v. Fox Family Worldwide, 171
F. Supp. 2d 1057, 1062 (C.D. Cal. 2001), aff’d, 328
F.3d 1136 (9th Cir. 2003). Foreign public records can
be judicially noticeable. See Mike’s Train House, Inc.
v. Lionel, L.L.C., 472 F.3d 398, 411-12 (6th Cir. 2006)
(holding that the district court did not err by taking
judicial notice of English translations of Korean court
documents); In re Ex Parte Application of Jommi, No.
C 13-80212 CRB (EDL), 2013 WL 6058201, at *2, n.1
(N.D. Cal. Nov. 15, 2013) (taking judicial notice of foreign court documents).
The Court has already taken judicial notice of the
Xue Xu copyright registration, and it sees no reason
to depart from that decision. See Dkt. No. 21, at pp. 34. The Xue Xu registration is an official, public record
of the Chinese government. Moreover, Exhibit A is
relevant because it tends to show that Defendant may
have obtained the design it used on its garments from
an independent source. The Court therefore
GRANTS Defendant’s request for judicial notice as to
Exhibit A.
B.

Exhibit B – Documents Accompanying the Chinese Xue Xu Copyright
Registration

Exhibit B includes the substance of the Xue Xu
copyright registration, but adds a certification and paperwork associated with the registration. Like Ex-

JA-34
hibit A, Exhibit B is an official government record and
is relevant to Defendant’s independent creation defense. The Court therefore GRANTS Defendant’s request for judicial notice as to Exhibit B.
C.

Exhibit C – United States Xue Xu
Copyright Registration

Exhibit C is a United States copyright registration that Staci Riordan obtained on October 4, 2017.
The registration seeks protection of the same Xue Xu
design covered by the Chinese copyright registration.
While United States copyright registrations are normally subject to judicial notice, judicial notice is not
proper here because Exhibit C is both irrelevant and
prejudicial.
Defendant’s trial counsel obtained the registration on the eve of trial, less than a month before the
pretrial conference. It would unfairly prejudice Plaintiff to force it to contend with a new copyright registration that was not part of the case throughout fact
discovery, summary judgment, and pretrial briefing.
In addition, the United States copyright registration, acquired just before trial, has nothing to do with
whether the design on Defendant’s allegedly infringing garments was independently created years ago.
As Defendant explains in its RJN, it only obtained the
registration “after reviewing [] Plaintiff’s Motion in
Limine No[.] 3, which objected to consideration of the
Chinese Copyright Registrations … ” RJN, at p. 3,
n.2. In other words, Defendant sought a United States
copyright registration as part of a litigation strategy

JA-35
in defending this case. It appears to the Court that
Defendant realized the Chinese copyright registration might not provide the same presumptions that a
United States copyright registration would. See Lahiri v. Universal Music & Video Distribution, Inc., 513
F. Supp. 2d 1172, 1178 (C.D. Cal. 2007) (holding that
an Indian copyright registration did not create a presumption of ownership like an American registration
would because “ownership is determined according to
India’s copyright law”). Defendant therefore made a
last-minute attempt to manufacture the presumptions a United States copyright registration would
have conveyed. But whatever presumptions would
normally arise from a United States copyright registration do not apply here. See R.F.M.A.S. v. Mimi So,
619 F. Supp. 2d 39, 56 (S.D.N.Y. 2009) (holding that
it would be inequitable to grant a presumption based
on a supplemental copyright registration filed after
the close of fact discovery and obtained for the purpose of neutralizing unfavorable testimony). Because
the United States Xue Xu copyright registration is
both irrelevant and prejudicial, the Court DENIES
Defendant’s request for judicial notice as to Exhibit C.
IV. CONCLUSION
For the foregoing reasons, the Court GRANTS
Defendant’s Request for Judicial Notice in part and
DENIES it in part. The Court GRANTS Defendant’s
request to take judicial notice of Exhibits A and B.
The Court DENIES Defendant’s request to take judicial notice of Exhibit C.
IT IS SO ORDERED.

JA-36
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC.,
Plaintiff,
vs.
H&M HENNES & MAURITZ L.P.; et al.,
Defendants.
Case No. 2:16-cv-02322-AB-SK
FINAL PRE-TRIAL ORDER
Pre-Trial Conf. Date: November 3, 2017
Pre-Trial Conf. Time: 11:00 a.m.
Trial Date: November 14, 2017
Courtroom: 7B
Judge:
Hon. André Birotte Jr.
***

JA-37
F. Supp. 2d 1043, 1052 (C.D. Cal. 2010); Three Boys
Music Corp. v. Bolton, 212 F.3d 477, 481 (9th Cir.
2000).
Access may be shown by proving the defendant
had an “opportunity to view or copy” the design.
Kamar International v. Russ Berrie & Co., 657 F.2d
1059, 1062 (9th Cir. 1981). To satisfy this standard, a
plaintiff must show more than that the defendant had
a “bare possibility” of access; rather, the plaintiff must
show that the defendant had a “reasonable possibility” to view the plaintiff’s work. Meta–Film Assoc.,
Inc. v. MCA, Inc., 586 F.Supp. 1346, 1355 (C.D. Cal.
1984).
Plaintiff has presented no evidence of direct access, and must therefore rely on circumstantial evidence to show access. The circumstantial evidence,
either via a chain of events or wide spread dissemination, does not show that H&M accessed EH101. Three
Boys, 212 F.3d at 482; Art Attacks Ink, LLC v. MGA
Entertainment Inc. (“Art Attacks”), 581 F. 3d 1138,
1143 (9th Cir. 2009); L.A. Printex, 676 F.3d at 847-48.
Here, there is no evidence of “access” and the infringement claim therefore fails as a matter of law.
Three Boys, 212 F.3d at 481.
Although proving access is Unicolors’ burden,
H&M may rely on the testimony of Nader Pazirandeh,
Hannah Lim and Chelsea Wharton as well as written
discovery responses, documents and the copyright

JA-38
registration for Xue Xu to dispute Unicolors’ evidence,
if any, that H&M accessed EH101.1
***
This image does not appear to be part of the copyright registration, and it is unclear for what purpose
Unicolors is seeking its admission. The documents are
misleading, not relevant and possible hearsay. FRE
401- 403, 802.
41. Images of exemplar of Unicolors Artwork fabric and attachments [HMU116-127]:
The pages contain multiple images of the same
fabric sample, which is cumulative. FRE 403.
44. Unicolors design collection [UNICOLORS
130-145]:
Pages 131-141 are images of fabric designs other
than EH101 and they are not relevant. FRE 401-402.
45. Design Books [HMU156-272]:
1 Unicolors may attempt to prove DOMO or another vendor
in the supply chain had access to EH101, and thus H&M is liable
as an innocent infringer even though it merely resold allegedly
infringing goods. See Ninth Circuit Manual of Model Jury Instructions: Civil No. 17.36, and comments thereto (“An infringement is considered innocent when the defendant has proved both
of the following elements by a preponderance of the evidence: (1)
the defendant was not aware that [its] acts constituted infringement of the copyright; and (2) the defendant had no reason to
believe that [its] acts constituted an infringement of the copyright.”). If it does,

JA-39
Unicolors has no foundation to admit these documents, and it is not clear for what purpose they are
being admitted so they are possible hearsay. FRE 802,
901.
46. Comparison of Unicolors Artwork and allegedly infringing jacket [UNICOLORS 128]:
This document is hearsay, there is no evidence of
its creation, it amounts to improper expert testimony
and is unduly prejudicial. FRE 402-403, 802, 901.
47. H&M Reference sheet and specifications
(HMU 51-55, 92-102):
These business records are from a non-party. The
documents are hearsay, un-authenticated and Unicolors lacks foundation to get the documents admitted.
FRE 802, 901.
48. Lim Work for Hire [UNICOLORS 5-6]:
This work for hire agreement post-dates the alleged creation of EH101. It is not relevant. FRE 402.
49. Qian Declaration – Exhibit A:

JA-40
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
THE HONORABLE ANDRÉ BIROTTE JR., JUDGE
PRESIDING
UNICOLORS, INC.,

)
)
Plaintiff,
)
)
vs.
) No. CV 16-02322-AB-SK
)
H & M HENNES &
)
MAURITZ, L.P., et al., )
)
Defendants.
)
)
REPORTER’S TRANSCRIPT OF PROCEEDINGS
Los Angeles, California
Tuesday, December 5, 2017, 1:25 P.M.
Day 1 of Jury Trial
***

JA-41
[103] indicated (indicating), these represent pebbles
to me.
And on top it may not show fully but that is what
I represented as waves in the river. So you could consider the whole picture as a landscape, a person is
looking out into the nature and you can see the
river and along the river there’s pebbles.
And I recall this very well because I had story in
my head when I created this pattern. And since I
completed this design artwork the last day of the
year on December 31st, at the very last hour, I designated the number of design as 101 which will be
the commencement of the next year so I knew that
this number would represent January 1st.
Since I had a story in my mind when I designed
this artwork and therefore I considered this one of
my precious babies.
Q. And you said that was in December of what
year?
A. That was December 31st, year 2010.
Q. And at that point were you an employee of Unicolors?
A. Yes.
Q. Did you know how many other designers there
were at Unicolors at that time?
A. I don’t recall exactly how many.

JA-42
Q. Can you give us an approximation?
A. Just in the office I was at alone had anywhere
from eight to ten designers.
[104] Q.
And what about now? How many other
designers are there at Unicolors?
A. Thirteen.
Q. As you understand it, these are all people that
are working full-time at Unicolors creating original
artwork?
A. Yes.
Q. When you created EH101, did you use any
source artwork?
A. No. This is based on my own doodling and, having landscape inspiration in my head, I came up with
this.
Q. So just looking at the teepees or the representations of the people or the fish or the rocks, did any of
those elements—did you take any of those elements
from any other sources?
A. I did draw a lot of inspiration from different various things in my life and I also attended museums
frequently and, as I told you, I was much interested
in Aztec culture.
However, I did not refer to any other art when I
came up with this. This was basically completed

JA-43
based on my own hand-drawing and this is my
original artwork.
Q. So each individual element in EH101 you drew
by hand; is that correct?
A. Yes. Even if you look at this particular diamond
(indicating), that’s an irregular-shaped diamond.
Q. And when you drew each of these elements by
hand, just to be completely clear, that was without
any reference—
[105] any specific reference to any other work; correct?
A. That’s correct.
Q. So what did you do with EH101 after you drew
it?
Is there something you did to finish it or finalize
it or to go into the library, Unicolors’ design library?
A. As far as my work is concerned, once I complete
the artwork, what I need to do is register it onto our
Unicolors’ server and give it a designation by having
a number. And once I do that, my job is done.
Q. What did you do to register it onto the Unicolors’
server? How is that accomplished?
A. At work I usually work on a desktop, a computer
desktop; and then once I complete a particular design, I would connect to our company server.

JA-44
So our network server is unique to our own company; and once I go there and assign my artwork a
particular number, for example, like 101, that means
no other person can overwrite the number which I
designated to my artwork.
So if someone else has their own artwork, that
will be one of two or one of three. And also particularly our company’s server is such that I cannot connect to our company server from anywhere else but
working at the company.
[106] So I have to be physically in the company
in the company computer in order to connect to our
company server; and at our company once I upload
my artwork to company server and assign it a number, then my involvement is done.
Thereafter, I do not get involved in copyright
registration or anything else. And at the time at our
company we had someone who was in charge of copyright registration.
And after we have certain amount of work that’s
compiled, I believe that person took care of copyright
registration on behalf of the company.
MR. DONIGER: Your Honor, I have probably
about ten more minutes but I do know that you indicated you wanted to end court at 4:30. Shall I finish
or shall we continue?
THE COURT: No. Why don’t—well, actually,
let’s adjourn for today.

JA-45
Ladies and gentlemen of the jury, as I indicated
we usually go until about 4:30 so we’re going to wrap
up for today. I’ll ask you be here tomorrow at 9:00
a.m.
Tomorrow, at no fault of the parties, we’re only
going to be in session from 9:00 till 12:30. So we’ll go
to 12:30 and then you’ll break for the day.
Unfortunately, I have a funeral that I have to attend and that’s why I can’t be here in the afternoon;
and then we’ll come back on Thursday and resume a
normal day,
***

JA-46
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA – WESTERN DIVISION
HONORABLE ANDRÉ BIROTTE JR., U.S. DISTRICT JUDGE
UNICOLORS, INC., A CALIFORNIA )
CORPORATION,
)
)
PLAINTIFF
)
vs.
) No. CV 162322-AB
)
H & M HENNES & MAURITZ L.P., )
A NEW YORK LIMITED
)
PARTNERSHIP, AND DOES 1-20, )
INCLUSIVE,
)
)
DEFENDANTS. )
)
REPORTER’S TRANSCRIPT OF PROCEEDINGS
WEDNESDAY, DECEMBER 6, 2017
8:59 A.M.
LOS ANGELES, CALIFORNIA
Day 2 of Jury Trial, Morning Session
***

JA-47
[56] THE COURT: Overruled.
THE WITNESS: I apologize, but I really know
nothing about copyright registration.
As I testified yesterday, my job ended when I created the design and assigned the number EH210.
That was it.
BY MS. RIORDAN:
Q

So by the time the copyright was filed with the
first publication date of January 15, 2011, Design Number 210 was in existence; right?

A

Yes.

Q

So that means at least 109 designs were created between the time you created EH101 and
the time EH210 were created and this registration was filed—I’m sorry—and these designs
were published before January 15th, 2011;
right?

MR. DONIGER: Objection. Compound and calls
for speculation.
THE COURT: Sustained as to compound. Let’s rephrase the question.
BY MS. RIORDAN:
Q

By January 15th, 2011, at least 109 designs
were created; right?

JA-48
A

Your question seem unclear to me. I don’t know
if you are asking me whether or not I came up
with 109 designs.
So what’s represented here is not only my work

but
***

JA-49
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
THE HONORABLE ANDRÉ BIROTTE JR., JUDGE
PRESIDING
UNICOLORS, INC.,
Plaintiff,
vs.
H & M HENNES &
MAURITZ, L.P., et
al.,
Defendants.

)
)
)
)
)
) No. CV 16-02322-AB-SK
)
)
)
)
)
)
)

REPORTER’S TRANSCRIPT OF PROCEEDINGS
Los Angeles, California
Wednesday, December 6, 2017, 11:22 A.M.
Day 2 of Jury Trial,
***

JA-50
[6] A. Yes.
Q. Now, is the design of original artwork important
to your company?
A. Design is the heart of my company. That’s the
only advantage I have over other companies.
Q. What do you do in connection with your design
and investing in your design?
A. We create our own designs in-house. Also, we buy
artworks from studios. Some—mostly from Europe,
Italy, and that’s pretty much.
Q. Do you employ designers?
A. Yes.
Q. How many?
A. It varies. But she said yesterday I have 13. I always thought we had about 18 or 17 but she knows
better. She’s in that room.
Q. How much do you pay your designers per year on
average?
A. I spend a lot of money for my designs. I do—my
designers are very high-paid designers. It’s not just
designers. We buy artworks, the ink, paper.
We use really top of the line papers because the
way we present it to our customers it has to be presented, and I would say close to more than two-thirds

JA-51
of expenses of my company has to do with design
which is about 20 million.
Q. So you spend about 20 million dollars on creating
your [7] original designs; is that correct?
A. That’s correct.
Q. And do you have expenses for things like design
software and design materials?
A. Those are all included in that 20 million. I have
very top-of-the-line software like Net Graphics. It’s a
French company.
They actually charge me at least 25 thousand a
year just to maintain that. Without—with what I purchased at the beginning, it was expensive, about
800,000 dollars.
Q. Okay. And can you tell me why you made this
large investment in original design work?
A. As I said, design is the heart of my company. If we
don’t have design, I cannot compete with the low price
that they are offering from overseas.
They can offer because they’re direct manufacturers. I have to have designs. Designs is the only thing
that makes—separates between my company and
some of my friends’ company that went down.
Because of the Copyright Act, they cannot copy
my designs and they have that advantage.

JA-52
Q. Okay. So the company like H&M sells product
with your artwork on it or modified versions of your
artwork on it, does that damage your company?
[52] A. No, sir. I didn’t say invoice. I said e-mails.
Q. Excuse me. We have no paperwork for any sales
or purchases prior to October and you think it’s because of a virus?
A. Yes. As I said, see, these invoices are generated
by computer program called Mach 2. We paid very expensive high price to Mach 2 to come and retrieve all
of my invoices, packing lists, everything because they
were so important to us. But the e-mails they could be
lost in that process.
Q. I want you to turn to Exhibit 32.
A. (Witness complies.) Okay.
Q. This is the copyright for EH101; correct?
A. That’s correct.
Q. I believe this has already been admitted.
And that’s your name at the bottom certifying the
information in this document; correct?
A. Correct.
Q. What did you do to confirm that the date of first
publication for the—for all of the designs that are
listed under “Title of Work” were first published on
January 15, 2011?

JA-53
A. As a general policy, all of my people know that
should be the case so basically I trust my people.
Q. So you don’t make any independent investigation
to determine whether or not January 15, 2011, is the
correct [53] date of first publication for all of these artworks here?
A. I check with the responsible person usually; and
when they tell me yes, it is, I trust them.
Q. Who’s responsible for putting these designs on the
same copyright application?
A. At definite times it’s different people. I really
don’t know. But I have so many people. It could be my
secretary or somebody in the design room. I really
don’t know. Nobody—it’s very hard for us to know.
Q. And do you know why approximately ten floral designs and seven or eight ethnic designs were applied
for copyright registration as one group?
A. I don’t know exactly but I can have a guess if you
want me to.
Q. Sure.
A. See, we registered the designs that we feel competent it’s going to go to public. I guess, one of my designers or collectively they thought that these florals
and this much of ethnics, those are the designs that
are going to be successful, they put it up for registration. We create so many designs every day.

JA-54
Q. Do you know why a group of floral designs and a
group of ethnic designs were combined into the same
copyright registration?
A. For saving money.
[54] Q. Is it less money to apply for a group registration?
A. Of course.
Q. And do you know how these designs were first
published?
A. What do you mean?
Q. Well, it says the date of first publication is January 15, 2011. I’m asking how this group of designs
were first published together.
A. Oh, that’s when we present it to our salespeople.
Q. And you present these as a group, these floral designs and ethnic designs go to the public as a group?
A. That’s always our practice.
Q. And how is that done?
A. In a sales meeting. In the sales meeting, my designers come. And my designers come, I come, and
they present it to the salespeople that this is the
group that we believe it’s working with this colorations for that season or for that month.
Q. Who do the salespeople work for?

JA-55
A. For Unicolors.
Q. Unicolors salespeople?
A. Yes.
Q. Okay. So you present these designs as a group to
your salespeople and, according to this, that was done
on January 15th, 2011; is that correct?
A. That’s correct, yes.
[55] Q. And where does that meeting take place?
A. In my office.
Q. And is it normally held on a certain day of the
week or does it just depend on when it makes sense to
have one of those meetings?
A. Back in days anytime; but then now for the last, I
would say ten months, every Monday at 1:00 p.m. we
have sales meeting.
Q. And who – I’m sorry. You testified to this earlier
and I -- the salespeople are there. Who else is at the
meeting?
A. The designers and myself and some other staff,
you know, like warehouse, if you have something to
talk about. It’s a meeting about the company
meeting. We talk about everything.
Q. And is this done on a normal workday?
A. Monday at 1:00 p.m.

JA-56
Q. Okay. Historically, has it been held on a workday?
A. No. Before I told you. Before we were little bit
more unorganized. We were having meetings as
we needed. But now in the last -- I'd say this year,
2017, we tried to keep it every Monday at 1:00 p.m.
Q. And would you bring all these people in on a
Saturday to hold one of those meetings?
A. They have to come. My salespeople and few of my
[56] designers, they have to come. But all of my
salespeople they are available.
Q. Do you know when Unicolors stopped selling this
fabric, this actual yardage?
A. Right off the top of my head, no, but I can tell you
here it shows. The last sales was in 2-19-2015.
Q. And who was that to?
A. American Dream.
Q. And how much was sold?
A. Three yards.
Q. And prior to that, what was the last sale?
A. 2-26-2014
Q. And how much was sold?
A. Two yards.
Q. And prior to that, what as the last sale?
A. 2-4-2014, 4495 yards.

JA-57
Q. And where was that sale—where was that
customer located?
A. Dallas.
Q. And do you know what that customer did with the
yardage you sold them?
A. Usually people buy my fabrics to make garments.
Q. Do you know what that customer did with the
yardage that you sold them?
A. Usually buy to make garments, yes. I know them,
***
[69] earlier, Ms. Lim, the repeat is 32 inches. So every
32 inches the design repeats itself and we have to do
color separation. That means that every single color
we have to separate it because something that they
draw just by hand like this, feather design that he
was showing me earlier, this cannot be print as is. We
have to do a lot of work with this. Color separation,
repeat, and then send it to our—yeah, color separation and repeat. You have to do those two.
Q. Understood. And I believe you testified that once
the design is finished, you publish it by giving it to
your salespeople to show your customers; is that
right?
A. Yes.
Q. When you give the fabric to your customers, do
they generally go out and start selling it that day or
within a couple of days when you give it to them?

JA-58
A. No. It takes time. They have to prepare it. As I
said, some customers might have just solid bodies and
they just hold the print.
But it’s not every day they have shows that buyers
come to their places and they—it’s not just—art is different. We take the fabric. We go to our customers.
But they have to make garments. It takes a process.
Not immediately.
Q. Does Unicolors also have a showroom?
[70] A. Yes.
Q. When you give these design groups to your salespeople, do you also put them in your showroom?
A. Yes.
Q. Okay. And that generally happens the same day
or around the same time that you give the designs to
your salespeople; right?
A. Yes.
MR. BURROUGHS: Okay. I’m going to, with
Your Honor’s permission, publish plaintiff’s demonstrative, the second to last, which is a comparison of
Exhibit 37 and Exhibit 38 which are both in evidence.
THE COURT: Any objection?
MR. BRIAN: Let me see it.
MR. BURROUGHS: Just this one.

JA-59
MR. BRIAN: Yes, we object to that, Your Honor.
THE COURT: All right. Then why don’t we take a
recess for today.
Ladies and gentlemen, I’ll ask that you come back
tomorrow at 9:30 a.m. and I appreciate your indulgence. As I indicated, I have a funeral I have to attend.
So please do not talk to anyone, don’t allow anyone to talk to you about the case. Do not conduct any
research of any kind on any subject matter connected
with this trial.
[71] So we’ll see you tomorrow at 9:30 a.m.
THE CLERK: All rise for the jury.
(The jurors exited the courtroom.)
(The following was held outside the jury’s presence:)
THE COURT: You can step down.
THE CLERK: Please be seated.
THE COURT: All right, Mr. Burroughs, as it relates to the objection, that’s not in evidence so I don’t
know how you’re going to get that into evidence.
MR. BURROUGHS: I understand.
THE COURT: Or through another witness.

JA-60
But the fact that was a demonstrative during
opening statement so they’ve objected. So my tentative—my inclination is to sustain it unless you plan to
introduce it through some other means.
MR. BURROUGHS: Okay.
THE COURT: A couple housekeeping matters.
This document which was a photograph that was
utilized as an exhibit today, it needs to be marked as
a number because it’s been used as evidence. I would
suggest maybe 38A. I’ll leave it up to you. But I need
it done by tomorrow.
The copies that were utilized, Mr. Doniger, during the
examination of the books, those need to be copied and
made as exhibit numbers.

JA-61
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
THE HONORABLE ANDRÉ BIROTTE JR., JUDGE
PRESIDING
UNICOLORS, INC.,

)
)
Plaintiff,
)
)
vs.
) No. CV 16-02322-AB-SK
)
H & M HENNES &
)
MAURITZ, L.P., et al., )
)
Defendants.
)
)
REPORTER’S TRANSCRIPT OF PROCEEDINGS
Los Angeles, California
Tuesday, December 7, 2017, 9:30 A.M.
Day 3 of Jury Trial
***

JA-62
[50] Q. Okay. In your opinion, that process is one of
the reasons why the garment looks less like the
EH101; correct?
A. It doesn’t—it has—it is the same when I look at
it. But, yes, because the nature of the fabric is different, it shows—it doesn’t have those details that you
see in my print in here.
Q. Do you work with Jacquard fabrics?
A. Of course, yes.
Q. We were talking yesterday about customers. I
think you said you had about 200 customers roughly.
A. Yeah.
Q. You have repeat customers, customers that come
back to you over and over again?
A. Yes.
Q. Do you have customers that come to you and ask
Unicolors to use one of its designers to come up with
a custom design just for them?
A. One of their designers? What do you mean by “designer”?
Q. Do you have any customers that come to Unicolors
and ask for you to create an original design just for
that customer?
A. Always.

JA-63
Q. And do you have specific designers in-house that
work with those customers? Or is it just random,
which designer [51] will come up with that design?
A. I think—I’m not running my design room, but I
think my design—the head of my design room, she assign different people for different accounts.
Q. And can you think off the top of your head of any
customers or accounts that come back regularly for
custom designs?
A. No.
Q. Is that a regular occurrence? Is that irregular,
rare, often?
A. It happens that customer wants—for example,
they want tropical designs. They come and they ask
me for tropical design, you know.
We look to our library, or we create fresh original
for them. But usually what we represent to them as a
line, as all of those designs that you see in the registration—my customers try to go with that. It’s
cheaper for them.
Q. Okay. So I think what I understand you saying is
most of your customers go with what you offer for sale
publicly because it’s less expensive than having you
create something original for them. Is that—
A. That’s correct.

JA-64
Q. And is it you that fields those phone calls or those
requests from customers for a specific custom design?
[52] A. No.
Q. Do you ever field those kind of phone calls or requests?
A. I have—in the e-mails—I see 200 e-mails a 63.
But, no, I don’t answer them. My staff do—
Q. I think we all are overburdened with e-mails.
On those e-mails that you see copies of, how is the
request made? Is it we want something in this design?
We want something with these colors? We want something that will look good on a hat? How do the requests come in to you?
A. Usually they send us their color palettes. They’re
saying that this is Walmart color palettes for this
season, and they ask for ethnic designs or tropical or
geometric.
That’s where we go—if we show—we usually try
to show from our library with their designated color.
But if that’s not satisfactory to them, we go and we do
it fresh from the start.
Q. They give you an idea what they want.
You say, “Here is what we already have that we
think might fit the bill.”
They say, “No, no, no. We want something a little
more—X.”

JA-65
And you say, “Okay. We’ll just come up with something brand-new for you.”
[53] Is that accurate?
A. That’s fair, yes.
Q. Is there a manager of the design room that would
take that request and pair it up with an appropriate
designer?
A. I have a responsible person in my design room,
that she’s overlook all of my designers. I really don’t
talk to her that—how you manage this. I just see the
result that it’s running well. So I’m trusting in her
judgment.
Q. What does Unicolors do internally to make sure
that designer knows this is a custom design for this
customer only?
A. When the manager—or when the e-mail comes
from the customer that I want tropical design with
this color palettes, that’s indicating that it’s for that
customer.
Q. And would the designer see that e-mail or be told
that information, that this is just for Company A or
Company B? Or do you know how the designer is
made aware that this is a special request?
A. That, I don’t know. I’m not aware.
Q. And then, once the design is finished, how does
Unicolors keep that design from going out into the

JA-66
showroom or keep that design from being put in a
salesperson’s hands and sold to the public—or offered
to the public?
A. The design belongs to us; so we can offer to the
public. But out of the courtesy to my customers, when
they [54] ask for privacy for that design, we try to hold
it for few months.
But I have salespeople who are very sneaky. They
go to my design room and they just take the designs
and—but it belongs to us because we have the right
for it. We don’t sell the right to any of my customers.
Q. Okay. So you have an agreement with the customer that we’re making this just for you, and you try
to honor that agreement internally; but salespeople
might get their hands on the design and run out with
it and try to make sales? Is that accurate?
MR. BURROUGHS: Your Honor, objection. Compound. Cumulative and relevance.
THE COURT: Sustained.
THE WITNESS: I don’t—
THE COURT: You don’t answer.
Next question.
BY MR. BRIAN:
Q. Do the customers that request you make them a
design know that your salespeople might be selling
that design to other members of the public?

JA-67
MR. BURROUGHS: Objection. Cumulative. Relevance. Calls for speculation.
THE COURT: Sustained.
[55] BY MR. BRIAN:
Q. Does Unicolors do anything internally to designate designs that are not supposed to be sold to the
public? I mean a designation on that design.
A. We try our best to tell in every meeting that just
an honor code to keep this privacy. And they’re doing
it. I haven’t had any incident.
I had incidents before, that one of my customers
called me and said, “Could you please take this out of
your line for at least two, three months?” Which I did
it. That was a problem I had.
But, no. We try—and most of—I mean, they’re
trying. I have so many designs. I mean, sometimes it
happens, but usually we try our best to not—
Q. So you advise the salespeople and the rest of the
staff not to sell publicly, but that’s—you trust them?
MR. BURROUGHS: Objection. Relevance. Cumulative and nonsensical.
THE COURT: Overruled.
THE WITNESS: My design room manager—I
have a manager for my design room. He—when we
create a design for the specific customers, he’s the one

JA-68
who is holding those designs back, and he doesn’t give
it to the—he doesn’t put it on the shelf.
If you come to my design room, I have—to my [56]
office, I have almost 15,000 square feet of sampling
room.
BY MR. BRIAN:
Q. Fifteen or 50?
A. One five.
Q. One five. That’s still a lot.
A. 15,000. It’s a huge place, three times than this
place.
Q. I am going to ask you to look at Exhibit Number
32.
This has been offered into evidence, Your Honor.
THE WITNESS: Yes.
BY MR. BRIAN:
Q. We talked about this a little bit yesterday. This is
the certificate of registration for a group of designs,
including the design we’re here about today, EH101.
We talked about the date of first publication, January 15th, 2011. We talked about the type of meeting
you would have held to share this with your sales staff
and other people.

JA-69
I think Mr. Burroughs had you testify that this
group of designs would have gone into your showroom
and have been available for public viewing. Correct?
A. Yes.
Q. If you look at the fourth design under Floral, we
have EH103, 105, 111, and then we have CEH113.
A. Yes.
[57] Q. What is CEH—what does the C mean in front
of 113?
A. If I recall, you asked me in my deposition. I explained we try to come up with a coding system for my
designs back in the 63—I don’t know, seven, eight
years ago.
And even you ask Hannah Lim if the first one was
101 and the last one is 201, 210, that means 109—
that’s not an accurate—see, that coding, it depends on
what 63 of the month that designer finished that design.
So it could be a blank between 101 to 110 because
for few days maybe their designers were so busy with
just creating the designs.
And when you create the designs, sometimes it
takes three or four days, sometimes in one 63, like
Hannah Lim testified, but sometimes it may take
more than that.

JA-70
So I don’t know. You have to—I can find out exactly what CEH113 representing because we still
have that coding system. But we’re not applying anymore because it wasn’t successful.
Q. And if I were to represent to you that Mrs. Lim
testified that EH in that coding system used at the
time meant January 2011, that E was the month and
the H was the year, would you have any reason to dispute—
A. She knows better than me that system.
Q. And then you would go 101, 102, 103, et cetera, as
you [58] added designs to the collection; correct?
A. No, no. As I said, the 2 or 3 could be a skip because
January 2 or January 3, maybe there was no designs.
Then it goes 3 or 4.
I know one of the numbers, it representing the 63
of the month. That, I am sure.
Q. Okay. My question, to circle back, is actually what
does the C mean? Because we see that there are a
number of designs without a C and eight or nine or so
that contain the C.
Do you know what the C means here?
A. No.
MR. BURROUGHS: Objection, Your Honor. Relevance. It’s cumulative.
THE COURT: Sustained.

JA-71
MR. BRIAN: Your Honor, this—
THE COURT: Let’s have a sidebar, please. (The
following proceedings were held at sidebar:)
THE COURT: So, Counsel, help me understand
what the significance of the C is.
MR. BRIAN: Sure. C, according to Hannah Lim,
means it is a confined design that should not be sold
to the public.
Mr. Nader testified that all of these went to the
public on the same 63, which would include eight confined [59] designs that should—either did not go to
the public because they’re confined to specific clients
or they went to the public in violation of that agreement.
So it’s relevance on both grounds.
MS. RIORDAN: If those designs did indeed not go
to the public on the 15th as he represented they did,
that fact invalidates the single work registration. So
they would not—
THE COURT: For all of the copyright?
MS. RIORDAN: For the entire copyright. And we
have law on that, Your Honor, if you want it.
THE COURT: All right.
Mr. Burroughs.

JA-72
MR. BURROUGHS: I do not see why Unicolors’
potential breach of contract with third parties has any
relevance to this case.
And the law regarding validation is inappropriate. In the L.A. Printex case, in which I argued courts
can’t invalidate a copyright registration without
showing fraud on the Copyright Office. There is no evidence of that here.
THE COURT: I will allow the question.
MS. RIORDAN: Thank you, Your Honor.
(The following was heard in open court in the
presence of the jury:)
THE COURT: All right. You can ask the question.
[60] BY MR. BRIAN:
Q. Do you know what the C means in this designation, Mr. Pazirandeh?
A. No, I don’t.
Q. Who would know what it means?
A. You might ask Miss Lim. Maybe she knows. But
I’m sure somebody at my office knows because we
have a code system. It’s a very simple thing. It’s a
number, then letters.
Q. Are you finished?
A. Yes.

JA-73
Q. You are not involved in either adding a C or taking a C away from any of these designations, are you?
A. No, I am not.
Q. And you don’t know when a C may or may not be
added to the design name, do you?
A. I have no idea.
Q. I am going to read to you testimony of your 30 (b)
(6) witness, Hannah Lim.
A. Me or—
THE COURT: Call Miss Lim. He said he doesn’t
know what C is.
MR. BRIAN: Okay. We will call Miss Lim, Your
Honor.
Q. Does Target come to you and ask for fabric?
A. Sometimes through our customers, yes.
***
[78] purchase, the purchase price; and I gathered
information from Hero and Fantomin from my colleagues to make sure the figures were a hundred precent accurate for H&M LP.
MR. DONIGER: Your Honor, at this time I would
like to move to Exhibit 28 into evidence.
THE COURT: All right. Any objection?

JA-74
MS: RIORDAN: No, Your Honor.
THE COURT: Twenty-eight will be received.
(Trial Exhibit 28 was admitted into evidence.)
MR. DONIGER: I am going to continue with 81,
13, through 84, 19.
Q. This is not your usual practice, H&M LP practice,
to make this; right?
A. It is not a usual practice to make this, no.
Q. You made it for this case; right?
A. Yes.
Q. Who told you to make it?
A. Who told you to make it? I made it to be prepared
for this discussion today so that I could share as much
details regarding the financials as possible.
Q. Okay. So the first line on the front of—is that item
number? There are a lot of numbers.
A. Yes. That’s the item number, the year, and the
season.
Q. So if you type it into the PBW [sic], you get some
information about that.
***
[84] Q. Cost of goods are paid to whom? That’s my
question.

JA-75
A. Paid to the H&M organization.
Q. What does that mean, “H&M organization”? Is
there a name of an entity?
A. What I can tell you is this, the cost of the goods
for this particular article. So what I mean by that is—
of course, I don’t have the specific details of what
makes up that cost, but I can estimate that it’s the
cost of production, any of the materials, et cetera.
Q. My question is about to whom this amount, the
$12.95 per piece, is being paid. You said H&M organization, and I am asking, what is it? What do you
mean, “H&M organization”?
A. Yes. Again, it’s the cost of the garment.
Q. Again, to whom is it paid?
A. I don’t know who it’s paid to specifically because
we’re not involved in production as an LP.
Q. H&M LP is paying; correct?
A. We take it at the cost.
Q. You don’t know that either?
A. No, I don’t know that the way you are phrasing
the question.
Q. And you are the CFO; correct?
A. That’s correct.

JA-76
Q. And do you know that money, 12.95, is really going out [85] of H&M LP’s pocket?
***
[110] THE WITNESS: I think I can handle maybe
five minutes more.
THE COURT: All right.
Miss Riordan, let’s see what we can do in five
minutes. We’ll reassess at that time.
MS. RIORDAN: Thank you, Your Honor.
Q. Miss Lim, if you need a break, please let us know.
We don’t want you to be uncomfortable.
A. Yes.
Q. Can you please turn to Plaintiff’s Exhibit 32.
A. Okay. Found it.
Q. Do you recall seeing this exhibit before?
A. Yes.
Q. And it’s a copyright registration that contains
EH101; right?
A. Yes.
Q. And you explained to us, when you were up on the
stand yesterday, just so we have a foundation, that E
and H before the number was a code; right?

JA-77
A. Yes.
Q. And what does EH mean?
A. My understanding is that EH stands for January
2011.
Q. And that code, once it’s put into the computer, is
never changed; right?
A. Yes.
[111] Q. And do you remember during your deposition
we talked about—I’m sorry. What does CEH mean in
front of—if you see here Number 113.
A. Well, EH is the same, 2011 January. C stand for
confined, which means this particular design was
given exclusivity to certain customer. And that exclusivity period isn’t very long; it could be anywhere from
two months to six months. Within those time period
it’s exclusive to that particular client.
Q. And you see in Exhibit 32 there is a lot of CEHs;
right? There is CEH113.
A. Yes.
Q. There is CEH146?
A. Yes.
Q. There is CEH147.
A. Yes.

JA-78
Q. There is CEH117—I’m sorry—175?
A. Yes.
Q. And there is CEH182?
A. Yes.
Q. There is CEH194?
A. Yes.
Q. There is CEH109?
A. Yes.
Q. There’s CEH, confined EH116?
[112] A.

Yes.

Q. So there’s about nine designs as part of this copyright registration that are confined designs; right?
A. Yes.
MS. RIORDAN: No further questions, Your
Honor.
THE COURT: Anything further, Mr. Burroughs
or Mr. Doniger?
MR. DONIGER: Very briefly, Your Honor.
CROSS-EXAMINATION
BY MR. DONIGER:

JA-79
Q. Miss Lim, you told the jury that a confined design,
if I understood you correctly, won’t be sold to another
customer for—won’t be produced for another customer for a limited period of time; correct?
A. That’s correct. We don’t sell it to other customer
within that period, but we do still show it.
Q. What do you mean, you “still show it”?
A. Well, that is because after that limited confined
time period, other customers could purchase that design.
Q. So looking at the registration certificate, does the
fact that some of these designs are confined—let me
ask it this way: Does the fact that some of the designs
created in the first couple weeks of January of 2015—
does the fact that some of those designs were confined
and some were not confined—is that inconsistent to
your understanding;
***

JA-80
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
THE HONORABLE ANDRÉ BIROTTE JR., JUDGE
PRESIDING
UNICOLORS, INC.,
Plaintiff,
vs.
H & M HENNES &
MAURITZ, L.P., et al.,
Defendants.

)
)
)
)
) No. CV 16-02322-AB-SK
)
)
)
)
)
)

REPORTER’S TRANSCRIPT OF PROCEEDINGS
Los Angeles, California
Thursday, December 7, 2017, 1:42 P.M.
Day 3 of Jury Trial

JA-81
[120] THE COURT: All right. Let me just have
one moment just because I want to pull up—I don’t
have the motion that was filed this afternoon so I just
want to pull it up on the docket.
(Pause in the proceedings.)
THE COURT: All right. Let me hear from Mr.
Burroughs. I want to hear your response to their motion.
MR. BURROUGHS: Okay. And I’ll move in reverse order if that’s okay with Your Honor starting
with this new invalidity argument.
THE COURT: All right.
MR. BURROUGHS: This issue was decided by the
Ninth Circuit in the case United Fabrics v. C&J Wear,
it was decided by the Ninth Circuit in the case L.A.
Printex v. Aeropostale, and it was recently decided in
the case Unicolors v. Urban Outfitters.
I argued all those Ninth Circuit appeals. They all
turned into opinions. Every single one of those stood
for the proposition that the copyright registration is
presumed valid. We’ve had a lot of back and forth
about validity and presumptions.
THE COURT: Right.
MR. BURROUGHS: And a copyright holder does
not have to prove the contents of that registration. It’s
[121] incumbent upon the challenging party to come

JA-82
forward with evidence to disprove the material in that
registration.
And in doing so, they have to prove two additional
things per an amendment to the Copyright Act that
requires two showings.
One, that whatever error in the copyright registration came to be because it’s a product of fraud. It
was a knowing misstatement to the Copyright Office.
That’s the first prong.
The second prong is that that knowing statement
was as to something material. This is generally addressed in case law where someone may lie about
owning artwork.
If I tried to register Mickey Mouse, that’s a material misstatement.
Whatever statements are being made with regard
to what may or may not have happened with some of
these designs, it falls far short of that, Your Honor.
And just to clarify what was actually said on the
record and I think Your Honor will remember this,
there was never any statement or testimony from
Ms. Lim or Mr. Pazirandeh that the designs were
never shown to the customers.
If you recall, both Ms. Lim and Mr. Pazirandeh
said, yes, it’s true that we’ll sometimes confine this
artwork for a period of time; two months, three
months, up [122] to six months.

JA-83
So certainly after that time period expires, this
artwork is shown to the public or can be shown to the
public. It’s not inconsistent.
THE COURT: All right.
MR. BURROUGHS: And even if it was, if there is
an error in the registration, it doesn’t invalidate the
copyright. It’s impossible to invalidate the copyright.
As Your Honor mentioned in the jury instructions, a copyright is created when a work is fixed in a
tangible medium.
Should an alleged infringer successfully challenge
the validity of a copyright registration, all that does is
rebuts the presumption.
The presumption then shifts back to the copyright
holder to prove the facts as stated. Right?
So if we have a copyright registration that says
we own the artwork, we can rely on that presumption.
If they rebut it, you need to put a witness on to say we
own the artwork.
Here that’s all been done. So unless Your Honor
has anything more on that particular issue, I’ll move
on.
THE COURT: All right. I think we have a jury
note. And I apologize for doing this but I think this is
probably more important.
***

JA-84
[132] MR. BURROUGHS: Well, we had requested
that we are seeking actual damages.
THE COURT: Okay. All right. Good luck with
that.
(Laughter.)
THE COURT: All right. So I’m going to make that
change. I’m going to draft up a note in response. I’m
going to have my law clerk draft up a note in response
while you continue the argument.
Once I get that note, I will give it to both sides to
look at it before it goes back to the jury.
(Pause in the proceedings.)
THE COURT: All right. So I’m sorry. All right.
Let’s get back to the matter at hand.
(Pause in the proceedings.)
DEFENSE MOTION RESUMED
THE COURT: All right. Okay. You rattled off all
the cases that you’d argued before the Ninth Circuit (Laughter.)
THE COURT: -- with respect to the mistakes and
you were focused on the fact that it needed to be material.

JA-85
MR. BURROUGHS: It needed to be material, it
needed to be a product of fraud, and also I mentioned
that there’s simply no evidence that there was any
mistake on this registration.
[133] As you heard Mr. Pazirandeh testify, he
takes the designs, gives them to his salespeople and
puts them in his salesroom. The simple act of putting
them in the salesroom alone or the sample room alone
where they’re publicly displayed or open for public
display would also be sufficient here; and there’ s no
testimony that there was any sales of any.
THE COURT: All right.
MR. BURROUGHS: And in the L.A. Printex case
that addressed this one of the publication mistake invalidation arguments, the Court there allowed the
plaintiff to simply file a Form CA to amend a copyright registration which is a procedure the Copyright
Office. So that we don’t believe that there is any merit
to that argument, Your Honor.
On the question of access, as Your Honor noted
during a conversation with H&M’s counsel,
Mr. Pazirandeh testified that 85,000 yards of this particular design were distributed to his 200 clients, most
of which are in the Los Angeles area.
You also heard H&M through Ms. Wharton testify that H&M has offices in the Los Angeles area so
same marketplace, 85,000 yards. I can speak to the
L.A. Printex case referenced. In that case there were
only 50,000 yards --

JA-86
THE COURT: Right.
***

JA-87
Staci Jennifer Riordan (SBN 232659)
Dale A. Hudson (SBN 81948)
Aaron M. Brian (SBN 213191)
NIXON PEABODY LLP
One California Plaza
300 S. Grand Avenue, Suite 4100
Los Angeles, CA 90071
Telephone: 213.629.6000
Facsimile: 213.629.6001
sriordan@nixonpeabody.com dhudson@nixonpeabody.com abrian@nixonpeabody.com
Attorneys for Defendant
H & M HENNES & MAURITZ LP
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC., a
California Corporation,
Plaintiff,
vs.
H & M HENNES &
MAURITZ LP, a New
York Limited Partnership, and DOES 1-20,
inclusive,
Defendants.

Case No.: 2:16-cv02322 AB (SKx)
NOTICE OF DEFENDANT H & M
HENNES & MAURITZ LP’S MOTION
FOR JUDGMENT
AS A MATTER OF
LAW, OR IN THE
ALTERNATIVE, MOTION FOR NEW
TRIAL

JA-88
Time: 10:00 a.m.
Ctrm.: 7B
Filed: April 5, 2016
Date: May 18, 2018
TO ALL PARTIES AND THEIR COUNSEL OF
RECORD:
PLEASE TAKE NOTICE that on May 18, 2018 at
10:00 a.m., or as soon thereafter as counsel may be
heard in the courtroom of the Honorable Andre
Birotte Jr., United States District Judge, Central District of California, located at Courtroom 7B, First
Street Federal Courthouse, 350 W. 1st Street, Los Angeles, California 90012, defendant H&M LP (“H&M”
or defendant) will, and hereby does, move the Court
for judgment as a matter of law (“JMOL”) or, in the
alternative, for a new trial pursuant to Fed. R. Civ. P.
50 and 59 as to the jury’s December 7, 2017 verdict in
favor of plaintiff Unicolors, Inc. (“Unicolors”).
These motions are made on the following grounds:
1. The Damages Award Was Excessive.
The jury awarded Unicolors “disgorgement” damages of $817,920, when the evidence could support a
figure of $98,395, at the most. The jury also awarded
Unicolors “lost profit” damages of $28,800, when the
admissible evidence was not sufficient to support any
award.
The jury awarded excessive damages, in both regards, because it was misled into believing that H&M
was responsible and therefore liable for alleged (but

JA-89
unproven) sales of accused garments by other entities
in other countries. There was no evidence to support
this speculative leap. Nor was there any evidence to
establish that any such sales were ever made or what
revenue or profits (if any) were derived from such
sales.
To remedy this miscarriage of justice, H&M
makes the following motions:
a. Pursuant to Rule 50(b) and relevant case law,
H&M moves the Court to reduce the damages
award from $846,720 to $98,395;
b. In the alternative, pursuant to Rule 59(e),
H&M moves the Court to amend the damages
award from $846,720 to $98,395;
c. In the alternative, pursuant to Rule 59(a),
H&M moves the Court for a new trial on damages; or
d. In the alternative, pursuant to Rule 50 and/or
59, H&M moves the Court to include with the
order granting new trial an option for Unicolors to accept a remittitur of damages, reducing the amount to $98,395, in lieu of
proceeding with the new trial.
2. There Was Insufficient Evidence to Support
the Claim for Vicarious Infringement
Unicolors asserted a claim against H&M for vicarious infringement, attempting to hold H&M liable for
alleged sales of the accused garments made by other
entities in other countries. Unicolors failed to put on
any evidence to establish that such international
sales were actually made, that H&M had control over

JA-90
the entities that made any such sales, or that H&M
received a direct financial benefit from any such sales.
The lack of that evidence is fatal to this claim. H&M
moved for judgment as a matter of law in trial. Even
though the evidence was lacking on this claim, the
jury was instructed on vicarious infringement. However, the verdict form did not ask the jury any questions about this claim, either as it relates to liability
for the alleged vicarious infringement, or the alleged
resulting damages.
The jury’s damages award indicates it believed
the claim was live and, further, that it included damages from international sales that Unicolors could recover only by way of a claim for vicarious
infringement. To remedy this prejudicial and unsupported outcome, H&M makes the following motions:
a. Pursuant to Rule 50(b), H&M renews its motion for judgment as a matter of law; and
b. In the alternative, and pursuant to Rule
59(a), H&M moves for a new trial on Unicolors’ claim for vicarious infringement.
3. There was Insufficient Evidence to Support
the Claim for Willfulness
Unicolors alleged that H&M’s infringement was
willful. There was insufficient evidence to support
this allegation. In fact, the evidence established the
opposite. The design on the H&M garments was protected by a valid Chinese copyright, which is due
equal treatment and respect in the U.S., the same as
any copyright registration issued by the U.S. Copyright Office. This alone provided H&M a reasonable

JA-91
basis to believe it was not infringing on Unicolors’ copyright for a separate, and different, design. The issue
of willfulness was also before the jury, unnecessarily.
It was not relevant to any other question posed to the
jury, and its only possible relevance vanished when
Unicolors at the very last possible minute (even after
the jury was instructed), chose to seek “actual damages” instead of “statutory damages.” H&M moved for
judgment as a matter of law on this claim in trial.
H&M makes the following motions post-trial, to correct this prejudicial error and erroneous jury finding:
a. Pursuant to Rule 50(b), H&M renews its motion for judgment as a matter of law; and
b. In the alternative, and pursuant to Rule
59(a), H&M moves for a new trial on Unicolors’ claim for willfulness.
4. The Jury’s Finding on Infringement Was
Erroneous
For a number of reasons, the jury’s finding that
H&M infringed on Unicolors’ copyright for EH101,
was erroneous and should be set aside. In the alternative, H&M should be given a new trial on this fundamental issue.
A. Unicolors Did Not Possess a Valid Copyright
The first pre-requisite to a civil action for copyright infringement is that the plaintiff have a valid
copyright registration. 17 U.S.C. § 411. The evidence
in trial established that Unicolors knowingly presented false information to the copyright office to se-

JA-92
cure a group registration of 31 textile designs, which
is possibly only if all designs are a “single unit” and
were published for the first time on the same date.
The evidence, from Unicolors itself, precluded any
reasonable juror from finding that Unicolors “published” all 31 designs for the first time on the identified date.
H&M renews is motion for judgment as a matter
of law, pursuant to Rule 50(b). H&M, in the alternative, moves for a new trial on this issue, pursuant to
Rule 59(e).
B. Unicolors Did Not Prove Access
In order to prove copying, Unicolors had to prove
that H&M (or the garment supplier/designer) had access to EH101 and that the designs are substantially
similar. Unicolors did not present evidence sufficient
to show that access was anything more than a “bare
possibility”, which is not enough. There was no evidence that the Chinese designer or supplier had access to EH101. Nor was there evidence sufficient to
assume that an executive at H&M, with relevant decision making authority, had access to EH101. Any
finding of access was based on speculation and conjecture, not evidence.
H&M renews is motion for judgment as a matter
of law, pursuant to Rule 50(b). H&M, in the alternative, moves for a new trial on this issue, pursuant to
Rule 59(e).
C. Unicolors Did Not Prove that the Designs Were Substantially Similar

JA-93
If access is established, the plaintiff must then
prove that the designs are “substantially similar.” To
do so, in this Circuit, plaintiff must show similarity
under the intrinsic and extrinsic test. The extrinsic
test requires the Court to filter out those elements
that are not protectable, with assistance from expert
witnesses. Unicolors refused to present actual expert
testimony on this issue, although it did use its President to present expert testimony on other issues. And
the Court granted Unicolors’ motion to exclude
H&M’s expert on this issue, Robin Lake. Without performing the necessary filtering, and advising the jury
which elements should be considered for the similarity analysis, the Court left the jury without the tools
or guidance necessary to perform its function.
H&M renews is motion for judgment as a matter
of law, pursuant to Rule 50(b). H&M, in the alternative, moves for a new trial on this issue, pursuant to
Rule 59(e).
D. Unicolors Did Not Prove that the Designs Were Strikingly Similar
Another option for a copyright plaintiff to establish “access” is to prove that the two designs are so
strikingly similar that there is no possibility the accused design was independently created. In other
words, the design had to be accessed and copied because there is no other explanation. The evidence was
insufficient to meet this very high bar. In fact, there
was competent evidence of independent creation,
which should prevent application of this alternative
test.

JA-94
H&M requested, but was not given, an instruction
advising the jury of presumptions that should have
flowed from the Chinese copyright registration for
Xue Xu. The Court also denied H&M’s request to judicially notice the copyright registration that the U.S.
Copyright Office issued for Xue Xu. Those copyright
registrations, in conjunction with the “design file” for
Xue Xu from DOMO’s business records was sufficient
evidence to establish plausible independent creation.
In that circumstance, striking similarity cannot be
used to establish access, as a matter of law. Moreover,
Unicolors was permitted to use a late-produced, and
modified version of EH101 to support its claim of visual similarity. This was improper on several grounds,
each addressed in H&M’s motion.
H&M renews its motion for judgment as a matter
of law on the claim of “striking similarity.” In the alternative, H&M moves for a new trial on that claim.
The motion for new trial is based on the grounds in
the initial motion for judgment as a matter of law, as
well as the following:
a. Unicolors should not have been permitted to
use the monochromatic version of EH101 for
any purpose at trial; and
b. The jury was not instructed properly on the
presumptions that flow from the copyright
registrations for Xue Xu.
These Motions are based on this Notice of Motion,
the Memorandum of Points and Authorities filed concurrently herewith, the Declaration of Staci J.
Riordan filed concurrently herewith, the [Proposed]

JA-95
Order lodged concurrently herewith, and any further
evidence and argument as may be presented to the
Court prior to or at the hearing on this Motion.
This motion is made following the conference of
counsel pursuant to Local Rule 7-3 which took place
by telephone on January 10, 2018, and by email on
January 4 and April 3, 2018.

JA-96
Dated: April 10, 2018

NIXON PEABODY LLP
By /s/ Staci Jennifer Riordan
Staci Jennifer Riordan
Aaron M. Brian
Dale A. Hudson
Attorneys for Defendant
H & M HENNES & MAURITZ L.P.

JA-97
Stephen M. Doniger (SBN 179314)
stephen@donigerlawfirm.com
Scott Alan Burroughs (SBN 235718)
scott@donigerlawfirm.com
DONIGER / BURROUGHS
603 Rose Avenue
Venice, California 90291
Telephone: (310) 590-1820
Attorneys for Plaintiff
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC.,
Plaintiff,
vs.
H&M HENNES &
MAURITZ LP; et al.,
Defendants.

Case No.: 2:16-cv-02322
AB (SKx)
Honorable André Birotte,
Jr. Presiding
UNICOLORS, INC.’S
OPPOSITION TO
DEFENDANT’S
RENEWED MOTION
FOR JUDGMENT AS A
MATTER OF LAW, OR
IN THE ALTERNATIVE,
MOTION FOR A NEW
TRIAL
[Declaration of Scott Alan
Burroughs submitted
concurrently herewith]

JA-98
Date: May 18, 2018
Time: 10:00 am
Courtroom: 350 West First
Street, Los Angeles, CA
90012 - Courtroom 7B

JA-99
TABLE OF CONTENTS
Page
I.

LEGAL STANDARDS ........................................ 1
A. Renewed Motion for Judgment as a
Matter of Law ................................................ 1
B. Motion for New Trial..................................... 2

II. H&M’S MOTIONS SHOULD BE DENIED ...... 3
A. The jury’s damages awards were
proper 3
1. H&M failed to Move for JMOL on
Damages ................................................... 4
2. H&M fails to credibly challenge the
jury’s profit calculation ............................ 5
a.

Unicolors
established H&M’s
total revenues ................. 6

b.

H&M provided no
substantial evidence
to contradict the
jury’s profit
disgorgement
findings ........................... 9

JA-100
c.

The evidence
supports the
conclusion that
H&M was involved
in any foreign sales ...... 13

d.

Remittitur should
not be for less than
$247,665.00 ................... 14

3. The jury’s findings regarding
Unicolors’ lost profits were sound ......... 16
B. H&M is not entitled to a new trial on
damages ....................................................... 17
1. H&M’s Packing Slips Were
Properly Admitted ................................. 18
2. The Testimony of Justin Lewis Was
Properly Excluded.................................. 22
3. Unicolors’ Counsel Properly
Represented the Packing Slips.............. 23
4. The Court’s instruction on vicarious
liability was harmless............................ 24
5. The jury’s willfulness finding was
proper ..................................................... 26
6. The statutory damages instruction
was proper .............................................. 28
C. The jury properly found infringement ....... 28
1. Unicolors’ closing was proper ................ 28

JA-101
2. Unicolors holds a valid copyright
and registration ..................................... 29
3. Unicolors established access ................. 30
4. The black-and-white version of
EH101 was properly admitted .............. 31
5. The jury’s substantial similarity
finding was sound .................................. 33
6. Lake’s exclusion was proper .................. 34
7. The jury was properly instructed on
the Xue Xu copyrights ........................... 35
III. CONCLUSION ................................................. 36

JA-102
TABLE OF AUTHORITIES
Page(s)
CASES
Adobe Sys. Inc. v. Christenson,
809 F.3d 1071 (9th Cir. 2015)..........................9, 23
Akermanis v. Sea–Land Serv., Inc.,
688 F.2d 898 (2d Cir.1982) ....................................5
Architectural Iron Workers Local No. 63
Welfare Fund v. United Contractors, Inc.,
46 F. Supp. 2d 769 (N.D. Ill. 1999)................18, 21
Baxter v. MCA, Inc.,
812 F.2d 421 (9th Cir. 1987)..........................30, 31
Cream Records, Inc. v. Joseph Schlitz Brewing
Co.,
864 F.2d 668 (9th Cir.1989)...................................7
D & S Redi–Mix v. Sierra Redi–Mix &
Contracting Co.,
692 F.2d 1245 (9th Cir.1982)...............................15
Dolman v. Agee,
157 F.3d 708 (9th Cir. 1998)................................26
Donovan v. Penn Shipping Co., Inc.,
536 F.2d 536 (2d Cir.1976) ....................................5
DSPT Int’l, Inc. v. Nahum,
624 F.3d 1213 (9th Cir. 2010)................................6

JA-103
Dunn & Fenley, LLC v. Allen,
No. CIV. 02-1750-JE, 2007 WL 2973549
(D. Or. Oct. 9, 2007) .............................................27
E.E.O.C. v. Go Daddy Software, Inc.,
581 F.3d 951 (9th Cir. 2009)..................................4
Erickson Prods. Inc. v. Kast,
No. 5:13-CV-05472-HRL, 2016 WL
3951659 (N.D. Cal. July 22, 2016) ......................27
Expediters Int’l, Inc. v. Direct Line Cargo Mgt.
Servs., Inc.,
995 F.Supp. 468 (D.N.J.1998) .............................13
In re First All. Mortg. Co.,
471 F.3d 977 (9th Cir. 2006)..................................2
Frank Music Corp. v. Metro– Goldwyn–Mayer,
Inc.,
772 F.2d 505 (9th Cir.1985)...................................7
Freund v. Nycomed Amersham,
347 F.3d 752 (9th Cir.2003)...................................4
Friedman v. Live Nation Merch., Inc.,
833 F.3d 1180 (9th Cir. 2016)........................23, 28
Gallick v. Balt. & Ohio R.R. Co.,
372 U.S. 108 (1963)................................................2
Grosvenor Properties Ltd. v. Southmark Corp.,
896 F.2d 1149 (9th Cir.1990)...............................24
Hammer v. Gross,
932 F.2d 842 (9th Cir.).........................................24

JA-104
Historical Research v. Cabral,
80 F.3d 377 (9th Cir.1996) (per curiam) .............27
In Design v. K–Mart Apparel Corp.,
13 F.3d 559 (2d Cir.1994) ......................................7
Kamar Int’l, Inc. v. Russ Berrie & Co.,
752 F.2d 1326 (9th Cir.1984)...............................16
Kenbrooke Fabrics, Inc. v. Holland Fabrics,
Inc.,
602 F.Supp. 151 (S.D.N.Y.1984) .........................17
L.A. Mem’l Coliseum Comm’n v. Nat’l Football
League,
791 F.2d 1356 (9th Cir. 1986)................................2
L.A. Printex Indus., Inc. v. Aeropostale, Inc.,
676 F.3d 841 (9th Cir. 2012).............. 29, 30, 33, 34
Lahiri v. Universal Music & Video
Distribution, Inc.,
513 F. Supp. 2d 1172 (C.D. Cal. 2007) ................35
Lambert v. Ackerley,
180 F.3d 997 (9th Cir.1999) cert. denied,
528 U.S. 1116, 120 S.Ct. 936, 145 L.Ed.2d
814 (2000) ...............................................................5
Lamps Plus, Inc. v. Seattle Lighting Fixture
Co.,
345 F.3d 1140 (9th Cir. 2003)..............................29
Landes Const. Co. v. Royal Bank of Canada,
833 F.2d 1365 (9th Cir. 1987)................................3

JA-105
Liberty Toy Co. v. Fred Silber Co.,
149 F.3d 1183 (6th Cir. 1998)..............................13
Lipton v. Nature Co.,
71 F.3d 464 (2d Cir.1995) ....................................30
Los Angeles News Serv. v. Reuters Television
Int’l, Ltd.,
149 F.3d 987 (9th Cir. 1998)................................13
Marbled Murrelet v. Babbitt,
83 F.3d 1060 (9th Cir. 1996)................................31
McCollough v. Johnson, Rodenburg &
Lauinger, LLC,
637 F.3d 939 (9th Cir. 2011)..................................6
Metcalf v. Bochco,
294 F.3d 1069 (9th Cir.2002)...............................34
Metro-Goldwyn-Mayer Studios, Inc. v.
Grokster, Ltd.,
454 F. Supp. 2d 966 (C.D. Cal. 2006) ..................21
Minx Int’l, Inc. v. Rue 21 Inc.,
No. 215CV05645CASPLAX, 2017 WL
2961546 (C.D. Cal. July 10, 2017).........................7
Molski v. M.J. Cable, Inc.,
481 F.3d 724 (9th Cir. 2007)..................................2
Multimedia Patent Tr. v. Apple Inc.,
No. 10-CV-2618-H KSC, 2013 WL 173966
(S.D. Cal. Jan. 16, 2013) ................................23, 28

JA-106
Murphy v. City of Long Beach,
914 F.2d 183 (9th Cir.1990)...................................4
N.A.S. Import. Corp. v. Chenson Enterprises,
Inc.,
968 F.2d 250 (2d Cir.1992) ..................................26
Nexon Am. Inc. v. Kumar,
11–cv– 06991–ODW, 2012 WL 1116382
(CD. Cal. Apr. 3, 2012)...........................................7
Oracle Corp. v. SAP AG,
765 F.3d 1081 (9th Cir. 2014)..............................15
Passantino v. Johnson & Johnson Consumer
Prods.,
212 F.3d 493 (9th Cir. 2000)..................................3
Polar Bear Prods., Inc. v. Timex Corp.,
384 F.3d 700 (9th Cir.2004).................................16
Psihoyos v. John Wiley & Sons, Inc.,
No. 11 CIV. 1416 JPO, 2012 WL 5506121
(S.D.N.Y. Nov. 7, 2012), aff’d, 748 F.3d 120
(2d Cir. 2014) .......................................................14
R.F.M.A.S. v. Mimi So,
619 F. Supp. 2d 39 (S.D.N.Y. 2009) ....................35
Rivas v. Knight Transportation Inc.,
No. CV 15-05793-DTB, 2017 WL 3453365
(C.D. Cal. Mar. 24, 2017) .....................................32

JA-107
Robertson v. McNeil-PPC Inc.,
No. LACV1109050JAKSSX, 2015 WL
12698313 (C.D. Cal. Mar. 20, 2015) ....................25
Roger v. S. Route Mar.,
No. C12-1854-RSL, 2014 WL 12029283
(W.D. Wash. Sept. 16, 2014) ................................22
Ruvalcaba v. City of Los Angeles,
64 F.3d 1323 (9th Cir. 1995)..................................3
S.E.C. v. Todd,
642 F.3d 1207 (9th Cir. 2011)................................1
Semerdjian v. McDougal Littell,
641 F. Supp. 2d 233 (S.D.N.Y. 2009) ....................7
Silver Sage Partners, Ltd. v. City of Desert Hot
Springs,
251 F.3d 814 (9th Cir. 2001)............................2, 17
TCL Commc’ns Tech. Holdings Ltd. v.
Telefonaktenbologet LM Ericsson,
No. CV 15-02370 JVS, 2016 WL 7042085
(C.D. Cal. Aug. 17, 2016) .....................................22
Three Boys Music Corp. v. Bolton,
212 F.3d 477 (9th Cir.2000)................. 6, 16, 27, 30
Unicolors, Inc. v. Urban Outfitters, Inc.,
853 F.3d 980 (9th Cir. 2017)..........................26, 30
United States v. 99.66 Acres of Land,
970 F.2d 651 (9th Cir. 1992)................................32

JA-108
United States v. Brown,
688 F.2d 1112 (7th Cir.1982)...............................21
United States v. Clevenger,
733 F.2d 1356 (9th Cir. 1984)................................6
United States v. Farina,
184 F.2d 18 (2d Cir.1950) ...................................14
United States v. Jakobetz,
955 F.2d 786 (2d Cir.1992) ..................................21
United States v. N.Y., New Haven & Hartford
R.R. Co.,
355 U.S. 253, 78 S.Ct. 212, 2 L.Ed.2d 247
(1957) ......................................................................9
Vollrath Co. v. Sammi Corp.,
9 F.3d 1455 (9th Cir. 1993)....................................1
Wallace v. City of San Diego,
479 F.3d 616 (9th Cir. 2007)..................................1
Williams v. Gaye,
885 F.3d 1150 (9th Cir. 2018)..........................2, 17
Yowan Yang v. ActioNet, Inc.,
No. CV1400792ABPJWX, 2017 WL
2117028 (C.D. Cal. Jan. 23, 2017) .................1, 2, 4
Zhang v. Am. Gem Seafoods, Inc.,
339 F.3d 1020 (9th Cir. 2003)................................5
STATUTES
17 U.S.C. § 410 .........................................................29

JA-109
17 U.S.C. § 504 ................................................ 6, 16, 28
17 U.S. Code § 106 ....................................................28
Fed.R.Civ.P 61...........................................................25

JA-110
THE MOTION MUST BE DENIED
H&M Hennes & Mauritz LP’s (“H&M”) motion
fails to meet the high threshold necessary to obtain
the drastic relief sought. It should be denied, as follows:
I.

LEGAL STANDARDS

A. Renewed Motion for Judgment as a Matter of Law
A Rule 50(b) motion succeeds only where the evidence, “construed in the light most favorable to the
nonmoving party, permits only one reasonable conclusion, and that conclusion is contrary to the jury’s.”
Vollrath Co. v. Sammi Corp., 9 F.3d 1455, 1460 (9th
Cir. 1993). Trial courts must uphold any jury’s verdict
that is supported by “substantial evidence,” which is
“any evidence that adequately supports a jury’s conclusions and verdict even if it is also possible to draw
a contrary conclusion from the same evidence.”
Yowan
Yang
v.
ActioNet,
Inc.,
No.
CV1400792ABPJWX, 2017 WL 2117028, at *3 (C.D.
Cal. Jan. 23, 2017)(internal quotations omitted), citing S.E.C. v. Todd, 642 F.3d 1207, 1215 (9th Cir.
2011), Wallace v. City of San Diego, 479 F.3d 616, 624
(9th Cir. 2007)). Stated differently, “where the nonmoving party has presented any evidence sufficient to
support the jury’s conclusion, the Rule 50(b) motion
should be denied.” Id. (citation omitted).

JA-111
B. Motion for New Trial
The court “may not grant a new trial simply because it would have arrived at a different verdict.” Silver Sage Partners, Ltd. v. City of Desert Hot Springs,
251 F.3d 814, 819 (9th Cir. 2001). It “must disregard
all evidence favorable to the moving party that the
jury is not required to believe,” and “may not substitute its view of the evidence for that of the jury[.]”
Yowan
Yang
v.
ActioNet,
Inc.,
No.
CV1400792ABPJWX, 2017 WL 2117028, at *3 (C.D.
Cal. Jan. 23, 2017)(citations omitted). “Indeed, the
court “must attempt to reconcile the jury’s findings,
by exegesis if necessary, … before [it is] free to disregard the jury’s special verdict and [order] a new trial.”
Id., citing Gallick v. Balt. & Ohio R.R. Co., 372 U.S.
108, 119 (1963) (citations omitted).
And it must “uphold the award unless it is clearly
not supported by the evidence or only based on speculation or guesswork.” Williams v. Gaye, 885 F.3d
1150, 1172 (9th Cir. 2018) (copyright case, internal
quotation marks omitted), citing In re First All.
Mortg. Co., 471 F.3d 977, 1001 (9th Cir. 2006), L.A.
Mem’l Coliseum Comm’n v. Nat’l Football League, 791
F.2d 1356, 1360 (9th Cir. 1986).
A new trial is appropriate only where the jury’s
verdict is “contrary to the clear weight of the evidence” or “based upon false or perjurious evidence,” or
“to prevent a miscarriage of justice.” Molski v. M.J.
Cable, Inc., 481 F.3d 724, 729 (9th Cir. 2007) (quotations and citations omitted). A new trial should be
granted only “[i]f, having given full respect to the

JA-112
jury’s findings, the judge … is left with the definite
and firm conviction that a mistake has been committed.” Landes Const. Co. v. Royal Bank of Canada, 833
F.2d 1365, 1371-1372 (9th Cir. 1987). “[I]n most cases
the judge should accept the findings of the jury, regardless of his own doubts in the matter.” Id. at 1371.
And “courts are granted broad discretion in admitting evidence, and their rulings are reviewed only
for an abuse of discretion.” Ruvalcaba v. City of Los
Angeles, 64 F.3d 1323, 1328 (9th Cir. 1995). A new
trial is only warranted when an erroneous evidentiary
ruling “substantially prejudiced” a party. Id. And, in
the Ninth Circuit, “[t]he trial court may grant a new
trial only if the verdict is contrary to the clear weight
of the evidence, is based upon false or perjurious evidence, or to prevent a miscarriage of justice.” Passantino v. Johnson & Johnson Consumer Prods., 212
F.3d 493, 510 n. 15 (9th Cir. 2000). The Motion fails
to meet the above standards and requirements.
II. H&M’S MOTIONS SHOULD BE DENIED
A. The jury’s damages awards were proper.
The jury had ample direct and circumstantial evidence on which to base its award. H&M’s challenge
fails for the following reasons.
1. H&M failed to Move for JMOL on Damages
H&M waived its right to challenge the damages
award because it failed to move for JMOL on this issue. “Because it is a renewed motion, a proper post-

JA-113
verdict Rule 50(b) motion is limited to the grounds asserted in the pre-deliberation Rule 50(a) motion.”
E.E.O.C. v. Go Daddy Software, Inc., 581 F.3d 951,
961 (9th Cir. 2009).
Indeed, a party cannot properly “raise arguments
in its post-trial motion for judgment as a matter of law
under Rule 50(b) that it did not raise in its preverdict
Rule 50(a) motion.” Freund v. Nycomed Amersham,
347 F.3d 752, 761 (9th Cir.2003), citing Fed.R.Civ.P.
50 advisory committee’s notes to the 1991 amendments (“A post trial motion for judgment can be
granted only on grounds advanced in the pre-verdict
motion.”); Murphy v. City of Long Beach, 914 F.2d
183, 186 (9th Cir.1990) (“[Judgment notwithstanding
the verdict] is improper if based upon grounds not alleged in a directed verdict [motion].” (brackets in original). “Without exception, the movant cannot raise
arguments in its post-trial motion for judgment as a
matter of law under Rule 50(b) that it did not raise in
its preverdict Rule 50(a) motion.” Yowan Yang, 2017
WL 2117028, at *3, citing Freund v. Nycomed Amersham, 347 F.3d 752, 761 (9th Cir. 2003) (other citations omitted). H&M at no times moved for a directed
verdict on the calculation of damages or any other
damages issues. It thus waived this argument.
Indeed, H&M concedes that it did not move for
JMOL under Rule 50(a) on the issue of damages. But
it attempts to evade the consequences of this failure
by arguing that its JMOL on the issue of vicarious liability was actually a JMOL on the issue of damages.
See Motion, pg. 3 fn. 1. This averment is meritless—
the verdict form and the damages award made no ref-

JA-114
erence to vicarious infringement. H&M was found liable for willful infringement. Because the pre-deliberation Rule 50(a) motion only addressed vicarious
liability—which was ultimately not specifically addressed at trial—and not the issue of damages, this
motion must be denied.
2. H&M fails to credibly challenge the
jury’s profit calculation.
Even if H&M had not waived its challenge to the
amount of damages, that challenge is without merit
under both Fed.R.Civ.P. 50 and 59. The court “may
reverse a jury’s finding of the amount of damages if
the amount is grossly excessive or monstrous.” Zhang
v. Am. Gem Seafoods, Inc., 339 F.3d 1020, 1040 (9th
Cir. 2003), citing Lambert v. Ackerley, 180 F.3d 997,
1011 (9th Cir.1999) (en banc), cert. denied, 528 U.S.
1116, 120 S.Ct. 936, 145 L.Ed.2d 814 (2000). However, such relief is “an invasion of the jury’s prerogative and the right of the plaintiff to its determination,”
and thus “can be justified only in limited situations.”
Donovan v. Penn Shipping Co., Inc., 536 F.2d 536, 539
(2d Cir.1976); see also Akermanis v. Sea–Land Serv.,
Inc., 688 F.2d 898, 902 (2d Cir.1982) (explaining that
remittitur is “a limited exception to the sanctity of
jury fact-finding”).1 Here, all evidence in the record
1 See also DSPT Int’l, Inc. v. Nahum, 624 F.3d 1213, 1224
(9th Cir. 2010). Courts should defer to the jury’s “finding of the
appropriate amount of damages unless the award is ‘grossly excessive or monstrous, clearly not supported by the evidence, or
based only on speculation or guesswork.’” McCollough v. Johnson, Rodenburg & Lauinger, LLC, 637 F.3d 939, 957 (9th Cir.
2011) (citation omitted).

JA-115
supports the jury’s award. Unlike the cases cited by
H&M in is brief, H&M failed to present any credible
evidence at trial to even cast doubt on the damages
verdict,2 let alone render it unsupportable by the record. H&M’s motion does not meet its burden.
a. Unicolors established H&M’s total revenues.
At trial, Unicolors sought and recovered a reasonable accounting of H&M’s profits per 17 U.S.C.
§ 504(b) by providing a basis for the jury to determine
total revenues from the infringing sales and then allowing the burden to shift to H&M.3
Once Unicolors established liability, “§ 504(b) create[d] an initial presumption that the infringer’s
‘profits … attributable to the infringement’ are equal
to its gross revenue.” Minx Int’l, Inc. v. Rue 21 Inc.,
No. 215CV05645CASPLAX, 2017 WL 2961546, at *5
(C.D. Cal. July 10, 2017), citing Nexon Am. Inc. v. Kumar, 11–cv–06991–ODW, 2012 WL 1116382 at *3
(CD. Cal. Apr. 3, 2012) (other citation omitted). The
To the extent it proffered deposition testimony from Chelsea Wharton, the jury was entitled to reject “in whole or in part”
that testimony. United States v. Clevenger, 733 F.2d 1356, 1359
(9th Cir. 1984) (as amended) (“The jury was free to accept or reject [the witness’s] testimony in whole or in part.”).
2

3 “In establishing the infringer’s profits, the copyright owner
is required to present proof only of the infringer’s gross revenue,
and the infringer is required to prove his or her deductible expenses and the elements of profit attributable to factors other
than the copyrighted work.” Three Boys Music Corp., 212 F.3d
477, 487 (9th Cir.2000).

JA-116
law does not require more. Indeed, ‘[t]he copyright
holder cannot realistically be required to offer more
proof than this since the facts and figures of the sales
and markdowns is a subject exclusively within the infringers knowledge.” Semerdjian v. McDougal Littell,
641 F. Supp. 2d 233, 247 (S.D.N.Y. 2009) (citation
omitted).4
Unicolors established H&M’s revenues by introducing (a) images and exemplars of the infringing garments showing their retail ticket prices and the fact
that they were sold in the U.S. (See Dkt. No. 213, Exs.
34, 37); (b) H&M’s packing lists, sales summaries, and
testimony as to H&M’s business, which established
H&M’s inventory of infringing product (Exs. 28, 29,
30, 31(partial)); (c) H&M’s request for admissions responses, which established that H&M employed designers to create textile designs (RFA No. 5, read at
trial); and (d) H&M’s deposition testimony and interrogatory responses, which conceded that H&M had
sold its entire inventory of infringing product (Wharton Dep., 8:7-13, read at trial; Interrogatory No. 20,
read at trial).

4 For this reason, “[a]ny doubts resulting from an infringer’s
failure to present adequate proof of its costs are resolved in favor
of the copyright holder.” In Design v. K–Mart Apparel Corp., 13
F.3d 559, 564 (2d Cir.1994)564; Frank Music Corp. v. Metro–
Goldwyn–Mayer, Inc., 772 F.2d 505, 514 (9th Cir.1985); 4 Nimmer on Copyright, § 14.03[B] at 14–37. If the infringing defendant does not meet its burden, the gross figure stands as the
defendant’s profits. Cream Records, Inc. v. Joseph Schlitz Brewing Co., 864 F.2d 668, 669 (9th Cir.1989) (emphasis added);
Frank Music, 772 F.2d at 514.

JA-117
H&M’s accumulated packing lists for its online
and in-store retail operations show that roughly
48,000 units of each garment, or 96,000 total, were
purchased and then shipped for sale. While H&M did
not produce business records accounting for the sales
of all 96,000 of those units, it did admit it had no unsold units in inventory. Wharton Dep., 8:7-13 (“[W]e
know that we have none of this product left, first of
all, and I can’t tell you specifically how we have these
estimates.”) And H&M produced a spreadsheet (Ex.
28) accounting for a subset of those sales—approximately 12,000 of the 96,000 units which it admits
were sold in the U.S.—which provided a basis to extrapolate what was more likely than not the total revenues and profits from the sales of all the infringing
units. And this spreadsheet, a summary prepared by
H&M for this litigation, failed to establish any facts
about the remaining inventory.
From this evidence, the jury could reasonable conclude that (1) it was more likely than not that H&M
had sold the entirety of the inventory that its business
records showed were in its possession, and (2) that it
sold those garments for no less revenue per unit than
was shown on the garment receipts or in the H&M
accounting for the smaller subset of infringing garments. Thus, Unicolors provided a sufficient basis for
the jury to make a finding based on the preponderance of the evidence regarding H&M’s revenues.

JA-118
b. H&M provided no substantial evidence
to contradict the jury’s profit disgorgement
findings.
Once Unicolors proffered evidence of H&M’s inventory, that said inventory was depleted, and the actual per-garment profitability for the units, the
burden then shifted to H&M, which had every opportunity to rebut the evidence yet failed to present even
a single witness to present its response.
The evidence at trial showed that H&M took inventory of and into its chain of distribution nearly
84,000 infringing garments for which it failed to account or offer any evidence regarding. It failed to provide any evidence as to where any of these other units
were sold, and specifically offered no evidence of sales
anywhere outside the U.S. If there were any such
sales, it was incumbent on H&M to provide that evidence given that this information was “within the
knowledge of” H&M. Adobe Sys. Inc. v. Christenson,
809 F.3d 1071, 1079 (9th Cir. 2015) (it is an “established legal principle that the burden of proof should
not be placed upon a litigant to establish facts particularly within the knowledge of his adversary.”), citing
H.R. Rep. 94–1476, at 81 (1976), reprinted in 1976
U.S.C.C.A.N. 5659, 5693; see United States v. N.Y.,
New Haven & Hartford R.R. Co., 355 U.S. 253, 256 n.
5, 78 S.Ct. 212, 2 L.Ed.2d 247 (1957) (“The ordinary
rule, based on considerations of fairness, does not
place the burden upon a litigant of establishing facts
peculiarly within the knowledge of his adversary.”); 2
McCormick on Evid. § 337 (7th ed.) (2013) (“A doctrine often repeated by the courts is that where the

JA-119
facts with regard to an issue lie peculiarly in the
knowledge of a party, that party has the burden of
proving the issue.”).
Unicolors presented evidence that the infringing
garments were sold in the United States; H&M provided no contrary evidence. The jury had a sufficient
basis to draw inferences and to reach its ultimate conclusion.
H&M also failed to produce any evidence that
sales outside the United States would have been
through any other corporate entity, or that it had no
control or interest in those sales. On the other hand,
ample evidence was presented at trial to establish
that H&M had control over its suppliers and vendors
and that the H&M packing lists reflecting the 96,000
garments at issue were H&M business records. First,
H&M admitted in response to Requests for Admissions that it employs graphic designers for purposes
of creating graphics for garments, and the garments
sold bore the H&M labels—from this a jury could conclude that Defendant designed the offending garments. Next, the packing lists were provided by H&M
in this case bearing H&M’s name at the top and
H&M’s Bates numbering at the bottom—thus establishing a basis for the jury to conclude that those documents were H&M’s business records. And finally,
the evidence showed that H&M has not made any indemnification claims against its vendors—either its
supplier in China or any other H&M entity involved
in the buying and/or shipping of the garments—from
which a jury could reasonably conclude that H&M is
ultimately responsible for those sales.

JA-120
H&M complains that its packing lists were introduced to establish H&M’s sales of the infringing product. Not true. These documents established H&M’s
inventory of the infringing product, and H&M failed
to present any evidence at trial that any other company sold any of that inventory. Indeed, there was no
evidence of another company and no evidence of any
H&M stores outside of the U.S. Yet, H&M confirmed—through admitted facts, interrogatories, and
Wharton’s testimony—that all of this inventory was
gone. The jury could certainly conclude that H&M
sold that inventory.
Notably, when H&M complains that Unicolors’
“counsel falsely stated that H&M had [‘]purchased[’]
96,000 units of the offending garments, and that
H&M had [‘]shipped[’] 96,000 garments,” it does not
(and cannot) aver that Unicolors’ counsel indicated
the documents reflected H&M’s sales of said product.
Motion, pg. 10, lns. 7-8 (emphasis added). This is because Unicolors counsel at all times accurately represented the documents as reflecting H&M’s inventory
of the infringing garments.
In addition, the jury heard testimony from Unicolors owner Nader Pazirandeh that established that
an address on a packing list is generally not where the
shipped product was ultimately sold to the end customer—which makes perfect sense as those locations
are generally distribution centers that can ultimately
fill orders for stores or online sales globally. Burroughs Decl. ¶ 1, Ex. 2, Dkt. No. 235, pages 46-47.

JA-121
And while the jury heard ample evidence regarding the massive size and reach of H&M’s U.S. operations, it heard nothing about whether or to what extent
H&M actually has stores overseas. H&M failed to present evidence at trial that it or any affiliate has even
a single store outside the U.S. This is terminal to its
argument that any relevant sales were extraterritorial.
Given the evidence that the infringing product
was sold in the U.S., the lack of any evidence that it
was sold (as opposed to shipped) anywhere other than
the U.S., and H&M’s admission that it had no inventory of the infringing product, the jury’s award was
entirely reasonable.5 In the absence of any evidence
to contradict the proposition, it was reasonable for the
jury to presume that H&M sold all the units it had
designated for sale, and that those sales either occurred in the U.S. or were otherwise attributable to
H&M. The jury then could have calculated H&M’s
profits from sale of the infringing garments by multiplying, for each garment, the number of units H&M
placed into its retail pipeline by the profit per unit
that H&M conceded in its spreadsheet. There is no
basis to intrude on the jury’s conclusions here.
c. The evidence supports the conclusion
that H&M was involved in any foreign sales.
Assuming arguendo that H&M had proffered evidence from which a jury could only conclude that the
5 Indeed, H&M identifies—albeit prefaced with “apparently,” and making note of a $480 discrepancy—this precise calculation in its brief.

JA-122
unaccounted for 84,000 infringing garments were sold
overseas, the verdict still must stand because the jury
had an adequate basis to find that those sales were by
or chargeable to H&M and subject to disgorgement.
The evidence presented supports the conclusion
that H&M or its agents copied Unicolors’ work in the
U.S. and “disseminate[d] copies in another country.”
ORDER REGARDING MOTIONS IN LIMINE; Dkt.
No. 181, pg. 11, lns. 1-6, citing Los Angeles News Serv.
v. Reuters Television Int’l, Ltd., 149 F.3d 987, 992 (9th
Cir. 1998). Or that H&M in the U.S. authorized infringing acts abroad, which is also direct infringement. Expediters Int’l, Inc. v. Direct Line Cargo Mgt.
Servs., Inc., 995 F.Supp. 468, 477 (D.N.J.1998)(“[T]he
mere authorization of infringing acts abroad constitutes direct infringement and is actionable under
United States Copyright Law”); see also Liberty Toy
Co. v. Fred Silber Co., 149 F.3d 1183 (6th Cir.
1998)(acts inside and outside of the U.S. support
award of entirety of damages).
The jury heard that Unicolors sold over 80,000
yards of its design to customers in the United States
who in turn sold that fabric to H&M’s retail store competitors including Target and Nordstrom. It also
heard Wharton’s testimony about H&M’s multiple regional offices in California and its tremendous number of other offices and stores both in the State and
across the country. It also heard H&M’s admission
that it employs designers for purposes of creating artwork for the garments it sells. It would have thus
been entirely reasonable for a jury to conclude that
H&M first infringed the design in the United States,

JA-123
then disseminated copies abroad, and then authorized the distribution and sales overseas (although,
again, there was no evidence of any such overseas
sales).6
d. Remittitur should not be for less than
$247,665.00.
While it would be error to grant remittitur in this
case, H&M suggestion that the amount of any such
remittitur be anything less than the $247,665.00
must be rejected, as this number reflects what H&M
concedes it received in connection with its sales of the
infringing garments. See Ex. No 28.
Where a court grants remittitur, it must be for the
“maximum amount sustainable by the proof.” Oracle
Corp. v. SAP AG, 765 F.3d 1081, 1094 (9th Cir. 2014)
(citing D & S Redi–Mix v. Sierra Redi–Mix & Contracting Co., 692 F.2d 1245, 1249 (9th Cir.1982)). This
is to prevent the court’s substitution of its judgment

6 H&M’s motion ultimately relies on nothing more than
speculation as to why the jury returned its the verdict, but that
is insufficient to justify granting this motion. Psihoyos v. John
Wiley & Sons, Inc., No. 11 CIV. 1416 JPO, 2012 WL 5506121, at
*4 (S.D.N.Y. Nov. 7, 2012), aff’d, 748 F.3d 120 (2d Cir. 2014)(“The
problem with Defendant’s reasoning is that no one—with the exception of the jurors themselves—can say definitively why the
jury assigned the damages it did, and Defendant’s assumption
that the sole reason for the difference between the awards is the
difference in the textbooks’ profitability is baseless.”), citing
United States v. Farina, 184 F.2d 18, 21 (2d Cir.1950) (Franks,
J., dissenting) (“What influences juries, courts seldom know”)

JA-124
for that of the jury. Id. at 1085, citing D & S Redi–
Mix, 692 F.2d at 1249.
Here, H&M failed to present competent evidence
of any costs incurred related to the sales of the infringing garments. While it produced a spreadsheet prepared for purposes of this litigation which purported
to state cost entries, it failed to present any underlying documents to support those costs and the sole testimony related to those expenses—Wharton—made
clear that she was just given those numbers by a different company and that she could not in any way
vouch for their accuracy. Moreover, Wharton admitted that a separate company paid for the manufacturing of the infringing product and that H&M did not
pay that company for that cost of goods per se. So owing, a jury could have readily found that H&M failed
to meet its burden to establish any cost of goods and
thus awarded the total admitted revenue to Unicolors
as H&M’s profits—as indeed it was obligated to do
upon H&M’s complete failure of proof.
Limiting remittitur to H&M’s revenues of
$247,665.00 is also justified by the willfulness finding
in this case since the “deductions of defendant’s expenses are denied where the defendant’s infringement is willful or deliberate.” Commentary to 9th
Circuit Model Jury Instruction No. 17.37 COPYRIGHT—DAMAGES—WILLFUL INFRINGEMENT
(17 U.S.C. § 504(c)(2)) (2017), citing Kamar Int’l, Inc.
v. Russ Berrie & Co., 752 F.2d 1326, 1331-32 (9th
Cir.1984). As such, “a finding of willfulness can also
be made in connection with an assessment of defendant’s profits, even though reference to willful infringe-

JA-125
ment is made only in connection with statutory damages.” Id. citing, Three Boys Music Corp. v. Bolton, 212
F.3d 477, 487-88 (9th Cir.2000) (noting, in case involving allocation of defendant’s profits under 17
U.S.C.§ 504(b), that “non-willful infringers” were entitled to deduct from damage assessment income
taxes and management fees actually paid).
3. The jury’s findings regarding Unicolors’
lost profits were sound.
An infringer such as H&M is required to disgorge
its profits from the infringing sales and recompense
the copyright holder for lost profits. An award of damages under 17 U.S.C. § 504(b) has two components,
consisting of “the actual damages suffered by [the copyright owner] as a result of the infringement, and any
profits of the infringer that are attributable to the infringement and are not taken into account in computing the actual damages.” 17 U.S.C. § 504(b); Polar
Bear Prods., Inc. v. Timex Corp., 384 F.3d 700, 707–
08 (9th Cir.2004) (explaining that these two monetary
“remedies are two sides of the damages coin—the copyright holder’s losses and the infringer’s gains.”). For
example, the copyright owner may recover the profits
it would have earned but for the infringement.
Kenbrooke Fabrics, Inc. v. Holland Fabrics, Inc., 602
F.Supp. 151, 155 (S.D.N.Y.1984). That is exactly what
happened here.
Pazirandeh testified that, based on Unicolors’
profits per-yard and the amount of fabric required to
construct the infringing shirts and jackets, Unicolors
would lost profits were approximately $1 per skirt

JA-126
and $2 per jacket. Burroughs Decl. ¶ 2, Ex. 1., pgs.
6768. This straightforward calculation went basically
unchallenged at trial.
Finally, to the extent that H&M now alleges that
the verdict is inconsistent given the damages calculations, that objection is waived because H&M failed to
raise it before the jury was discharged. Williams, 885
F.3d at 1175 (“A party “waive[s] its objection to the
jury’s verdict … by not objecting to the alleged inconsistency prior to the dismissal of the jury.”) (citations
omitted).
B. H&M is not entitled to a new trial on
damages.
A new trial is warranted only “if the verdict is contrary to the clear weight of the evidence, or is based
upon evidence which is false, or to prevent, in the
sound discretion of the trial court, a miscarriage of
justice.” Silver Sage Partners, Ltd., 251 F.3d at 819
(internal quotations and citation omitted). As H&M
failed to present any evidence as to the damages issue, the verdict couldn’t possibly be contrary to the
record’s clear weight.
1. H&M’s Packing Slips Were Properly Admitted.
H&M objects to the introduction at trial of the
very documents that it produced in this case as evidence of its acquisition of the infringing product at issue. The H&M documents were authenticated by a
declaration from Wharton and there is no reason to

JA-127
believe that they are anything other than authentic.
H&M does not argue as much; it can’t.
Instead, it argues that the H&M packing list documents do not reflect H&M sales of the H&M infringing product. But as set forth above, this is irrelevant,
as those documents reflect H&M’s inventory of the infringing product. And given H&M’s admission that it
had no remaining inventory, the jury could properly
conclude that H&M sold all of the infringing product—since that was the reason they were purchased
and H&M provided no contrary evidence.
Importantly, the Court admitted the packing slips
as the adopted statement of an opposing party under
Federal Rule of Evidence 801(d)(2)(b), and not as a
business record under 803(6). See Trial Trans. Dec. 6,
2017 (morning), 5:17-6:10. A statement by an opposing party, its representative, or its agent is not hearsay. See 801(d)(2); see also Architectural Iron Workers
Local No. 63 Welfare Fund v. United Contractors, Inc.,
46 F. Supp. 2d 769, 772 (N.D. Ill. 1999)(“the documents produced by Defendants contain Defendants’
own statements and are admissions, not hearsay [because] admissions by party opponents are not hearsay. A statement or document is an admission under
the Federal Rules of Evidence if it is offered against a
party and is the party’s own statement in either an
individual or a representative capacity or a statement
by a person authorized by the party to make a statement concerning the subject. Statements under the
Federal Rules of Evidence included both oral and
written assertions. F.R.Evid. 801(a).”). It is therefore

JA-128
irrelevant whether the packing slips were admitted to
prove the truth of the matter asserted.
And, the Court correctly admitted the shipping labels under Rule 801(d)(2)(b), which renders admissible an opposing party’s written assertion where
offered against opposing party who manifested that it
adopted it or believed it to be true. Wharton, H&M’s
Chief Financial Officer, both adopted and authenticated the packing lists when she declared them to be
“true and correct copies” of the shipments of garment
at issue. See Wharton decl. ¶¶ 23-24. The Court relied
on Wharton’s declaration only to rule on the admissibility of the packing slips. See Id. at ¶¶ 23-24.) And,
the portions of Wharton’s deposition testimony cited
by H&M in its motion are inapposite, since the packing slips were not expressly admitted as business records.7
Nor were the shipping records unduly prejudicial
under Rule 403. Authenticated shipping records,
adopted by H&M as “true and correct,” are evidence
that H&M had possession, custody, or control of the
infringing garments that it packed for shipment.
H&M, which did not provide any evidence at trial to
refute this assertion, now argues that its packing
slips were prejudicial, because it believes “that the
packing slips represented shipments by H&M to foreign countries and that they constituted evidence that
H&M purchased and sold 96,000 units” to be untrue.
7 The portion of Wharton’s testimony relied on by H&M for
this argument is inconsistent with her later deposition testimony, in which she expounded on the contents of the packing
slips, as well as her declaration.

JA-129
See Mot. at 8. H&M repeatedly contends that these
packing slips were from a separate entity, despite the
fact that H&M offered no such evidence at trial, and
its CFO’s adoption and authentication.8
H&M wrongly argues that the declaration relied
on by the Court to admit the packing slips should
have been provided to the jury in full. First, Rule
106—which provides that the party against who a
writing is offered may require the introduction of the
entire writing—is inapplicable. Unicolors did not offer
Wharton’s declaration into evidence, nor was it admitted. And second, H&M never moved the court to
admit the remainder of Wharton’s declaration. Moreover, since Wharton’s deposition testimony was read
at trial, the declaration was fully admissible as a Declarant-Witness’s prior statement under Rule
801(d)(1).
In sum, the H&M documents—which bear H&M’s
name and were produced by H&M during discovery—
are not hearsay because they are party (or party
agent) admissions. Metro-Goldwyn-Mayer Studios,
Inc. v. Grokster, Ltd., 454 F. Supp. 2d 966, 974 (C.D.
Cal. 2006) (rejecting hearsay challenge: “Documents
8 H&M makes the meritless argument that the Court’s reliance on the Wharton declaration to authenticate the H&M documents “was the functional equivalent of reading those portions
to the jury[]” and that the court should have for some reason read
the rest of the Wharton declaration to the jury. First, it is unclear
what a “functional equivalent of reading a document” is in this
context. Second, H&M did not request such a reading at trial and
cannot raise this issue now. Third, H&M cites no authority that
would allow for the reading of the Wharton declaration to the
jury.

JA-130
that bear [objector’s] trade names, logos, and trademarks are statements by [objector] itself, and are admissible as admissions by a party-opponent under
Rule 801(d)(2)[.]”). Under Fed.R.Evid. 801(d)(2)(D), “a
statement made by the party’s agent or servant concerning a matter within the scope of the agency or employment, made during the existence of the
relationship,” is non-hearsay. “Even if the document
is originally created by another entity, its creator
need not testify when the document has been incorporated into the business records of the testifying entity.” United States v. Jakobetz, 955 F.2d 786, 800– 01
(2d Cir.1992) (citation omitted); see also Architectural
Iron Workers Local No. 63 Welfare Fund, 46 F. Supp.
2d at 772 (“there is no error to admit as evidence documents that Defendants themselves possess and produced in response to Plaintiff’s requests for
production of documents.”), citing United States v.
Brown, 688 F.2d 1112 (7th Cir.1982). H&M produced
these documents as part of its business records and
declared them authentic. They were properly admitted.
H&M gambled that if it refused to produce any
witnesses at trial then Unicolors would not be able to
prove-up its damages claim. H&M lost that gamble,
as Unicolors presented ample testimony and documentation reflecting the purchase, distribution, and
sales of the infringing garments under Rules 106 and
801. The motion fails.

JA-131
2. The Testimony of Justin Lewis Was
Properly Excluded.
The Court excluded Mr. Lewis’s testimony because H&M identified him after the expert disclosure
deadline and because he was designated as a rebuttal
expert despite the fact that the parties did not designate initial experts. As this Court found in its order
on the parties’ motions in limine (Dkt. No. 181, pg. 4,
lns. 1-11), “[c]ourts frequently exclude “rebuttal” experts where the opposing party does not offer an expert on the same topic. See, e.g., TCL Commc’ns Tech.
Holdings Ltd. v. Telefonaktenbologet LM Ericsson,
No. CV 15-02370 JVS, 2016 WL 7042085, at *7 (C.D.
Cal. Aug. 17, 2016) (excluding portions of an expert’s
testimony because a party “should have submitted expert testimony on [the topic] at the deadline for initial, not rebuttal, disclosures”); Roger v. S. Route
Mar., No. C12-1854-RSL, 2014 WL 12029283, at *2
(W.D. Wash. Sept. 16, 2014) (holding that the defendants’ experts could not properly be considered rebuttal experts because “there was nothing to rebut”).
In its motion, H&M only suggests that the Court’s
unwillingness to accommodate H&M’s improperly
disclosed expert witness hurt its case. It does not argue that it had made timely disclosure, or that other
extenuating circumstances excused its untimeliness.
The Court did not abuse its discretion in excluding
Mr. Lewis’s testimony.

JA-132
3. Unicolors’ Counsel
sented the Packing Slips.

Properly

Repre-

H&M presented the jury with no evidence as to
where 84,000 units of the H&M infringing product
were sold. That evidence was entirely in H&M’s possession and it thus bore the burden of proof. Friedman
v. Live Nation Merch., Inc., 833 F.3d 1180, 1189 (9th
Cir. 2016)(this rule “accords with … our general precedent that fairness dictates that a litigant ought not
have the burden of proof with respect to facts particularly within the knowledge of the opposing party.”),
citing Adobe Systems Inc. v. Christenson, 809 F.3d
1071, 1079 (9th Cir. 2015). In such situations, courts
“ha[ve] long recognized that [‘]circumstantial evidence can be used to prove any fact.[’]” Id. (citation
omitted). Circumstantial evidence established H&M’s
sales, at the very least.
H&M contends that certain of Unicolors’ counsel’s
statements to the jury were improper because “they
were not true, and were not supported by the evidence,” but it identifies no such statements. And even
if it could (it cannot), “the Court instructed the jurors
that arguments and statements by lawyers are not evidence,” and thus there is no grounds to challenge a
verdict on the basis of a statement during closing argument. Multimedia Patent Tr. v. Apple Inc., No. 10CV-2618-H KSC, 2013 WL 173966, at *2 (S.D. Cal.
Jan. 16, 2013)(citation omitted).
H&M had every opportunity to present a witness
to testify on the issue of sales but failed to do so. As it
admits in its brief, “The only witness who could testify

JA-133
about the packing slips at all was Ms. Wharton,” and,
yet, H&M failed to produce Wharton to so testify. Motion, pg. 7, lns. 24-25. Any ambiguity created by this
failure is the fault of H&M. This motion must be denied.
4. The Court’s instruction on vicarious liability was harmless.
H&M’s objections relating to jury instructions are
untimely and should be rejected. A party seeking to
assign an error to the instructions submitted to the
jury must object after the close of the evidence, or else
promptly after learning that the instruction will be
given. See Fed. R. Civ. Pro. 51( c)(2); Grosvenor Properties Ltd. v. Southmark Corp., 896 F.2d 1149, 115253 (9th Cir.1990) (party waives right to assign as error the failure to give an instruction unless that party
objects before jury retires). “We have interpreted this
rule strictly and have stated that, in a civil case, we
may not review a jury instruction in the absence of a
proper objection.” Glover v. BIC Corp., 6 F.3d 1318,
1326 (9th Cir. 1993)(internal quotations and citations
omitted).9 And Fed.R.Civ.P 61 provides that, “[u]nless
justice requires otherwise, no error in admitting or excluding evidence—or any other error by the court or a
party—is ground for granting a new trial [and] the

9 Indeed, the 9th Circuit “has enjoyed a reputation as the
strictest enforcer of Rule 51; we have declared that there is no
‘plain error’ exception in civil cases in this circuit.” Id. citing
Hammer v. Gross, 932 F.2d 842, 847 (9th Cir.) (citations omitted).

JA-134
court must disregard all errors and defects that do not
affect any party’s substantial rights.”
Here, an instruction on a claim that was not submitted to the jury did not affect any rights. “Thus,
even assuming it was error, it is impossible to find
that “the error caused prejudice to the party seeking
a new trial.” Robertson v. McNeil-PPC Inc., No.
LACV1109050JAKSSX, 2015 WL 12698313, at *3
(C.D. Cal. Mar. 20, 2015).
Moreover, H&M’s circular argument is unavailing
on its merits. H&M reasons that (1) because (it believes) the jury’s award was excessive the vicarious liability instruction “likely misled” the jury, and (2)
because the instruction misled the jury it granted an
excessive award. Of course, H&M fails to credibly establish any causal connection between the superfluous instruction and the verdict. The jury made no
finding that H&M was a vicarious infringer and, as
H&M concedes, the issue was not even present on the
verdict form. H&M argues that the court should have
granted its motion for JMOL, even though the vicarious liability claim was not submitted to the jury.
There was no need given the uncontroverted evidence
of direct infringement. Nonetheless, H&M requests a
new trial on this claim. The request fails.
5. The
proper.

jury’s

willfulness

finding

was

There is no basis to disturb the jury’s finding of
willfulness. Initially, H&M waived any challenge to
the willfulness instruction when it agreed to give the
willfulness instruction to the jury. See Dkt. No. 189,

JA-135
pg. ii, lns 10-111 (Instruction 17.37). The challenge
also fails on its merits.
Willfulness “need not be proven directly but may
be inferred from the defendant’s conduct.” N.A.S. Import. Corp. v. Chenson Enterprises, Inc., 968 F.2d 250,
252 (2d Cir.1992). And infringing sales after notice,
which was undisputed in this case, is alone sufficient
to support the willfulness finding. Dolman v. Agee,
157 F.3d 708, 715 (9th Cir. 1998)(“Because [defendant] continued to infringe on the song copyrights
when he knew that there was a question as to their
ownership, and when he was presented with evidence
that [plaintiff] was the true owner, the district court
did not err in finding that [defendant’s] infringement
was willful.”). And “a showing of recklessness or willful blindness is sufficient” to establish willfulness.
Unicolors, Inc. v. Urban Outfitters, Inc., 853 F.3d 980,
992 (9th Cir. 2017) (citation omitted).
The evidence presented to the jury practically
compelled a finding of willfulness, including evidence
that H&M continued selling the infringing garments
after being put on notice of Unicolors’ claims (Dkt.
182, pg. 4, lns 7-12), and that H&M employs designers
to create graphics for its garments and thus more
likely than not generated the infringement—as further evidenced by the fact that it never sought indemnification from any other party. Of course, H&M’s
witnesses declined to appear to rebut the foregoing.
H&M contends, without support, that it was error
to instruct the jury regarding willfulness because
Unicolors sought actual damages, and that said ques-

JA-136
tion caused juror confusion with respect to its damages calculation. This is baseless because the Court
clarified the question of willfulness to the jury
through instructions and notes.
And, of course, an inquiry regarding willfulness is
entirely appropriate even where the copyright holder
seeks actual damages as the willfulness of the infringement “is an [‘]important factor favoring” an
award of [attorneys’] fees.[’]” Dunn & Fenley, LLC v.
Allen, No. CIV. 02-1750-JE, 2007 WL 2973549, at *3
(D. Or. Oct. 9, 2007), quoting Historical Research v.
Cabral, 80 F.3d 377, 379 (9th Cir.1996) (per curiam);
see also Erickson Prods. Inc. v. Kast, No. 5:13-CV05472-HRL, 2016 WL 3951659, at *2 (N.D. Cal. July
22, 2016)(willfulness “is an important factor favoring
such an award.”) (citation omitted). And, as set forth
above, a willfulness finding may also affect actual
damages directly since generally, the deductions of
defendant’s expenses are denied where the defendant’s infringement is willful or deliberate. Three Boys
Music Corp., 212 F.3d at 487-88.
6. The statutory damages instruction was
proper.
Unicolors held a timely registration for the work
at issue. As such, it was enabled to “elect, at any time
before final judgment is rendered, to recover, instead
of actual damages and profits, an award of statutory
damages for all infringements involved in the action[.]” Friedman, 833 F.3d at 1189 (emphasis added),
citing 17 U.S.C. § 504(c)(1). As such, there was no issue with the Court giving the statutory damages in-

JA-137
struction, irrespective of whether it eventually sought
actual damages. Furthermore, H&M has no cogent
argument as to how this instruction could reasonably
have influenced the actual damages award in this
case.
C. The jury properly found infringement.
Sufficient evidence in the record established that
Unicolors owned the copyright in the artwork and
that H&M had violated Unicolors’ copyrights therein,
including its exclusive right to distribute copies of
said work per 17 U.S. Code § 106 (3).
1. Unicolors’ closing was proper.
H&M complains that Unicolors’ argument during
closing improperly referenced the evidence in the record. But, H&M failed to object during closing, which
waives any such argument now. Multimedia Patent
Tr., 2013 WL 173966, at *1 (“By failing to contemporaneously object, MPT did not permit the Court to
timely rule on the objection or give a curative instruction to the jurors that argument of counsel is not evidence.”), citing, e.g., Glover v. BIC Corp., 987 F.2d
1410, 1421 (9th Cir.1993). And, as noted above, no improper statements were made and the Court advised
the jury that closing arguments are not evidence.
2. Unicolors holds a valid copyright and
registration.
Unicolors holds a valid copyright registration certificate covering the Subject Design. Under 17 U.S.C.
§ 410 (c), a copyright registration certificate consti-

JA-138
tutes prima facie evidence of the validity of the copyright and all facts stated on the certificates, including
the statements relating to originality and Unicolors’
ownership of the design. Lamps Plus, Inc. v. Seattle
Lighting Fixture Co., 345 F.3d 1140, 1144 (9th Cir.
2003).
H&M bore the burden of rebutting the presumption of validity and could only do so by proving that
H&M defrauded the Copyright Office, and that the
putative fraud related to the underlying ability to register the work. L.A. Printex Indus., Inc. v. Aeropostale,
Inc., 676 F.3d 841, 854 (9th Cir. 2012), as amended on
denial of reh’g and reh’g en banc (June 13, 2012)(invalidation only proper where applicant “knowingly included” erroneous information in the application and
“intended to defraud the Copyright Office.”).
Here, H&M has presented no evidence of any mistake on the application or fraud in the application process. It argues that because certain designs on the
relevant registration were “confined” to certain customers for limited periods of time that not all the
works were published together. But nowhere did Unicolors testify that the confined designs were not first
put into the design library and shown to customers
contemporaneous with the other designs. At best the
testimony at trial established that orders for those designs would not be filled until after the confined period expired. And, of course, H&M offers no evidence
of fraud or that the error was material. It also entirely
fails to address the 2008 revisions to the Copyright
Act commonly referred to as the PRO IP Act—which
was specifically enacted to curtain precisely this type

JA-139
of challenge by requiring, inter alia, that courts refer
them to the Copyright Office before a registration can
be invalidated.
3. Unicolors established access.
To establish the possibility of access, Plaintiff
need only allege that H&M had a “reasonable opportunity” to “view the plaintiff’s work.” Three Boys Music Corp., 212 F.3d at 482 (citation omitted). This can
be done by alleging, inter alia, a chain of events linking the two works. L.A. Printex Indus, Inc., 676 F.3d
at 846-847. Alternatively, access is established, even
without evidence of direct access, by showing that two
works are strikingly similar. Unicolors, Inc., 853 F.3d
at 985-988m, citing Baxter v. MCA, Inc., 812 F.2d 421,
423 (9th Cir. 1987).10
Here, there was evidence that Unicolors sold over
80,000 yards of fabric bearing the artwork at issue,
that said garments bearing said artwork were sold
through international competitors of H&M such as
Target and Nordstrom, that Unicolors manufactured
its fabric in China just as H&M did with its infringing
garments, and that the works of art were strikingly
similar. This certainly established a possibility of ac10 See also Lipton v. Nature Co., 71 F.3d 464, 471 (2d
Cir.1995)(when two designs are “so strikingly similar as to preclude the possibility of independent creation, copying may … be
proved without a showing of access.”), citing Smith, 84 F.3d at
1220, and Baxter v. MCA, Inc., 812 F.2d 421, 424, n. 2 (9th
Cir.1987) (“Proof of striking similarity is an alternative means
of proving ‘copying’ where proof of access is absent”), cert. denied,
484 U.S. 954 (1987).

JA-140
cess. Moreover, by failing to present any of witnesses
regarding the provenance of the infringing artwork,
H&M deprived Unicolors of an opportunity to explore
H&M’s access at trial. As such, further evidence of access is purely in the possession of H&M and Unicolors
cannot be fairly required to proffer same.
4. The black-and-white version of EH101
was properly admitted.
H&M concedes that it did not object to the blackand-white fabric when it was sought to be entered into
evidence. Motion, pg. 21, lns. 26-27 (“H&M did not object to its admission when offered.”); Riordan Decl.,
Dkt. No. 247-11, page 8. As such, any objection is
waived. See Marbled Murrelet v. Babbitt, 83 F.3d
1060, 1066 (9th Cir. 1996) (as amended) (“By failing
to object to evidence at trial and request a ruling on
such an objection, a party waives the right to raise
admissibility issues on appeal.”).
Furthermore, H&M’s assertion that it had not
previously seen the black-and-white version of EH101
(Riordan Decl. ¶ 23.) is demonstrably false as it was
previously produced and incorporated in the parties’
summary judgment briefing. See U.S.D.C. Dkt. No.
64, pgs. 8-11.
H&M’s next argument—that the black-and-white
version was “altered”—was addressed and found by
the Court to be lacking. The court gave H&M ample
time to point out any alteration, but H&M was unable
to identify any differences at all between the blackand-hite version and the color version other than
those that would naturally occur by removing addi-

JA-141
tional colors. And Unicolors’ confirmed it was the
same design and the jury received both the color and
the black-and-white versions for comparison. Motion,
Riordan Decl., Dkt. No. 247-11, page 7; Ex. 38. Indeed,
this Court overruled H&M’s objections after conducting its own review of the exemplars and finding that
they bore the same design.
As such, this motion must be denied. A new trial
is warranted for an evidentiary error only “if the ruling substantially prejudiced a party.” Rivas v. Knight
Transportation Inc., No. CV 15-05793-DTB, 2017 WL
3453365, at *1 (C.D. Cal. Mar. 24, 2017), citing United
States v. 99.66 Acres of Land, 970 F.2d 651, 658 (9th
Cir. 1992). Here, there is no such prejudice given that
the design itself was introduced without objection and
is a true and correct representation of EH101.
H&M’s deposit argument also fails. Incredibly,
H&M cites L.A. Printex to support its argument that
“[t]o establish similarity, a copyright plaintiff must
compare the accused work against the deposit material, or a copy thereof.” Motion, pg. 21, lns. 22-24. But
the cited passage says the exact opposite—holding
that the jury can compare the fabric even if it was not
what was deposited to long as the deposit was a “complete copy” of the design on the fabric:
“the district court—and the jury—may consider fabric swatches of C30020 in applying
our two-part test for substantial similarity, so
long as the district court determines that the
digital prints that L.A. Printex deposited with
the Copyright Office constitute “one complete

JA-142
copy” of C30020, and that the fabric swatches
are also “copies” of C30020.
L.A. Printex Indus., Inc., 676 F.3d at 851, fn. 3 (emphasis added) (citations omitted).
Thus, H&M misrepresents controlling authority
to argue that this Court committed error by following
a clear 9th Circuit directive. The motion fails.
5. The jury’s substantial similarity finding
was sound.
H&M’s substantial similarity arguments are all
meritless. There is no filtering requirement nor is
there a need for expert testimony to find copying. To
the contrary, 9th Circuit precedent is clear that even
the “[o]riginal selection, coordination, and arrangement of unprotectible elements may be protectible expression. L.A. Printex Indus., Inc., 676 F.3d at 849
(9th Cir. 2012), citing Metcalf v. Bochco, 294 F.3d
1069, 1074 (9th Cir.2002) (“Each note in a scale, for
example, is not protectable, but a pattern of notes in
a tune may earn copyright protection.”)(remaining citations omitted). The 9th Circuit further stated that
“[f]or this reason, the Second Circuit has rejected the
argument that, “in comparing [fabric] designs for copyright infringement,” a court must “dissect them into
their separate components, and compare only those
elements which are in themselves copyrightable.” Id.
And this “reasoning, at least in the context of fabric
designs, is persuasive, and it guides our comparison
of the designs in this case.” Id. H&M urges the Court
to do the opposite: to “dissect” the designs and com-

JA-143
pare the “protectable” portions. This is contrary to settled law.
Indeed, the law is clear “that stylized fabric designs like [the one at issue] are properly entitled to
“broad” copyright protection[.]” L.A. Printex Indus.,
Inc., 676 F.3d at, 851. Given this broad protection, the
jury’s verdict was proper.
6. Lake’s exclusion was proper.
Ms. Lake was only disclosed after the initial expert deadline had passed as a “rebuttal” expert despite the fact that neither party designated initial
experts. For the same reasons set forth above in the
discussion of H&M expert Lewis, it was certainly not
an abuse of discretion for the Court to exclude Lake
at trial.
7. The jury was properly instructed on the
Xue Xu copyrights.
The U.S. Copyright registration that H&M’s
counsel obtained on the eve of trial for a non-party
company in China was properly excluded as “both irrelevant and prejudicial.” ORDER RE JUDICIAL
NOTICE, Dkt. No. 186, pg 3. As the Court points out,
H&M’s “attorney obtained the registration on the eve
of trial, less than a month before the pretrial conference[]” in “a last-minute attempt to manufacture the
presumptions a United States copyright registration
would have conveyed.” Id., pgs. 34. And the registration itself was irrelevant given that it was obviously
obtained for trial and would create no presumptions.
Id., citing Lahiri v. Universal Music & Video Distri-

JA-144
bution, Inc., 513 F. Supp. 2d 1172, 1178 (C.D. Cal.
2007) (holding that an Indian copyright registration
did not create a presumption of ownership like an
American registration would because “ownership is
determined according to India’s copyright law”); and
R.F.M.A.S. v. Mimi So, 619 F. Supp. 2d 39, 56
(S.D.N.Y. 2009) (holding it inequitable to grant a presumption based on a registration filed after the close
of fact discovery and obtained for the purpose of neutralizing unfavorable testimony.
H&M’s instant motion presents nothing to challenge the Court’s ruling on this issue. If anything, now
that the trial has come to a close with H&M proffering
no witness to authenticate or substantiate any of the
registrations for the Chinese company, said registrations appear even more lacking in credibility.
III. CONCLUSION
Unicolors presented uncontroverted direct and
circumstantial evidence at trial establishing that (a)
it created the artwork at issue in the U.S.; (b) H&M
has designers in the U.S. and the ability to copy Unicolors’ artwork; (c) H&M sold garments bearing a copy
of H&M’s artwork in the U.S.; (d) that H&M at one
point in time had 96,000 units of infringing garments
in inventory; (e) that H&M, at time of trial, had no
units of infringing garments in inventory; (f) that
H&M did not sell any of those infringing garments
outside of the U.S; and (g) H&M continued to sell the
infringing garments after notice of the infringement.
H&M wholly failed to rebut this evidence. The finding
of willful infringement and damages must stand.

JA-145
Respectfully submitted,
Dated: April 27, 2018

By: /s/
Scott
Alan
Burroughs
Scott Alan Burroughs,
Esq.
Stephen M. Doniger,
Esq.
DONIGER
/
BURROUGHS
Attorneys for Plaintiff
UNICOLORS, INC.

JA-146
Staci Jennifer Riordan (SBN 232659)
Dale A. Hudson (SBN 81948)
Aaron M. Brian (SBN 213191)
NIXON PEABODY LLP
One California Plaza
300 S. Grand Avenue, Suite 4100
Los Angeles, CA 90071
Telephone: 213.629.6000
Facsimile: 213.629.6001
sriordan@nixonpeabody.com
dhudson@nixonpeabody.com
abrian@nixonpeabody.com
Attorneys for Defendant
H & M HENNES & MAURITZ L.P.
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC., a California Corporation,
Plaintiff,
vs.
H & M HENNES & MAURITZ L.P., a New York
Limited Partnership, and DOES 1-20, inclusive,
Defendants.
Case No.: 2:16-cv-02322 - AB - SK
Honorable André Birotte Jr.

JA-147
DEFENDANT H & M HENNES & MAURITZ
LP’S REPLY MEMORANDUM OF POINTS AND
AUTHORITIES IN SUPPORT OF MOTION FOR
JUDGMENT AS A MATTER OF LAW, OR, IN
THE ALTERNATIVE, FOR NEW TRIAL
Date:
Time:
Ctrm.:

May 18, 2018
10:00 a.m.
7B

Filed:
Trial:

April 5, 2016
December 5-7, 2017

JA-148
TABLE OF CONTENTS
I. .. INTRODUCTION ............................................... 1
II. THE EVIDENCE OF THE PACKING LISTS ... 1
III.LEGAL ARGUMENT ......................................... 5
A. The Evidence Does Not Support The Disgorgement Award Of $818,400 .............................. 5
B. H&M LP Had No Obligation To Disprove
sales It Did Not Make ................................... 7
C. The Packing Lists Should Have Been Excluded Under Rule 403 .................................. 8
D. H&M LP Is Not Prohibited From
Challenging The Excessive Verdict .............. 10
E. Unicolors’ Suggestion That Damages May
Not Be Reduced To Than $247,665 Is Contrary To The Jury’s Findings, And Unsupported ............................................................. 11
F. The In Lost Profits Award Was Improper,
and Must Be Set Aside .................................. 12
G. Violation of The Single Publication Rule Invalidates Unicolors’ Copyright ........................... 13
IV. CONCLUSION ................................................... 15

JA-149
TABLE OF AUTHORITIES
Page(s)
Cases
Beijing Ciwen Film and Television Production Co. v.
New Tang Dynasty,
2014 WL 12614473 ............................................. 29
Classical Silk Inc., v. Cook,
Case No. CV13-00950, 2013 WL 8744349 (C.D.
Cal. Nov. 12, 2013).............................................. 27
Evalt v. United States,
359 F.2d 534
(9th Cir.1966) ...................................................... 23
Family Dollar Stores, Inc. v. United Fabrics Intern.,
Inc.
896 F.Supp.2d 223 (S.D.N.Y. Sept. 2012) .......... 29
GuideTech, Inc. v. Brilliant Instruments, Inc.,
2014 WL 4182340 (N.D. Cal. Aug. 22, 2014) ..... 15
Hazle v. Crofoot,
727 F.3d 983 (9th Cir. 2013)............................... 26
Hern v. Intermedics, Inc.,
210 F.3d 383 (9th Cir. 2000)............................... 26
Ostad v. Or. Health Scis. Univ.,
327 F.3d 876 (9th Cir. 2003)............................... 18

JA-150
Silver Sage Partners, Ltd. v. City of Desert Hot
Springs,
251 F.3d 814 (9th Cir. 2001)............................... 11
United Fabrics Int’l, Inc. v. C & J Wear, Inc.,
630 F.3d 1255 (9th Cir. 2011)

15

Statutes
17 U.S.C. § 411(b)(2) ................................................ 17
Copyright Act ........................................................... 16
PRO IP Act ............................................................... 16
Other Authorities
27 C.F.R. § 202.3(b) .................................................. 15
Fed. R. Civ. P. 37(c)(1) ....................................... 13, 14
Rule 403 ............................................................ 8, 9, 10

JA-151
I.

INTRODUCTION

The Court should grant the motion of defendant
H & M Hennes & Mauritz LP (“H&M LP”) for judgment as a matter of law, as it clear, inter alia, that
plaintiff Unicolors, Inc. (“Unicolors”) has violated the
single publication rule, and therefore its copyright is
invalid.1
Moreover, assuming liability is proper, which
H&M LP disputes, the Court should drastically reduce the jury’s damage award because the amount
awarded by the jury is excessive, and not supported
by the evidence. An award of any amount larger than
$98,395 is improper.
Furthermore, Unicolors now admits it had abandoned its vicarious liability claim, notwithstanding
that it opposed H&M LP’s Motion for JMOL on that
very issue. (Dkt. 209, at 12; Dkt 250, p. 3:20-24.)
Accordingly, H&M LP respectfully requests that
the Court enter JMOL to correct these errors, or in
the alternative, grant a new trial, at least on the issue
of damages, to correct the jury’s blatant errors.
II. THE EVIDENCE OF THE PACKING LISTS
Because the outcome of H&M LP’s post-trial motions depends in part on the meaning of the disputed
packing lists for the alleged offending garments (“gar1 H&M LP preserves all issues raised in its initial Motion;
however, these reply papers will focus on areas where further
briefing can be most beneficial.

JA-152
ments”), trial exhibits 29 and 30, it is worth examining the packing lists to see what they actually prove,
and what they don’t prove.
First, the packing lists were admitted into evidence based entirely2 on the Declaration of Chelsea
Wharton, who testified that:
Exhibit H [or I] are true and correct copies of
the packing lists for the Oliver jacquard wrap
jacket [or W Rio skirt], which include packing
lists of garments destined for countries other
than the United States.
(Dkt. 81-2, p. 3, ¶¶ 23-24, Ex. P to Supplemental
Declaration of Staci Riordan (“SR Decl.”). Ms. Wharton’s Declaration offered no further information about
the meaning of the packing lists themselves.
Second, the packing lists for the olive jacquard
wrap jacket identify the supplier of the garment as
Hempel China Limited. (Trial Ex. 30, p.
HMU0000013-HMU0000045, Ex. S to SR Decl.; Trial
Ex. 29, Ex. R to SR Decl.) The packing lists for the W
Rio skirt identify the supplier of the garments as Real
Hope International Limited. (Trial Ex. 30, Ex. S to SR
Decl., p. HMU0000056- HMU0000088.)
Third, each and every packing list identifies the
recipients of the packing lists slips as follows:

2 Trial Trans., Dec. 6, 2017 (morning), Ex. V to SR Decl, p.
5:17-6:10,

JA-153
H & M Buying Office [or] H & M Group
Head Office
H & M Hennes & Mauritz GBC AB…
Stockholm, Sweden
(See, e.g., Trial Ex. 29, Ex. R to SR Decl., p.
HMU0000004; Trial Ex. 30, Ex. S to SR Decl., p.
HMU0000013.)
Fourth, each packing list is labeled as either
“Packing List H&M” or “Packing List – Online H&M.”
(See, e.g., Exs. R, S and T to SR Decl.) Nothing ties
this generic reference of “H&M” to defendant H&M
LP, as opposed to the other H&M entities whose
names actually appear on the packing lists. In fact,
despite Unicolors’ claims to the contrary, H&M LP’s
name (whether identified as such, or by its full name,
H & M Hennes & Mauritz LP) does not appear anywhere on the packing lists.
Unicolors argues that because the letters “H&M”
appear in the labels on the packing lists, the labels
“bear H&M [LP]’s name,” and constitute evidence
that the garments were shipped to or by H&M LP.3
(Dkt. 250, p. 7:20, 15-1.) However, where, as here,
there is undisputed evidence that more than one
H&M entity exists,4 the generic H&M logo is, at most,
Unicolors’ brief defines “H&M” as defendant “H&M
Hennes & Mauritz LP” Dkt. 250 p 9:1-2.
3

4 Notwithstanding Unicolors’ statements to the contrary,
there was clear testimony that H&M LP and H&M GBC are sep-

JA-154
completely neutral on the point. Unicolors’ argument is analogous to arguing that a “Disney” logo on
a movie title is evidence that the movie was produced
by Euro Disney, which would obviously not be the
case. The generic reference to H&M on the labels is
similarly not indicative of the specific entity receiving
the packing lists or the garments.
Fifth, the packing lists identify the garments
shipped from China to forty-five different countries,
as follows:
Country of
Destination
· Italy/France
(Online H&M)
· Sweden
· Norway /
Norway
(Online H&M)
· Netherlands/
Denmark
· Netherlands/
Great Britain

W. Rio Skirt

Olive Jacquard
Jacket
Bates Quantity Bates Quantity
No.
No.
HMU0
583
000007
HMU0
1,055 HMU0
1,500
000056
000013
HMU0
000014
HMU0
1,075 HMU0
1,101
000057
000005
HMU0
750 HMU0
1,100
000058
000015
HMU0
4,350 HMU0
4,100
000059
000016

arate companies. Trial Transcript, Dec. 7, 2017 (morning), Ex.Y
to SR Decl., 69:25-71:7; 96:2-19. And the packing lists themselves plainly refer to at least two additional, separate “H&M”
entities: H&M Hennes & Maurtitz S.A.C. [Peru], and H&M
Hennes & Mauritz Retail Private Limited [India]. (Ex R to SR
Decl., HMU0000047-48.)

JA-155
· Switzerland
· Germany and
Ger.
(Cent Eur
Mkt)
· Netherlands/
Belgium
(South Eur
Market)
· USA / USA
(Online
H&M)

HMU0
000067

1,343 HMU0
000017

1,300

HMU0
000060

8,575 HMU0
000018

6,500

HMU0
000061

8,385 HMU0
000019
HMU0
000020
4,390 HMU0
000006
2,325 HMU0
000021

6,600

HMU0
000062
HMU0
000063

· Germany/
Spain
· Germany/
Poland (East
Eur Market)
and Poland
(Online H&M
Europe)
· Netherlands/ HMU0
Poland
000064
· China and
China
(Online H&M) HMU0
000065
· Canada
HMU0
000068
· Hong Kong
HMU0
000069
· Germany/
HMU0
Turkey
000070

7,200
1,560
HMU0
000023
2,242 HMU0
000008
950 HMU0
000024
723 HMU0
000025
880 HMU0
000026

6,411
2,100

HMU000
0022
HMU000
0004
0

1,765
1,073
655
479

JA-156
· Japan
· Russia
· South Korea
· Croatia
· Singapore
· Mexico
· Malaysia
· Chile
· United Arab
Emirates
· Thailand
· Serbia,
Republic of
· Australia
· Indonesia
· Taiwan/
Taiwan(H&M)
· Philippines
· India
· South Africa

HMU0
000066
HMU0
000071
HMU0
000072
HMU0
000073
HMU0
000074
HMU0
000075
HMU0
000076
HMU0
000077
HMU0
000078
HMU0
000080
HMU0
000081
HMU0
000082
HMU0
000083
HMU0
000084
HMU0
000085
HMU0
000086
HMU0
000087

1,314 HMU0
000027
1,536 HMU0
000028
712 HMU0
000029
192 HMU0
000030
474 HMU0
000031
367 HMU0
000032
431 HMU0
000033
182 HMU0
000034
1,419 HMU0
000035
667 HMU0
000037
63 HMU0
000038
881 HMU0
000039
230 HMU0
000040
131 HMU0
000041
157 HMU0
000042
43 HMU0
000043
287 HMU0
000044

678
393
89
140
119
344
208
204
1,495
184
28
699
73
122
91
40
224

JA-157
· Peru
· IX 65
· Other
· Other
TOTAL5

HMU0
000088
HMU0
000079

78 HMU0
000045
619 HMU0
000036
HMU0
000009
HMU0
000010
48,386

84
227
820
34
48,763

This is the entirety of the relevant evidence regarding the packing lists. Notwithstanding (or perhaps because of) the limited information that can be
gleaned from the packing lists, Unicolors has repeatedly mischaracterized the packing lists in dramatic
terms. For example, in its opposition papers, Unicolors makes several untrue statements about the packing lists:


Authenticated shipping records are evidence that H&M [LP] had possession,
custody or control of the infringing garments that it packed for shipment. (Dkt
250, p.14:3-5; emphasis added.)



The evidence at trial showed that H&M
[LP] took inventory of and into its
chain of distribution nearly 84,000 infringing garments. (Id. p.6:20-22; emphasis added.)

5 This Brief uses the rounded number of 48,000 garments,
which was used by the jury.

JA-158


The jury then could have calculated H&M’s
profits … by multiplying, for each garment,
the number of units H&M [LP] placed
into its retail pipeline by the profit per
unit. (Id. p. 9:4-7; emphasis added.)

Not one of these statements is even remotely established by the packing lists, or by any testimony. In
fact, each statement is established to be false by the
very Chelsea Wharton Declaration which constituted
the only basis for admitting the packing lists into evidence. (Dkt. 81-2, p. 4, ¶¶ 10-12, 17-19, Ex. P to SR
Decl.)
III. LEGAL ARGUMENT
A. The Evidence Does Not Support The Disgorgement Award Of $818,400.
Unicolors concedes that the disgorgement award
reflects the jury’s determination that H&M LP “sold”
96,000 units of the offending garments. (See, e.g., Dkt.
250, p. 16:23-17:7.) Unicolors further concedes that
the packing lists, by themselves, do not constitute evidence that 96,000 garments were sold by H&M LP.
In fact, Unicolors even takes offense to the extent that
H&M LP may have accused Unicolors of making such
an contention. (Dkt. 250, p. 7:27 – 8:12.)
Yet Unicolors points to only four pieces of evidence as allegedly establishing that 96,000 garments
(as opposed to 12,000 garments) were sold by H&M
LP:

JA-159
1. Photographs and exemplars which establish
that some unspecified number of garments was
sold by H&M LP in the United States.
2. The packing lists, which allegedly “established
H&M’s inventory of infringing product.”
3. H&M LP’s purported admission that it employed graphic designers.6
4. H&M LP’s acknowledgment that it had sold its
entire inventory of the infringing product. (Dkt.
250, p. 5:9-17.)
Item 2 is obviously the critical link in this alleged
chain of proof, since items 1, 3 and 4, by themselves,
or even collectively, do not even suggest, let alone
prove, that H&M LP sold more than 12,000 units of
the offending garments.
However, as is demonstrated in section II, supra,
the packing lists do not come close to establishing that
H&M LP ever had 96,000 garments in its inventory.
Since there was no competent evidence that H&M LP
played any role whatsoever in shipping, recieving or
6 Unicolors separately argues that the mere fact that H&M
LP allegedly employed graphic designers constitutes substantial
evidence that those designers created the fabrics from which the
offending garments were made, on the theory that those designers were capable of designing the offending fabric. This argument calls for the jury to engage in rank speculation, and there
is no evidence that H&M LP actually did design the fabric. The
undisputed evidence establishes that the fabric was designed by
Shaoxing DOMO Apparel Co, Ltd. Trial Exs. 100 & 110, Exs. BB
& CC to SR Decl.

JA-160
selling more than the 12,000 garments, H&M LP’s acknowledgment that it sold its entire inventory does
not imply, let alone establish, that it sold more than
12,000 garments. To the contrary, H&M LP’s admission merely confirms that it sold the 12,000 garments
it received (which is not disputed).
In an effort to square the circle, Unicolors cites to
the testimony of its principal, Nader Pazirandeh, to
the effect that it is “quite common”7 for “packing lists
to show products being shipped to one place and
then … that same product shipped somewhere else.”
(Dkt. No. 250-2, p. 4:12-16.) Unicolors argues, such a
practice “makes perfect sense as those locations are
generally distribution centers that can ultimately
fill orders for stores or online sales globally.” (Dkt. No.
250, p. 16:1315.) Setting aside Mr. Pazirandeh utter
lack of knowledge of H&M LP’s business, his selfserving testimony falls far short of establishing that
it is probable, or even conceivable, that the 84,000
garments originally shipped to numerous countries
other than the United States were later shipped to the
United States or otherwise sold by H&M LP.
As demonstrated in section II supra, Hempel
China Limited and Real Hope actually did design the
fabric. The undisputed evidence establishes that the

7 Contrary to Unicolors’ contention, Pazirandeh did not testify that an “address on a packing list is generally not where
the shipped product was ultimately sold to the end customer.”
(Emphasis added.) Dkt. 250, p. 16:13-15 & Dkt. 250-2, p. 4:1216.

JA-161
fabric was designed by Shaoxing DOMO Apparel Co,
Ltd. Trial Exs 100 & 110, Exs. BB & CC to SR Decl.
International shipped the garments to forty-five
different countries scattered around the globe, including, e.g., Australia, Serbia, South Africa, Peru, Japan,
Turkey, Taiwan, India, Russia and the countries of
the European Union.
It defies belief that every one of these 84,000 garments thereafter somehow later found itself for sale
in the United States, having been initially shipped to
one of forty-five different countries at significant expense—and for no apparent reason. And such a scenario would certainly not be consistent with the
“distribution center” model which Unicolors invokes.
Given the absence of colorable evidence that any
of the 84,000 garments were forwarded to the United
States after arriving at their initial destination, there
was no basis for the jury to find, as it did, that H&M
LP had sold 96,000 units of the offending garments.
Notwithstanding the considerable deference
given to jury verdicts, JMOL must be granted where
the “evidence permits only one reasonable conclusion
and [that] conclusion is contrary to that reached by
the jury.” Ostad v. Or. Health Scis. Univ., 327 F.3d
876, 881 (9th Cir. 2003). That is certainly the case
here. So H&M LP respectfully requests that the Court
to reduce the disgorgement award to $98,395 - the
only amount supported by evidence.

JA-162
B. H&M LP Had No Obligation to Disprove
Sales It Did Not Make
Unicolors argues the jury’s verdict is somehow
justified because H&M LP never presented affirmative evidence that the 84,000 units shipped to other
countries were actually sold in those countries. (Dkt.
250, p. 6-9.) This argument fails as explained above:
there was no evidence, let alone convincing evidence,
that H&M LP ever had more than 12,000 units in inventory.
Moreover, plaintiff is obligated to prove revenue
from infringing sales. Unicolors failed to put forth evidence that H&M LP sold more than 12,000 units.
While Unicolors repeatedly asserts that the jury
“could reasonably conclude” that H&M LP sold 96,000
garments, it barely even discusses whether such conclusion is against the clear weight of the evidence,
which is a notably lower standard. In fact, Unicolors’
only substantive discussion of this issue is its assertion that “[a]s H&M failed to present any evidence as
to the damages issue, the verdict couldn’t possibly be
contrary to the record’s clear weight.” (Dkt. 50, 12:2012.) This argument is, of course, a blatant non sequitur. Where, as here, Unicolors failed it’s burden to
prove that H&M LP sold more than 12,000 garments,
the jury’s finding that it sold 96,000 units is contrary
to the clear weight of the evidence—regardless of
whether H&M LP presented additional or contrary
evidence to the jury. Thus, this Court is obligated to
set that finding aside.

JA-163
C. The Packing Lists Should Have Been Excluded Under Rule 403
Rule 403, Fed. R. Evid., provides that “The court
may exclude relevant evidence if its probative value
is substantially outweighed by a danger of one or
more of the following: unfair prejudice, confusing the
issues, misleading the jury, undue delay [or] wasting
time …. ”
The packing lists, while authentic, were not relevant to any issue the jury had to decide, especially after Unicolors abandoned its vicarious liability claim.
Absent some non-frivolous evidence that H&M LP
played a meaningful role in connection with the other
84,000 garments, there was simply no reason for the
jury to see the packing lists at all (except for the garments shipped to H&M LP).
Assuming, arguendo, that the packing lists somehow met the threshold test for relevancy, it is now
painfully clear that whatever marginal value the
packing lists had, it was vastly outweighed by the risk
of confusing the jury (especially where, as here, counsel for Unicolors exploited the opportunity to mislead
the jury about the true nature of the packing lists).
Unicolors barely addresses the Rule 403 argument, asserting only that the packing lists were:
(1) authentic, and (2) represented by H&M LP to be
“true and correct.” (Dkt. 250, p. 14:3-6.) Authenticity
is beside the point of a Rule 403 objection, since Rule
403 specifically provides for exclusion of otherwise admissible evidence under appropriate circumstances.
And while Ms. Wharton did attest the documents in

JA-164
question were “true and correct,” she only represented
they were “true and correct copies of the packing lists
for the Oliver jacquard wrap jacket [or W Rio skirt].”
(Dkt. 81-2, p. 3, ¶ 23, Ex. P to SR Decl.)
Contrary to Unicolors’ assertion, Ms. Wharton did
not attest the packing lists constituted “evidence that
H&M [LP] had possession, custody or control of the
infringing garments that it packed for shipment.” (Id.;
Dkt 250, p.14:3-5.) In fact, evidence submitted by Unicolors proved the opposite: that H&M LP received and
sold only 12,000 units.
In determining whether the packing lists were
unduly prejudicial, the Court was presented with the
entirety of Ms. Wharton’s Declaration, which established, without contradiction, that:
1. H&M LP does not design or manufacture any
of the products that that are sold in its stores;
2. H&M LP only operates in the United States;
3. H&M LP does not operate stores in any other
country;
4. H&M LP does not ship garments or other merchandise to stores located in other countries;
5. H&M LP does not place orders for stores located in other countries;
6. H&M LP does not make purchasing decisions
for stores in other countries; and

JA-165
7. H&M LP was not involved in the shipping of
garments
to
locations
outside
the
United States. (Ex. P to SR Decl.)
Thus, this is not a typical case where a party is
invoking Rule 403 to keep out prejudicial, but truthful, evidence, in an effort to avoid inflaming the jury.
Here, H&M LP is attempting to prevent Unicolors
from using documents to mislead the jury into believing that H&M LP sold 96,000 garments, when the
documents, properly understood, actually prove that
H&M LP did not sell 96,000 garments. This is the
quintessential case where proffered evidence is unquestionably more prejudicial than probative. Any
doubt in this regard has been eliminated by the jury’s
unsupported verdict.
Even if Rule 403 did not mandate that the packing lists relating to foreign shipments be excluded,
this Court, at a minimum, should have given a limiting instruction that the packing lists were not records of H&M LP. Counsel specifically requested that
the Court “instruct Mr. Burroughs not to call [the
packing lists] H&M LP documents [as] [t]hey clearly
say H&M GBC on them.” (Dkt. 247-11, p. 5:13–25.)
This request was not granted, with predictable results. Not only did counsel for Unicolors repeatedly
tell the jury that the packing lists were “H&M [LP]”
documents; as this Court can see, Unicolors continues
to make this false assertion.

JA-166
D. H&M LP Is Not Prohibited From Challenging The Excessive Verdict.
Despite Unicolors’ claims, it is not impermissible
for H&M LP to challenge the jury’s verdict. Preliminary, H&M LP observes that it would have required
incredible foresight for H&M LP to have moved, prior
to verdict, for JMOL on the issue presented by the instant motion because the issues only arose after the
jury returned its verdict.
Moreover, H&M LP repeatedly objected to any evidence other than the 12,000 units. First, H&M LP
filed a Motion in Limine to exclude evidence of extraterritorial sales, which was denied. (Dkt. 136; 181:1011.) Then H&M repeatedly objected to admission of
the packing lists, and when those objections were
overruled, requested a limiting instruction, which
was similarly rejected. (Trial Transcript, December 5,
2017 (afternoon), Ex. U to SR Decl., p. 110-122; Dkt.
247-11, p. 5:13–25.)) H&M LP then moved for JMOL
on the issue of vicarious infringement, which constituted another effort to prevent recovery for extraterritorial sales. Inexplicably, Unicolors’ forcefully
opposed this Motion, persuading the Court to deny
the Motion, even though Unicolors had already abandoned that claim. (Dkt. 209, at 12; Dkt 250, p. 3:2024.) Finally, during closing arguments, H&M LP repeatedly objected to misrepresentations by Unicolors’
counsel regarding H&M LP’s purported sales and retail price; all of these objections were overruled. (Trial
Transcript, Dec. 7, 2017 (afternoon), Ex. Z to SR Decl.,
p. 69:19-70:11.)

JA-167
Where, as here, a party’s efforts to pursue a line
of argument have been repeatedly rebuffed by the
court, counsel is not required to continue making futile objections and motions to preserve those issues.
See Hern v. Intermedics, Inc., 210 F.3d 383 (9th Cir.
2000); Evalt v. United States, 359 F.2d 534, 542 (9th
Cir.1966).
Finally, even if this Court should conclude that
H&M LP has lost the right to have the disgorgement
award reduced under a JMOL, such a determination
would likely just force a retrial of this matter. Unicolors does not suggest that H&M LP’s motion for new
trial is procedurally deficient. And given that a JMOL
award would otherwise be warranted, it follows a fortiori that the disgorgement award is “contrary to the
clear weight of the evidence.” Silver Sage Partners,
Ltd. v. City of Desert Hot Springs, 251 F.3d 814, 819
(9th Cir. 2001). Thus H&M LP is entitled, at a minimum, to a new trial on the issue of damages.
E. Unicolors’ Suggestion That Damages May
Not Be Reduced To Less Than $247,665 Is
Contrary To The Jury’s Findings, And Unsupported.
If this Court determines, as it should, that disgorgement damages should be measured by the
12,000 units actually sold by H&M LP, the disgorgement award should be reduced proportionately. It
would be entirely improper for the Court to start making offsetting adjustments which improperly invade
the province of the jury.

JA-168
Unicolors argued to the jury that disgorgement
damages should be measured by H&M LP’s total revenues per garment. Unicolors further argued to the
jury, as it now argues to the Court, that H&M LP had
not met its burden to establish its costs of goods. (Dkt.
250, p. 191-8.) However, the jury rejected this argument and awarded disgorgement damages based on
H&M LP records, placed in evidence by Unicolors,
showing “gross profit per pcs” of $4.93 per jacket and
$12.12 per skirt. (Trial Ex. 28, Ex. Q to SR Decl.)
Unicolors now argues that the evidence of H&M
LP’s costs was not “competent evidence,” and that the
jury should have awarded disgorgement damages
based on total revenues, rather than profits. (Dkt.
250, p. 10-11.) Unicolors also complains that H&M LP
failed to present the “underlying documents” which
were used to create Trial Exhibit 28. Unicolors waived
these arguments, since it successfully moved Trial
Exhibit 28 into evidence, and presented it to the jury
without redaction. (Trial Transcript, Dec. 7, 2017
(morning), Ex. DD to SR Decl., p.78.)
Having voluntarily placed both the revenue and
profits figures into evidence, Unicolors cannot now
complain that the profits figures were inadmissible.
With these figures in evidence, the jury decided that
H&M LP had presented sufficient evidence of its
costs, which was its province. That is really the end of
the issue.
Unicolors is now arguing that if this Court should
determine that the H&M LP sold only 12,000 garments and not 96,000 garments, it should offset that

JA-169
reduction by awarding disgorgement damages based
on revenue per garment, as opposed to profits per garment. Unicolors provides no authority which suggests
that such an extraordinary measure is warranted, or
even proper. The Court should not grant Unicolors an
improper windfall.
F. The Lost Profits Award Was Improper, and
Must Be Set Aside.
In its moving papers H&M LP demonstrated that
Unicolors’ claim for lost profits was barred under Fed.
R. Civ. P. 37(c)(1), given Unicolors’ stonewalling discovery on this issue. (Dkt. 247-1, p. 5:1-11.) As previously explained, Unicolors failed to produce any
evidence of lost profits in the course of discovery. In
addition, the only evidence of lost profits submitted at
trial was the unsubstantiated testimony of Unicolors’
president, which contradicted his prior deposition testimony wherein he disavowed any claim for lost profits.
Unicolors opposition papers do not even address
its demonstrated stonewalling on the lost profits
claim. Certainly Unicolors has not submitted any evidence to contradict H&M LP’s account of what happened in discovery. Accordingly, the jury’s lost profits
award must be set aside in its entirety.
Rather than defend the jury’s actual calculations,
Unicolors argues that H&M LP has “waived” the deficiency by failing to raise an objection before the jury
was discharged, citing Williams v. Gaye, 885 F.3d
1150 (9th Cir. 2018). However, the Ninth Circuit has
made it clear that the obligation to object before the

JA-170
jury is discharged “applies only in those circumstances in which the verdict is ‘internally inconsistent’—as when, for example, the jury decides both
the issues of liability and damages, and does so inconsistently.” Hazle v. Crofoot, 727 F.3d 983, 991 (9th
Cir. 2013). Here the verdict is not internally inconsistent, and there has been no waiver.
Contrary to Unicolors’ position, damage awards
must make reasonable mathematical sense and be
based on the evidence presented. GuideTech, Inc. supra at *2 (holding that the jury can only award damages for lost profits based on the evidence presented.)
Even Unicolors is unable to identify any evidence supporting the $28,800 award. Accordingly, it must be set
aside.
G. Violation of The Single Publication Rule Invalidates Unicolors’ Copyright
It is undisputed that multiple textile designs may
only be registered together under one registration if
they qualify as a “single unit.” Classical Silk Inc., v.
Cook, Case No. CV13-00950, 2013 WL 8744349, at *1
(C.D. Cal. Nov. 12, 2013); see also 27 C.F.R. § 202.3(b).
To qualify as a collective “single unit,” it must be
shown that the collection was “published” at the same
time—i.e., the “collection is sold, distributed, or offered for sale concurrently.” United Fabrics Int’l, Inc.
v. C & J Wear, Inc., 630 F.3d 1255, 1259 (9th Cir.
2011).
In its opposition papers, Unicolors expressly
acknowledges that some of the 31 designs in its group
registration were confined to certain customers for

JA-171
limited periods of time. (Dkt. 250, p. 2-7.) However,
Unicolors argues this does not matter because:
[N]owhere did Unicolors testify that the confined
designs were not first put into the design library and
shown to customers contemporaneous with the other
designs. Id.
In fact, Mr. Pazirandeh gave that very testimony:
Q So you advise the salespeople and the rest of
the staff not to sell publicly, but that’s—you
trust them?
A. My design room manager—I have a manager
for my design room. He—when we create a design for the specific customers, he’s the one
who is holding those designs back, and he
doesn’t give it to the – he doesn’t put it on
the shelf.
(Trial Transcript, Dec. 6, 2017 (morning), Ex. X to SR
Decl., p. 55: 15-24.)
Mr. Pazirandeh was not coy about this motivation
for combining numerous designs in one group registration. As he put it, the practice was “for saving
money.” (Trial Transcript, Dec. 6, 2017 (afternoon),
Ex. W to SR Decl., p. 53:21-25.)
Unicolors disputes that its conduct amounts to
fraud, but it does not explain how this Court could
reach any other conclusion. It is undisputed that Unicolors knowingly represented to the Copyright Office
that all of the designs in the group had been published

JA-172
concurrently, fully aware that this was not the case.
Unicolors’ motive is in the open; to save money. All of
the elements of fraud are present.
Unicolors also suggests, without actually stating,
that the 2008 revisions to the Copyright Act commonly referred to as the PRO IP Act might somehow
validate its copyright. However, “the purpose of the
PRO IP Act [is] to protect authors from minor mistakes in registration documents, ‘such as checking the
wrong box on the registration form … ” Beijing Ciwen
Film and Television Production Co. v. New Tang Dynasty, 2014 WL 12614473, at *n.4 (C.D. Cal. Feb. 27,
2014). The PRO IP Act will not protect a registration
where, as here, inaccurate information was included
with knowledge of its inaccuracy. Id.
In fact, the PRO IP Act authorizes the Court to
invalidate a copyright registration when the following
two requirements are met: (1) the inaccurate information was included on the application for copyright
registration with knowledge that it was inaccurate;
and (2) the inaccuracy of the information, if known,
would have caused the Register of Copyrights to refuse registration. Family Dollar Stores, Inc. v. United
Fabrics Intern., Inc. 896 F.Supp.2d 223 (S.D.N.Y.
Sept. 2012); citing 17 U.S.C. § 411(b)(1). And this is
precisely what we have, here.
In the alternative, as H&M LP as previously proposed, this Court can ask the Register of Copyrights,

JA-173
pursuant to 17 U.S.C. § 411(b)(2),8 whether it would
have registered the copyright if it had known of Unicolors’ fraud.
IV. CONCLUSION
For the reasons stated above, the Court should
grant H&M LP’s motion for judgment as a matter of
law and enter judgment in favor of H&M LP on all
claims. In the alternative, the Court should reduce
the disgorgement award to $98,395, and strike the
award for lost profits. In the alternative, the Court
should reduce the lost profits award to $17,168.
In the alternative, the Court should grant a new
trial. The Court also has authority to order a new
trial, giving Unicolors’ the option of accepting a remittitur to $98,395.

8 17 U.S.C. § 411(b)(2) provides that “In any case in which
inaccurate information described under paragraph (1) is alleged,
the court shall request the Register of Copyrights to advise the
court whether the inaccurate information, if known, would have
caused the Register of Copyrights to refuse registration.”

JA-174
Respectfully Submitted,
Dated:

May 4, 2018
NIXON PEABODY LLP
By:/s/ Staci Jennifer
Riordan
Staci Jennifer Riordan
Aaron M. Brian
Dale A. Hudson
Attorneys for Defendant
H & M HENNES &
MAURITZ LP

JA-175
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC.

Case No. 16-cv-02322-AB
(SKx)

Plaintiff,

ORDER DENYING
DEFENDANT’S
MOTION FOR
JUDGMENT AS A
MATTER OF LAW AND
GRANTING
DEFENDANT’S
MOTION FOR A NEW
TRIAL IN PART

v.
H&M HENNES & MAURITZ L.P., et al.,
Defendant.
On April 10, 2018, Defendant H & M Hennes &
Mauritz L.P. (“H&M LP”) filed a Motion for Judgment
as a Matter of Law, or in the Alternative, for a New
Trial. Dkt. No. 247. Plaintiff Unicolors, Inc. (“Unicolors”) opposed the motion, and H&M LP filed a reply.
Dkt. Nos. 250, 251. The Court heard oral argument
regarding the motion on June 8, 2018. For the following reasons, the Court DENIES the motion for judgment as a matter of law. The Court GRANTS the
motion for a new trial IN PART as to the issue of
damages, subject to Unicolors accepting a remittitur
of damages.

JA-176
I.

BACKGROUND

From December 5 through December 7, 2017, the
Court held a jury trial regarding Unicolors’ allegations of copyright infringement against H&M LP. At
the close of Unicolors’ case, H&M LP moved for judgment as a matter of law. The Court denied the motion.
After deliberation, the jury returned a verdict in Unicolors’ favor. The jury found that Unicolors owned a
valid copyright in the artwork at issue (“EH101”),
that H&M LP infringed on that copyright, and that
H&M LP’s infringement was willful. Dkt. No. 229.
The jury awarded Unicolors $817,920 in profit disgorgement damages and $28,800 in lost profits. Id.
H&M LP now renews its motion for judgment as
a matter of law. It argues that Unicolors did not have
a valid copyright and that Unicolors failed to prove
H&M LP copied EH101. In the alternative, H&M LP
seeks a new trial. It argues that the jury awarded excessive, unsupported damages; that the Court failed
to instruct the jury on presumptions to which it was
entitled; that the Court improperly excluded expert
witness testimony; that the Court improperly admitted evidence; and that the Court read the jury improper, unnecessary instructions.
II. LEGAL STANDARD
A motion under Rule 50(b) challenges the sufficiency of the evidence presented at trial to support the
prevailing party’s case. Judgment as a matter of law
following a jury verdict is proper “if the evidence, construed in the light most favorable to the nonmoving
party, permits only one reasonable conclusion, and

JA-177
that conclusion is contrary to the jury’s.” Vollrath Co.
v. Sammi Corp., 9 F.3d 1455, 1460 (9th Cir. 1993).
Judgment as a matter of law is improper if there is
substantial evidence to support the jury’s verdict. See
Transgo, Inc. v. Ajac Transmission Parts, Corp., 768
F.2d 1001, 1014 (9th Cir. 1985). “‘Substantial evidence’ is admissible evidence that reasonable minds
might accept as adequate to support a conclusion.”
Davis v. Mason Cty., 927 F.2d 1473, 1486 (9th Cir.
1991). In considering a motion under Rule 50, the
Court does not assess the credibility of witnesses and
does not “weigh the evidence, but [instead] draws all
factual inferences in favor of the nonmoving party.”
Lytle v. Household Mfg., Inc., 494 U.S. 545, 554
(1990). The “standard for granting summary judgment ‘mirrors’ the standard for judgment as a matter
of law, such that ‘the inquiry under each is the same.’”
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S.
133, 150 (2000) (internal citation omitted). Finally,
the Court may not substitute its judgment of the facts
for the judgment of the jury. Tennant v. Peoria & Pekin Union Ry. Co., 321 U.S. 29, 33 (1944).
Rule 59 governs motions for a new trial. Pursuant
to Rule 59(a)(1), “[t]he court may, on motion, grant a
new trial on all or some of the issues…, for any reason
for which a new trial has heretofore been granted in
an action at law in federal court.” Fed. R. Civ. P.
59(a)(1)(A). Although Rule 59 does not enumerate
specific grounds for a new trial, the Ninth Circuit has
held that “the trial court may grant a new trial only if
the verdict is contrary to the clear weight of the evidence, is based upon false or perjurious evidence, or
to prevent a miscarriage of justice.” Molski v. M.J. Ca-

JA-178
ble, Inc., 481 F.3d 724, 729 (9th Cir. 2007) (quoting
Passantino v. Johnson & Johnson Consumer Prods.,
212 F.3d 493, 510 n.15 (9th Cir. 2000)) (brackets omitted). A district court “enjoys considerable discretion in
granting or denying the motion.” Jorgensen v. Cassiday, 320 F.3d 906, 918 (9th Cir. 2003).
When the movant claims that a verdict was
against the clear weight of the evidence at trial, a new
trial should be granted “[i]f, having given full respect
to the jury’s findings, the judge … is left with the definite and firm conviction that a mistake has been committed.” Landes Const. Co., Inc. v. Royal Bank of
Canada, 833 F.2d 1365, 1371-72 (9th Cir. 1987) (quotations omitted). A “jury’s verdict must be upheld if it
is supported by substantial evidence, which is evidence adequate to support the jury’s conclusion, even
if it is also possible to draw a contrary conclusion.”
Pavao v. Pagay, 307 F.3d 915, 918 (9th Cir. 2002).
If a court determines that the evidence sufficiently supported a finding of liability, but that the
jury awarded excessive damages, it may grant a remittitur. Minthorne v. Seeburg Corp., 397 F.2d 237,
244-45 (9th Cir. 1968). “A remittitur must reflect the
maximum amount sustainable by the proof.” Oracle
Corp. v. SAP AG, 765 F.3d 1081, 1094 (9th Cir. 2014)
(quotations omitted). Generally, the plaintiff has the
option to accept the reduced damages award or conduct a new trial. Hetzel v. Prince William County, Va.,
523 U.S. 208, 211 (1998). “If the prevailing party does
not consent to the reduced amount, a new trial must
be granted.” Fenner v. Dependable Trucking Co., 716
F.2d 598, 603 (9th Cir. 1983).

JA-179
III. DISCUSSION
H&M LP identifies various purported errors that
it claims warrant judgment as a matter of law or a
new trial. Some of those claimed errors relate to liability, and others concern damages. The Court addresses each in turn.
A. Liability
H&M LP claims the jury found it liable for willful
copyright infringement in error for five reasons:
(1) the evidence established that Unicolors’ copyright
was invalid; (2) the jury could not have found striking
similarity or H&M LP’s access to EH101; (3) the
Court improperly declined to instruct the jury about
presumptions that H&M LP contends stem from a
third party’s Chinese copyright registration; (4) the
Court impermissibly excluded H&M LP’s United
States copyright registration; and (5) Unicolors failed
to present sufficient evidence of willfulness.
1. The Copyright’s Validity
H&M LP contends that Unicolors’ copyright was
invalid, as a matter of law, because the evidence at
trial indicated that Unicolors obtained the copyright
fraudulently. Unicolors registered EH101 in a joint
registration, Registration No. VA 1-770-400 (the
“400 Registration”). See Dkt. No. 64-7. The 400 Registration had a publication date of January 15, 2011. Id.
According to H&M LP, the undisputed evidence at
trial showed that the artworks registered in the
400 Registration were not all published on the same
date. Thus, H&M LP argues, Unicolors fraudulently

JA-180
misrepresented the publication date for at least some
of the works registered in the 400 Registration, rendering the registration invalid.
The Copyright Act allows multiple works to be
registered in a single copyright in certain circumstances. As relevant here, a claimant can register a
collection of works “as a single work.” 37 C.F.R.
§ 202.3(b)(4). In the case of published works, a claimant only can register a collection of public works in a
single registration if “the collection is sold, distributed
or offered for sale concurrently.” United Fabrics Int’l,
Inc. v. C&J Wear, Inc., 630 F.3d 1255, 1259 (9th Cir.
2011) (citing 37 C.F.R. § 202.3(b)(4)).
“A copyright registration is ‘prima facie evidence
of the validity of the copyright and the facts stated in
the certificate.’” United Fabrics, 630 F.3d at 1257
(quoting 17 U.S.C. § 410(c)). Inaccurate information
in a copyright registration can invalidate a registration, but such invalidity does not occur automatically.
See L.A. Printex Indus., Inc. v. Aeropostale, Inc., 676
F.3d 841, 854 (9th Cir. 2012), as amended on denial
of reh’g and reh’g en banc (June 13, 2012) (explaining
that an “error in itself does not invalidate the registration or render the certificate of registration incapable of supporting an infringement action”). Instead,
a registration remains effective despite containing inaccurate information unless “(A) the inaccurate information was included on the application for copyright
registration with knowledge that it was inaccurate;
and (B) the inaccuracy of the information, if known,
would have caused the Register of Copyrights to refuse registration.” 17 U.S.C. § 411(b)(1). Inadvertent

JA-181
mistakes in a copyright registration therefore do not
invalidate the registration “unless the alleged infringer has relied to its detriment on the mistake.”
L.A. Printex, 676 F.3d at 853 (quotations omitted). Because invalidity due to inaccuracies in a registration
requires the copyright claimant to have known its application was inaccurate, a party asserting invalidity
must show some indication that the claimant intended to defraud the Copyright Office. See id. at 854
(holding that the plaintiff’s error in including formerly published works in a registration for an unpublished collection did not invalidate the
registration because the evidence did not show “that
the error was other than an inadvertent mistake”);
Advanced Visual Image Design, LLC v. Exist, Inc.,
No. CV 10-09383 DMG (AJWx), 2013 WL 12122662,
at *5 (C.D. Cal. Jan. 22, 2013) (rejecting the defendant’s invalidity argument where it “fail[ed] to establish that [the plaintiff] intended to defraud the
Copyright Office”).
H&M LP’s invalidity argument fails on two
counts. First, H&M LP has not shown that the
400 Registration had inaccurate information that, if
known to the Register of Copyrights, would have
caused it to refuse registration. 37 C.F.R. § 202.3(b)(4)
requires published works registered as a single unit
to have been published concurrently, not to have been
published concurrently on any particular date. H&M
LP fails to identify evidence indicating that the works
listed in the 400 Registration were published separately. To the contrary, when Nadir Pazirandeh was
asked at trial whether he presented the works listed
in the 400 Registration as a group, he responded,

JA-182
“that’s always our practice.” Decl. Staci Riordan, ¶ 16,
Ex. J,
Trial
Tr.
54:9-11
(N.
Pazirandeh).
Mr. Pazirandeh did go on to testify that the works
were presented to Unicolors salespeople on January 15, 2011, rather than to purchasers, which would
likely be required to establish publication on that
date. See United Fabrics, 630 F.3d at 1259 (“A necessary element of a published-collection copyright is
that the collection is sold, distributed or offered for
sale concurrently.”). But nothing in the identified testimony suggests that the works listed in the 400 Registration were eventually presented to purchasers on
separate dates. Thus, even if the Register of Copyrights had known that the works listed in the
400 Registration were published on a date other than
January 15, 2011, it would not necessarily have refused the registration.
Second, H&M LP has pointed to no evidence indicating that Unicolors knew the 400 Registration contained false information at the time of the
registration.
Without any showing that Unicolors intended to
defraud the Copyright Office, H&M LP’s invalidity argument fails.
2. Copying
H&M LP also argues that the jury could not have
reasonably found that it copied EH101. It claims Unicolors neither established a striking similarity between the parties’ works nor H&M LP’s access to
EH101.

JA-183
Generally, a plaintiff asserting copyright infringement can establish copying by showing (1) a
substantial similarity between the allegedly infringing work and the copyrighted work, and (2) that the
defendant had access to the copyrighted work. Three
Boys Music Corp. v. Bolton, 212 F.3d 477, 481 (9th
Cir. 2000). However, a plaintiff can overcome an insufficient showing of access if the two works are
“strikingly similar.” See Baxter v. MCA, 812 F.2d 421,
423 (9th Cir. 1987) (“If there is no evidence of access,
a ‘striking similarity’ between the works may allow an
inference of copying.”).
a. Access
To establish access, a plaintiff must show that the
defendant had a reasonable opportunity to view the
plaintiff’s copyrighted work. L.A. Printex, 676 F.3d at
846. It can do so by asserting “circumstantial evidence
of either (1) a chain of events linking the plaintiff’s
work and the defendant’s access, or (2) widespread
dissemination of the plaintiff’s work.” Id. at 846-48
(holding that a jury could conclude that the plaintiff’s
copyrighted design was widely disseminated where
the plaintiff sold 50,000 yards of fabric bearing the
design).
Here, the parties stipulated that Unicolors sold at
least 51,973 yards of fabric bearing the EH101 design.
Dkt. No. 182, at p. 4. Unicolors also presented evidence that it sold the fabric to H&M LP’s competitors,
such as Target and Nordstrom. Dec. 7, 2017 Trial Tr.
47:22-25 (N. Pazirandeh) (Dkt. No. 235). This evidence was sufficient for a reasonable jury to deter-

JA-184
mine that EH101 was widely disseminated such that
H&M LP had an opportunity to view it.
b. Striking Similarity
Even if the jury did not find sufficient evidence
that H&M LP had access to EH101, it could have
found that the designs on H&M LP’s garments were
strikingly similar to EH101. In arguing that the jury
could not have found striking similarity, H&M LP relies on the Court’s denial of Unicolors’ motion for summary judgment, in which the Court declined to find
that the parties’ products were strikingly similar as a
matter of law. See Dkt. No. 180, at p. 7. But that ruling simply meant that the jury would have to determine whether the works were strikingly similar.
Indeed, as detailed in the Court’s summary judgment
order, EH101 and the designs on H&M LP’s garments
contained many of the same elements. Id., at pp. 5-6.
The jury could have properly concluded that the designs were strikingly similar.
c. Substantial Similarity
H&M LP alternatively argues that the jury was
not given proper guidance to assess whether the design on its garments were substantially similar to
EH101. It identifies two supposed errors by the Court.
First, it contends its fashion expert, Robin Lake,
should have been permitted to testify to help the jury
evaluate the similarities and differences between the
designs on H&M LP’s garments and EH101. Second,
it argues that the Court improperly admitted a monochromatic version of EH101, Exhibit 38, that it

JA-185
claims accentuated the similarities between the parties’ works.
The Court does not question H&M LP’s insistence
that Ms. Lake’s testimony would have been helpful.
But the Court excluded Ms. Lake because H&M LP
failed to properly disclose her as an expert witness,
not because of the content of her proposed testimony.
See Dkt. No. 181, at pp. 3-5. H&M LP has not identified any error in the Court’s reasoning.
Nor has H&M LP convinced the Court that it
erred in admitting a monochromatic version of
EH101. As H&M LP concedes in its motion, H&M LP
failed to object to Exhibit 38 at the time of its admission. Mem. P. & A., at p. 21 n.14 (Dkt. No. 247-1).
Moreover, H&M LP has not provided any support for
its argument that a jury can only consider the deposit
copy of a copyrighted work in assessing substantial
similarity. The one case it cites, L.A. Printex, explained that the jury could consider “copies” of the design at issue in assessing substantial similarity. 676
F.3d at 850, n.3 (explaining that the jury “may consider fabric swatches of C30020 … so long as … the
fabric swatches are also ‘copies’ of C30020”). Exhibit 38 was a black and white copy of EH101, and the
jury could properly examine it.
3.

Chinese Copyright Registration

H&M LP also argues that the Court improperly
failed to instruct the jury about presumptions it
claims come from a third party’s Chinese copyright
registration. The Court granted judicial notice of a
Chinese copyright registration for the “Xue Xu” de-

JA-186
sign, which was obtained by a third party, Shaoxing
County DOMO Apparel Co., Ltd. (“DOMO”). According to H&M LP, the Court should have instructed the
jury that the Xue Xu design was presumed to be an
original work because of the Chinese copyright registration.
The Court is aware of no authority holding that
foreign copyrights convey a presumption of originality
that would come with a United States registration.
International treaties do require United States courts
to recognize foreign copyrights. See Creative Tech.,
Ltd. v. Aztech Sys. PTE, Ltd., 61 F.3d 696, 700 (9th
Cir. 1995). But recognition of a foreign copyright does
not mean that a work registered in a different country
must be presumed original. Works copyrighted in the
United States receive a presumption of originality because United States copyright law only permits original works to be copyrighted. See N. Coast Indus. v.
Jason Maxwell, Inc., 972 F.2d 1031, 1033 (9th Cir.
1992) (“Originality is the indispensable prerequisite
for copyrightability.”). Since works must be original to
be validly copyrighted in the United States and registered copyrights are presumed valid, copyrighted
works are presumptively original. See Swirsky v.
Carey, 376 F.3d 841, 851 (9th Cir. 2004), as amended
on denial of reh’g (Aug. 24, 2004). H&M LP’s attempt
to extend that presumption to a Chinese copyright
fails because H&M LP provides no indication that
works must be original to be copyrighted in China, or
that China applies the same standards for assessing
originality as does the United States. Indeed, this
court has declined to apply a presumption that would
come from a United States registration to a foreign

JA-187
registration because of underlying differences in copyright law from country to country. See Lahiri v. Universal Music & Video Distribution, Inc., 513 F. Supp.
2d 1172, 1178 (C.D. Cal. 2007) (holding that an Indian
copyright registration did not create a presumption of
ownership like a United States registration would because “ownership is determined according to India’s
copyright law”). Without any showing that Chinese
law applies the same standards for originality as
United States law, the Chinese Xue Xu registration
does not convey a presumption of originality.
Even if the Chinese copyright registration did create a presumption of originality, the Court still did
not err in refusing to instruct the jury about such a
presumption because H&M LP failed to establish a
connection between the Chinese copyright registration and its own garments. The Court took judicial notice of the Chinese Xue Xu registration, which
established the registration’s existence. But H&M LP
presented no testimony or documents whatsoever
about the origin of the design on its own garments. It
certainly did not show that its design came from
DOMO. H&M LP’s failure to establish any connection
between the Chinese Xue Xu registration and its own
design rendered the registration irrelevant. Had the
Court instructed the jury to presume that the work
identified in the Chinese registration was original,
the jury would have had no reason to apply that presumption to H&M LP’s garments.
4.

United States Copyright Registration

JA-188
In addition, H&M LP claims that the Court erred
in excluding a United States copyright registration
for the Xue Xu design. As the Court explained in its
order denying H&M LP’s request for judicial notice of
the United States Xue Xu copyright, Staci Riordan,
H&M LP’s trial counsel, obtained the registration on
October 4, 2017, just two months before trial. Dkt.
No. 186, at p. 3. The United States registration, obtained well after the alleged acts of infringement and
as part of a litigation strategy, was simply irrelevant
to whether H&M LP infringed Unicolors’ copyright.
See id, at pp. 3-4. The Court did not err in excluding
the United States copyright registration.
5. Willfulness
Finally, H&M LP argues that the jury’s willfulness finding was improper. H&M LP contends that
the Court erred in placing a question about willfulness on the special verdict form. It also claims that its
infringement could not have been willful because it
obtained the design at issue from DOMO. Neither argument persuades the Court.
First, the question about willfulness on the special verdict form was, at worst, superfluous. The jury
specifically asked the Court in a jury note whether a
finding of willfulness should affect its award of monetary compensation to Unicolors, and the Court answered that it did not. Dkt. Nos. 221, 222. The Court’s
instruction therefore rendered the willfulness question harmless.
Second, H&M LP’s argument that it obtained the
design on its infringing garments from DOMO, not by

JA-189
infringement, underscores that willfulness was a factual issue for the jury to decide. While H&M LP argued that it obtained its design from DOMO, it
produced no evidence to that effect. To the contrary,
the parties stipulated that H&M LP possessed infringing garments until October 2016, nearly six
months after Unicolors sued it for copyright infringement. Dkt. No. 182, at p. 4. The jury properly concluded that H&M LP willfully infringed Unicolors’
copyright.
***
For the foregoing reasons, the Court concludes
that H&M LP is not entitled to judgment as a matter
of law or a new trial with respect to the jury’s finding
that it was liable for copyright infringement. Adequate evidence supported the jury’s finding of liability, and H&M LP identifies no error that justifies a
new trial.
B. Damages
H&M LP argues that the jury’s damages award
against it was excessive because the jury awarded
profit disgorgement damages based on foreign sales
for which H&M LP could not be responsible. H&M LP
also claims the jury’s award of lost profit damages was
not supported by sufficient evidence.
1.

Profit Disgorgement Damages

H&M LP does not dispute that it sold 11,999
skirts and jackets bearing the design at issue in the
United States. See Supp. Decl. Staci Riordan, ¶ 4,

JA-190
Ex. Q (Dkt. No. 251-2); Mem. P. & A., at p. 3. However, the Court admitted evidence that a separate corporation, H&M Hennes & Mauritz GBC AB (“H&M
GBC”), shipped 84,000 infringing skirts and jackets to
foreign countries. Riordan Supp. Decl., ¶¶ 5, 6,
Exs. R, S. H&M LP argues that, in awarding Unicolors $817,920 of profit disgorgement damages, the jury
must have based its damages calculation on H&M
GBC’s shipments of infringing garments to other
countries. H&M LP claims that the evidence was insufficient for the jury to award profit disgorgement
damages against it based on those foreign shipments.
As explained below, the Court agrees and holds that
Unicolors’ profit disgorgement damages award must
be reduced.
A successful plaintiff in a copyright infringement
action may disgorge the profits the defendant made
from selling infringing goods. 17 U.S.C. § 504(a)(1).
“In establishing the infringer’s profits, the copyright
owner is required to present proof only of the infringer’s gross revenue, and the infringer is required
to prove his or her deductible expenses and the elements of profit attributable to factors other than the
copyrighted work.” 17 U.S.C. § 504(b). Thus, determining the profits a plaintiff may disgorge involves a
multi-step process. First, the plaintiff bears the burden of establishing the defendant’s gross revenue.
Frank Music Corp. v. Metro-Goldwyn-Mayer, Inc., 772
F.2d 505, 514 (9th Cir. 1985). The burden then shifts
to the defendant to establish the expenses to deduct
from gross revenue to arrive at profit. Id. The defendant can further reduce its liability by establishing
that a portion of its profit was not attributable to in-

JA-191
fringing activity. See Polar Bear Prods., Inc. v. Timex
Corp., 384 F.3d 700, 711 (9th Cir. 2004), as amended
on denial of reh’g and reh’g en banc (Oct. 25, 2004).
a.

Gross Revenue from Shipments
to the United States

To establish H&M LP’s sales of infringing goods,
Unicolors relied on two types of documents. First, it
introduced a spreadsheet generated by H&M LP,
which the Court admitted as Exhibit 28. Riordan
Supp. Decl., Ex. Q. The spreadsheet indicated that
H&M LP sold 6,535 pieces of an infringing jacket at
an average net sale price of $20.91 and 5,464 pieces of
an infringing skirt at an average net sale price of
$20.32. Id. Added together, the spreadsheet established that H&M LP earned $247,675.33 in gross revenue from sales of infringing products.
Second, Unicolors relied on packing lists from
H&M GBC. The packing lists, which were introduced
as Exhibits 29, 30, and 31, indicated that H&M GBC
shipped 96,000 garments from its office in Stockholm,
Sweden. See Riordan Supp. Decl., ¶¶ 5, 6, 7, Exs. R,
S, T. H&M GBC sent about 12,000 of those garments
to the United States. As evidenced by the spreadsheet
admitted as Exhibit 28, H&M LP sold those garments. H&M GBC shipped the remaining 84,000 garments to other countries. During closing arguments,
Unicolors argued that the jury should award it profit
disgorgement damages based on all 96,000 garments,
not just those sent to the United States. Dec. 7, 2017
Trial Tr. 70:3-72:1 (Dkt. No. 239).

JA-192
b.

Damages from Foreign Shipments

Because the evidence established that H&M LP
made, at most, $247,675.33 in gross revenue from
sales of infringing garments that H&M GBC sent to
the United States, the jury must have awarded profit
disgorgement damages based on H&M GBC’s shipments to foreign countries. A copyright owner can recover for sales of infringing goods in two situations.
First, it can recover for the defendant’s direct infringement. Second, in some circumstances, it can recover based on the defendant’s involvement in a third
party’s infringement. See Metro-Goldwyn-Mayer Studios Inc. v. Grokster, Ltd., 545 U.S. 913, 930 (2005)
(explaining that “the only practical alternative” to enforcing rights against direct infringers is “to go
against the distributor … for secondary liability on a
theory of contributory or vicarious infringement”).
i.

Direct Infringement

To establish direct infringement, a copyright
owner must prove the traditional elements of ownership and copying, but must also satisfy a third element—volitional conduct. Perfect 10, Inc. v.
Giganews, Inc., 847 F.3d 657, 666 (9th Cir. 2017). To
prove volitional conduct, the copyright owner must
show that the defendant’s conduct directly caused the
infringement. Id. “[M]ere authorization of a third
party’s infringing acts does not constitute direct copyright infringement on the part of the defendant.”
Paramount Pictures Corp. v. Int’l Media Films Inc.,

JA-193
No. CV 11-09112 SJO (AJWx), 2013 WL 3215189, at
*13 (C.D. Cal. June 12, 2013).
While Unicolors presented evidence to establish
that H&M LP itself sold infringing garments in the
United States, it did not introduce evidence to prove
that H&M LP committed direct infringement with respect to H&M GBC’s shipments to foreign countries.
At trial, the jury heard testimony from Chelsea Wharton about the process by which H&M GBC distributed
garments. According to Ms. Wharton, H&M GBC operated a buying office in Stockholm, Sweden. Dec. 7,
2017 Trial Tr. 70:6-19 (C. Wharton) (Dkt. No. 235).
The buying office determined which garments to purchase and then allocated them to each global market.
Id. at 70:21-71:15. Unicolors did not offer any evidence or testimony to dispute Ms. Wharton’s description of the that process. The uncontroverted evidence
at trial therefore indicated that H&M GBC purchased
infringing garments from third parties and allocated
them to different markets. This evidence may have
established that H&M GBC infringed Unicolors’ copyright by distributing infringing garments. But H&M
GBC is not the defendant in this case, H&M LP is.
Unlike the garments H&M GBC shipped to the
United States, which H&M LP itself sold, Unicolors
failed to introduce evidence that H&M LP sold, distributed, or produced the garments that H&M GBC
shipped to other countries. Accordingly, Unicolors did
not, as a matter of law, establish that H&M LP directly infringed its copyright with respect to H&M
GBC’s foreign shipments.
ii.

Secondary Liability

JA-194
“The Copyright Act does not expressly render anyone liable for infringement committed by another.”
Sony Corp. v. Universal City Studios, 464 U.S. 417,
434 (1984). Courts have established two general exceptions to this rule, however. Grokster, 545 U.S. at
930 (2005). One such exception is for contributory infringement, which occurs when the defendant “intentionally
induc[es]
or
encourage[es]
direct
infringement.” Id. Another is for vicarious infringement, which applies where the defendant “profit[s]
from direct infringement while declining to exercise a
right to stop or limit it.” Id. Unicolors does not argue
that contributory infringement applies in this case.
But Unicolors did request an instruction on vicarious
infringement, and the Court gave the instruction. See
Dkt. Nos. 165, 212.
To establish liability for vicarious infringement, a
plaintiff must establish “(1) the right and ability to
supervise the infringing conduct, and (2) a direct financial interest in the infringing activity.” Giganews,
847 F.3d at 673. Unicolors failed to present evidence
to satisfy either element at trial.
(1) Control
“A defendant exercises control over a direct infringer when he has both a legal right to stop or limit
the directly infringing conduct, as well as the practical ability to do so.” Perfect 10, Inc. v. Amazon.com,
Inc., 508 F.3d 1146, 1173 (9th Cir. 2007). Courts have
found control where the defendant had the right to
monitor and halt the direct infringer’s activities.
Compare Fonovisa, Inc. v. Cherry Auction, Inc., 76

JA-195
F.3d 259, 263 (9th Cir. 1996) (holding that the defendant’s broad contracts with its vendors gave it the right
and ability to stop them from selling counterfeit recordings on its premises) with Unicolors, Inc. v. NB
Brother Corp, No. CV 16-02267-MWF (JPRx), 2017
WL 4402287, *5 (2017) (holding that the plaintiff
could not establish vicarious infringement where no
evidence showed that the defendant could control its
Chinese vendor). A defendant’s ownership interest in
a separate corporate entity cannot, on its own, establish liability for the separate entity’s infringement.
Frank Music, 772 F.2d at 519-20 (explaining that “[a]
parent corporation cannot be held liable for the infringing actions of its subsidiary unless there is a substantial and continuing connection between the two
with respect to the infringing acts”).
Unicolors simply made no showing at trial that
H&M LP could control H&M GBC’s activities. It
failed to introduce any evidence about the relationship between H&M LP and H&M GBC. The evidence
certainly did not suggest that H&M LP could stop
H&M GBC from selling infringing garments. And,
even if the jury assumed that the H&M LP and H&M
GBC shared an owner, that relationship would be insufficient to establish that H&M LP could control
H&M GBC’s infringing activities. Unicolors therefore
failed, as a matter of law, to satisfy the control element of a vicarious infringement claim.
(2) Financial Benefit
Unicolors also failed to establish that H&M LP
had a direct financial interest in H&M GBC’s infring-

JA-196
ing activities. A defendant benefits financially from
another’s infringement when “there is a causal relationship between the infringing activity and any financial benefit a defendant reaps, regardless of how
substantial the benefit is in proportion to a defendant’s overall profits.” Giganews, 847 F.3d at 673. A
plaintiff must establish that the defendant benefitted
from the particular infringement at issue, rather than
infringement generally. Id. at 674 (holding that evidence that some of the defendant’s subscribers joined
its service to access infringing material was insufficient to establish that the defendant benefitted from
the specific infringement at issue).
Here again, Unicolors failed to assert any evidence that H&M LP benefitted from H&M GBC’s actions. It did not establish that H&M LP collected any
revenue from H&M GBC’s shipments of infringing
products. Nor did Unicolors assert evidence that
H&M GBC’s activities drew customers to H&M LP’s
stores. Accordingly, Unicolors did not satisfy the financial benefit element of a vicarious infringement
claim.
Because the evidence at trial could not support a
finding that Unicolors controlled or financially benefitted from H&M GBC’s alleged infringement, Unicolors failed to establish vicarious infringement at trial.
H&M LP therefore cannot recover damages based on
H&M GBC’s infringement of its copyright.
iii.

Extraterritorial Liability

Even if H&M LP did infringe Unicolors’ copyright
through H&M GBC’s shipments to foreign countries,

JA-197
Unicolors could not recover for that infringement. The
Copyright Act only applies in the United States and
therefore does not extend to extraterritorial acts of infringement. Subafilms, Ltd. v. MGM–Pathe Communications Co., 24 F.3d 1088, 1094 (9th Cir.1994) (en
banc). However, one exception exists to this rule.
When a complete act of infringement in the United
States enables further infringement abroad, a copyright owner can recover for the defendant’s foreign exploitation of the copyrighted work. Los Angeles News
Serv. v. Reuters Television Int’l, Ltd. (Reuters III), 149
F.3d 987, 992 (9th Cir. 1998), as amended on denial
of reh’g and reh’g en banc (Aug. 25, 1998). The Reuters III exception to the rule against extraterritoriality is a narrow one. Los Angeles News Serv. v. Reuters
Television Int’l (USA) Ltd., 340 F.3d 926, 931 (9th Cir.
2003), as amended on denial of reh’g (Oct. 7, 2003)
(“The import of such principles counsel a narrow application of the adoption in Reuters III of the Sheldon
exception to the general rule.”). Courts therefore decline to impose damages for foreign acts of infringement unless a “predicate act of domestic
infringement” allowed for the foreign infringement.
See Aurora World, Inc. v. Ty Inc., 719 F. Supp. 2d
1115, 1131, n.38 (C.D. Cal. 2009) (denying a motion
for a preliminary injunction where the plaintiff failed
to establish that the defendant itself sold infringing
products in the United States). Even completed acts
of infringement in the United States do not convey liability for foreign infringement where the domestic
infringement does not enable or entice the foreign infringement. Compare Rundquist v. Vapiano SE, 798
F. Supp. 2d 102, 124 (D.D.C. 2011) (holding that the
plaintiff could not recover for foreign infringement of

JA-198
a work the defendant also reproduced in the United
States because “[i]n order to have enticed the foreign
[infringement], the [defendant’s American infringement] must necessarily have come first, but this allegation is missing from the Complaint”) with In re
Outsidewall Tire Litig., No. 1:09cv1217, 2010 WL
11474982, *6-7 (E.D. Va. Sept. 17, 2010) (declining to
dismiss claims for copyright infringement that occurred outside the United States where the infringed
product’s blueprints were first illegally reproduced
and modified inside the United States).
Even if H&M LP received H&M GBC’s foreign
shipments of garments and sold them in other countries, Unicolors has not established a sufficient predicate act of infringement in the United States to make
H&M LP liable for those sales. While H&M LP sold
infringing garments in the United States, no evidence
suggests that those sales enabled or enticed foreign
sales. Instead, the evidence at trial established that
H&M GBC purchased garments from third parties
and then allocated them to different global markets.
H&M LP received the garments and ultimately sold
them to consumers. But, as Ms. Wharton testified,
H&M LP had no role in the production process. Dec. 7,
2017 Trial Tr. 84:10-17 (C. Wharton) (Dkt. No. 235).
Because H&M LP’s infringement occurred at the end
of the distribution process, Unicolors could not establish that its American infringement occurred before
the alleged foreign acts of infringement. H&M LP’s
sales of infringing garments in the United States
made it no easier for it to sell the garments in other
countries. Thus, even assuming that H&M LP itself
sold infringing garments that H&M GBC shipped to

JA-199
other countries, Unicolors has not established a basis
for it to recover profit disgorgement damages based
on those sales.1
In hopes of avoiding Subafilm’s rule against extraterritoriality altogether, Unicolors alternatively
argues that the jury could have presumed that the
garments H&M GBC shipped to foreign countries
were ultimately sold in the United States. Opp’n, at
p. 9. Unicolors essentially contends that, because
H&M LP did not establish that the garments were
sold anywhere other than the United States, the jury
could assume that they were sold in H&M LP’s United
States stores. Opp’n, at pp. 8-9. But, as the plaintiff,
Unicolors bore the burden of establishing H&M LP’s
sales, and even the jury’s verdict does not reverse that
burden of proof. The absence of evidence that H&M
LP sold the garments that H&M GBC shipped to
other countries in the United States means that Unicolors cannot recover profit disgorgement damages

1 Unicolors’ notice of supplemental authority does not alter
the Court’s conclusion. Dkt. No. 260. In the case Unicolors submitted, WesternGeco LLC v. ION Geophysical Corp., 138 S.Ct.
2129, 2134-2136 (June 22, 2018), the Supreme Court held that a
patent holder could recover foreign lost profits where the defendant manufactured components of an infringing system in the
United States but assembled the system abroad. The statute at
issue in WesternGeco prohibited the exportation of components
to be combined in foreign countries in a way that would infringe
an American patent. Id. at 2135 (citing 35 U.S.C. § 271(f)(2)).
Thus, unlike here, the defendant’s act in the United States,
which a statute specifically proscribed, allowed for the foreign
infringement to occur.

JA-200
based on those shipments. Thus, the jury’s profit disgorgement damages award was excessive.
2. Lost Profits
H&M LP also challenges the jury’s $28,800 lost
profits award. It argues that the evidence did not support the jury’s calculation. The Court agrees and reduces the jury’s lost profits award to $18,534.
A victim of copyright infringement may recover
both profit disgorgement and actual damages. Polar
Bear, 348 F.3d at 707-8. One permissible way to calculate actual damages is to tabulate the plaintiff’s lost
profits from lost sales of its products. See JBJ Fabrics,
Inc. v. Mark Indus., Inc., No. CV 86-4881 FFF, 1987
WL 47381, at *6 (C.D. Cal. Nov. 5, 1987) (calculating
lost profit damages by multiplying the yards of infringing fabric the defendant sold by the plaintiff’s
profit margin per yard of fabric it sold). An award of
actual damages must be non-speculative and supported by evidence. Polar Bear, 348 F.3d at 708.
Here, Mr. Pazirandeh testified that Unicolors
would have made about $2 per jacket and up to $1 per
skirt had H&M LP purchased the fabric for its garments from Unicolors. Decl. Scott Burroughs, ¶ 2, Ex.
1, Trial Tr. 67:12-68:03 (Dkt. No. 250-1). Because the
evidence at trial established that H&M LP sold 6,535
units of the jacket and 5,464 units of the skirt, the
maximum amount of lost profits Unicolors incurred as
a result of H&M LP’s infringement was $18,534.

JA-201
3. Remittitur Calculation
“A remittitur must reflect the maximum amount
sustainable by the proof.” Oracle, 765 F.3d at 1094.
By reducing excessive damages awards to the maximum sustainable amount, courts avoid substituting
their judgment for that of the jury. D & S Redi-Mix v.
Sierra Redi-Mix & Contracting Co., 692 F.2d 1245,
1249 (9th Cir. 1982).
The maximum profit disgorgement damages
award the evidence can support in this case is
$247,675.33. That figure represents H&M LP’s gross
revenue from sales of infringing garments in the
United States. While a jury may reduce an infringing
defendant’s gross revenue by its expenses, it is the defendant’s burden to produce evidence supporting such
a reduction. Frank Music, 772 F.2d at 514. Here, the
only evidence H&M LP asserted of its expenses was a
spreadsheet which attributed $15.98 in costs to each
jacket sold and $8.21 in costs to each skirt sold.
Riordan Supp. Decl., Ex. Q. It did not present any evidence about the underlying costs that went into that
calculation. Without evidence of how H&M LP calculated its expenses, a reasonable jury could decline to
credit H&M LP’s expense calculation. Accordingly, a
reasonable jury could award up to $247,675.33 in
profit disgorgement damages.
As explained in the preceding section, the evidence only supported an $18,534 damages award for
lost profits. Combining the maximum sustainable
profit disgorgement damages and the maximum sustainable lost profits damages, the maximum damages

JA-202
the jury could
$266,209.33.

have

awarded

amounted

to

IV. CONCLUSION
For the foregoing reasons, the Court DENIES
H&M LP’s motion for judgment as a matter of law and
GRANTS IN PART H&M LP’s motion for a new
trial. The Court conditionally grants a new trial on
the issue of damages, subject to Unicolors accepting a
remittitur of damages to $266,209.33 within 14 days
of the issuance of this order.
IT IS SO ORDERED.
Dated: August 01, 2018

[h/w
signature]
HONORABLE
ANDRÉ
BIROTTE JR. UNITED
STATES
DISTRICT
COURT JUDGE

JA-203
Stephen M. Doniger (SBN 179314)
stephen@donigerlawfirm.com
Scott Alan Burroughs (SBN 235718)
scott@donigerlawfirm.com
Trevor W. Barrett, Esq. (SBN 287174)
tbarrett@donigerlawfirm.com
DONIGER / BURROUGHS
603 Rose Avenue
Venice, California 90291
Telephone: (310) 590-1820
Attorneys for Plaintiff
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC.,
Plaintiff,
vs.
H&M HENNES & MAURITZ LP; et al.,
Defendants
Case No.: 2:16-cv-02322 AB (SKx)
Honorable André Birotte, Jr. Presiding
NOTICE OF SUPREME COURT GRANT OF PETITION FOR WRIT OF CERTIORARI AND REQUEST TO CONTINUE RESPONSE DATE
FROM COPYRIGHT OFFICE
TO THE HONORABLE COURT, ALL PARTIES, AND ATTORNEYS OF RECORD:

JA-204
PLEASE TAKE NOTICE that Plaintiff, Unicolors, Inc., hereby notifies this Court of the U.S. Supreme Court’s grant of certiorari to resolve the proper
standard under 17 U.S.C. § 411(b)(1)(A) for determining whether inaccurate information in a copyright
registration was “included … with knowledge that it
was inaccurate.”
In light of the Supreme Court’s decision to review
this question, Unicolors further requests that this
Court continue the date by which a response is requested from the U.S. Copyright Office to this Court’s
request that the Copyright Office advise as to the materiality
of
any
inaccurate
information,
see § 411(b)(1)(B), (b)(2). Unicolors has notified Defendant’s counsel of its intention to make this request.
This Court had previously requested a response
from the Copyright Office on or before June 18. Because the referral to the Copyright Office is predicated on the Ninth Circuit decision now under
Supreme Court review, continuing the response date
until 60 days after the issuance of the Supreme
Court’s opinion will conserve the resources of this
Court, the Copyright Office, and the parties, while ensuring that the Supreme Court can fully resolve the
important question of law before it. Alternatively, it
would also be appropriate for this Court to formally
stay proceedings in this case pending the Supreme
Court’s decision.

JA-205
A. The Supreme Court has granted Unicolors’ petition for a writ of certiorari.
On June 1, 2021, the Supreme Court granted Unicolors’ petition for a writ of certiorari in Supreme
Court Case Number 20-915. The grant was limited to
Question 1 of Unicolors’ petition: “Did the Ninth Circuit err in breaking with its own prior precedent and
the findings of other circuits and the Copyright Office
in holding that 17 U.S.C. § 411 requires referral to the
Copyright Office where there is no indicia of fraud or
material error as to the work at issue in the subject
copyright registration?”
A copy of this order is attached as Exhibit 1. The
Supreme Court will resolve the case during its October 2021 term.
B. This Court should continue the Copyright
Office’s response date for advising the
Court as to the materiality of any inaccuracy.
As mandated by the Ninth Circuit’s opinion, this
Court requested that the Copyright Office advise on
the question of whether the Copyright Office would
have granted Unicolors’ registration had it been
aware of the claimed inaccuracy contained on the registration form, see 17 U.S.C. § 411(b)(1)(B), (b)(2). Dkt.
No. 303, renewed at Dkt. No. 305. This Court requested a response by June 18, 2021. Dkt. 305. In
light of the Supreme Court’s grant of certiorari, Unicolors respectfully requests that this Court continue
the response date, extending the deadline for the Cop-

JA-206
yright Office’s response pending the Supreme Court’s
decision.
Whether the referral to the Copyright Office was
appropriate under § 411 depends on the answer to the
legal question on which the Supreme Court has
granted review. Section 411(b)(2) directs referral to
the Copyright Office only upon a finding that a plaintiff’s copyright application includes a knowing inaccuracy. If the Supreme Court holds that the Ninth
Circuit erred in reversing this Court’s ruling that
there was no such inaccuracy, the condition set forth
in § 411(b) would not be satisfied, obviating the need
for any referral to the Copyright Office or any advice
from the Copyright Office on the materiality of any
inaccuracy. In other words, if the Supreme Court concludes that a referral to the Copyright Office under 17
U.S.C. § 411 does indeed require an indicia of fraud—
as this Court originally held—then the current referral would be improper, as the Ninth Circuit should
not have required this Court to make the referral
given the absence of any evidence of Unicolors’
knowledge that the information it provided was inaccurate.
Continuing the response date is in the best interests of all involved in this matter. It will conserve the
Copyright Office’s resources by allowing the Copyright Office to avoid producing a written response on
materiality that would be unnecessary if the Supreme
Court later reverses the Ninth Circuit’s decision. It
will also potentially conserve the resources of the parties and this Court, who might otherwise be forced to
litigate the impact of any intervening response from

JA-207
the Copyright Office on the case, while litigating a related issue in the Supreme Court in parallel. And suspending the referral would also permit the Supreme
Court to resolve the question before it on the basis of
the current record on which the decision to grant certiorari was founded. That decision will benefit not
only the parties in resolving this dispute, but other
litigants who have an interest in the Supreme Court’s
resolution of an important issue that has divided the
courts of appeals. A temporary continuance thus
serves the public interest.
Continuing the response date temporarily will
also cause no prejudice to any party. Although the Supreme Court has not yet set the case for argument,
the case will likely be heard in November or December of this year, with a decision no later than the end
of the October 2021 term in June 2022. The issue of
whether a referral is proper will therefore be resolved
without meaningfully delaying the resolution of this
case.
For these reasons, Unicolors respectfully requests
that this Court continue the Copyright Office’s response date to 60 days after the Supreme Court issues
its opinion in this matter. If the Supreme Court’s
opinion obviates the need for a referral, the referral
can be withdrawn at that point.

JA-208
C. Alternatively, this Court can stay proceedings pending the Supreme Court’s
resolution of the issue on which it has
granted review.
Alternatively, this Court could decide to formally
stay this proceeding as well as its pending request to
the Copyright Office, effectively suspending that request and the Copyright Office’s response date unless
and until the Supreme Court’s decision necessitates a
response.
Courts consider four factors when determining
whether to issue a stay: (a) whether the stay applicant
has made a strong showing that he is likely to succeed
on the merits; (b) whether the applicant will be irreparably injured absent a stay; (c) whether issuance of
the stay will substantially injure the other parties interested in the proceeding; and (d) where the public
interest lies. Leiva-Perez v. Holder, 640 F.3d 962, 964
(9th Cir. 2011).
Likelihood of success. A stay will be granted if
it is demonstrated that the claim at issue represents
a “substantial case on the merits.” Leiva-Perez, 640
F.3d at 968. This Court has previously found that
Unicolors’ position on the proper interpretation of
§ 411(b)(1)(A) has merit. The Supreme Court’s grant
of certiorari further indicates that Unicolors’
positions evince merit because it confirms that other
circuits have squarely disagreed with the Ninth
Circuit’s holding. Unicolors therefore has a
substantial likelihood of success on the merits.

JA-209
Irreparable harm. The parties, the Court, and
the Copyright Office will be irreparably harmed by
the absence of a stay. A party need only demonstrate
that irreparable harm be the “more probable or likely”
outcome absent a stay. Sagicor Life Ins. Co. v. Jang,
No. EDCV 19-2028 JGB (KKx), 2020 U.S. Dist. LEXIS
89876, at *5 (C.D. Cal. Feb. 19, 2020). Absent a stay,
the Copyright Office will spend time and resources
drafting a response to this Court’s Order that may be
unnecessary and legally improper. And this court will
likewise spend substantial time reviewing the
response and reaching a decision on its import. The
parties will have to spend substantial time
unnecessarily addressing these matters with the
court. This harm can be avoided by staying
proceedings while the Supreme Court resolves a
threshold issue.
Prejudice to parties. As explained above, the
parties will benefit from a stay and no harm will
result. In weighing the harm to the parties, courts
look to the “balance of hardships.” Leiva-Perez, 640
F.3d at 970. Here, both parties will be spared the time
and resources necessary to address the Copyright
Office’s response in this court while litigating before
the Supreme Court. Any modest delay in resolving
this dispute will cause no prejudice to either party.
Public interest. As also explained above, the
public interest will be best served if the stay is
granted by preserving the resources of the Copyright
Office and by permitting the Supreme Court to
resolve a legal issue that is of critical importance to
litigants across the country.

JA-210
In short, the Supreme Court has granted review
on an important question that could dramatically
alter the direction of these proceedings. Courts have
routinely
stayed
proceedings
in
analogous
circumstances. Ass’n of Irritated Residents v. Fred
Schakel Dairy, 634 F. Supp. 2d 1081, 1094 (E.D. Cal.
2008) (granting motion: “a resolution of the
interlocutory appeal regarding the third cause of
action in favor of Defendants would alter the direction
of the current proceedings, and might prompt the
filing of an amended complaint. It would be a waste of
judicial and party resources to proceed with the other
claims while the appeal is pending.”); Dagdagan v.
City of Vallejo, 682 F. Supp. 2d 1100, 1117 (E.D. Cal.
2010) (“Since it is apparent that issues involved in
defendants’ appeal are also potentially involved in
plaintiff’s pending summary judgment motion,
decision on plaintiff’s motion should be deferred until
after defendants’ interlocutory appeal is resolved.”),
aff’d sub nom. Dagdagan v. Wentz, 428 F. App’x 683
(9th Cir. 2011). This Court should likewise do so here.
Respectfully submitted,
Dated: June 3, 2021
By: /s/ Scott Alan Burroughs
Scott Alan Burroughs, Esq.
Stephen M. Doniger, Esq.
Trevor W. Barrett, Esq.
DONIGER / BURROUGHS
Attorneys for Plaintiff
UNICOLORS, INC.

JA-211
Staci Jennifer Riordan (SBN 232659)
Dale A. Hudson (SBN 81948)
Aaron M. Brian (SBN 213191)
Nixon Peabody LLP
One California Plaza
300 S. Grand Avenue, Suite 4100
Los Angeles, CA 90071
Telephone: 213.629.6000
Facsimile: 213.629.6001
sriordan@nixonpeabody.com
dhudson@nixonpeabody.com
abrian@nixonpeabody.com
Attorneys for Defendant
H & M HENNES & MAURITZ LP
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC., a California Corporation,
Plaintiff,
vs.
H & M HENNES & MAURITZ L.P., a New York
Limited Partnership, and DOES 1-20, inclusive,
Defendants.
Case No.: 2:16-cv-02322 - AB - SK
Honorable André Birotte Jr.

JA-212
OPPOSITION OF DEFENDANT H & M HENNES
& MAURITZ LP TO UNICOLORS’ REQUEST TO
CONTINUE
RESPONSE
DATE
FROM
COPYRIGHT
OFFICE,
OR,
IN
THE
ALTERNATIVE, TO STAY PROCEEDINGS
Filed: April 5, 2016
I.

INTRODUCTION

The request of Unicolors, Inc. (“Unicolors”) that
this Court extend the requested response date from
the Copyright Office [DKT 303 & 305] ignores the
realities of this litigation, and fails to discuss whether
its request is even allowable, let alone feasible.
Similarly, Unicolors’ request to stay this case, when
there is no current activity, is not needed since this
matter remains primarily with the Ninth Circuit.
Accordingly, Unicolors’ request must be denied in full.
II. ARGUMENT
A. The Court Should Not Extend the Time
for the Copyright Office to Respond to
the Court’s Inquiry.
Unicolors requests that this Court disobey a
Ninth Circuit Order without citation. Assuming,
arguendo, such conduct is allowable, Unicolors fails to
advise the Court how it might rescind a letter already
sent. (See generally, DKT 306, section B). Moreover,
Unicolors fails to advise this Court that it is highly
probable that the Solicitor General will file a brief at
the Supreme Court in support of either Unicolors or
H&M NY. Thus, having the response from the

JA-213
Copyright Office would be extremely valuable to both
parties. Lastly, Unicolors’ request ignores the fact
that the Ninth Circuit has retained jurisdiction over
the appeal (but for the directive to submit the
necessary inquiry to the Register of Copyrights and to
then determine validity of the copyright based on the
response). (DKT 297 at 14). Contrary to Unicolors’
implied suggestion, there is no litigation before this
Court to be stayed.
Instead, Unicolors urges this Court to insert itself
into a process determined by the Ninth Circuit based
on a highly speculative argument that a stay, if even
allowable, would promote judicial efficiency. Even if
one assumes that—(1) the Supreme Court will rule in
favor of Unicolors, and (2) the Copyright Office will
issue a letter adverse to Unicolors—the parties would
still not expend significant resources litigating in this
Court because the case is not before it. (DKT 306 at
3:2-5.)
Moreover, matters may play out very differently
than is assumed by Unicolors. For example, if the
Copyright Office were to issue a letter favorable to
Unicolors in the next few months, this would greatly
promote judicial efficiency, as a party could ask
the Supreme Court to dismiss the matter as moot,
potentially savings the parties tens of thousands of
dollars in fees, and many months of unnecessary
litigation at the Supreme Court. Unicolors never
explains why this Court should take steps that could
prolong this litigation, based on speculation as to how
the Copyright Office might decide.

JA-214
Similarly, after remand, if the Supreme Court
should adopt the reasoning of the Ninth Circuit, the
parties would be stuck in neutral until this Court
receives a response from the Copyright Office. In that
scenario, all parties would presumably want to
receive the response from the Copyright Office as soon
as possible. Instructing the Copyright Office now to
put the inquiry on hold is obviously not the best
approach for achieving this shared goal.
To summarize, this matter will likely play out in
one of three ways. In two of those scenarios, judicial
efficiency would be undermined by granting the
relief requested by Unicolors. Unicolors side-steps
those scenarios to focus on the third scenario where
the Supreme Court rules in favor of Unicolors, and the
Copyright Office issues a letter adverse to Unicolors.
However, even if this third scenario should play out,
any judicial efficiencies realized from a stay would
likely be nominal to non-existent. Looking at the
entire picture, the interests of judicial efficiency
weigh strongly against Unicolors’ request. Instructing
the Copyright Office to stop work on the inquiry, if
even possible, especially given the limited remand
from the Ninth Circuit, is ill-advised.
B. It Is Not in The Interests of the Parties to
Further Delay Issuance of a Letter by
The Copyright Office.
Unicolors will not be prejudiced if the Copyright
Office issues its decision while this matter is pending
before the Supreme Court, and such a development
could actually work to Unicolors’ significant

JA-215
advantage. If the Copyright Office were to issue a
letter stating that it would have refused Unicolors’
Copyright Registration if it had known the
application contained known inaccuracies, the
Supreme Court proceedings will continue unabated.
This scenario is more efficient than the additional
delay requested by Unicolors, and there is no material
prejudice to Unicolors in this scenario, let alone
irreparable harm.
If, on the other hand, the Copyright Office were to
issue a letter stating it would have accepted
Plaintiff’s Copyright Registration even if it had
known that the application included known
inaccuracies regarding the dates of first publication,
this would be an extremely favorable outcome for
Unicolors. Its copyright would not be invalidated,
regardless of the test ultimately adopted by the
Supreme Court. Indeed, depending on timing, the
Supreme Court could simply dismiss the appeal as
moot, allowing Unicolors to minimize both expense
and delay.
Further delay of the Copyright Office’s response
is not in H&M NY’s interest.
C. The Request for a Stay Is Premature.
There is no reason for this Court to stay
proceedings at this time, because, as a practical
matter, there is nothing occurring before this Court
which should be stayed. The Court is waiting for the
Copyright Office to respond to its inquiry, and is
simultaneously now waiting for the Supreme Court to
hear the appeal and issue its ruling. Because of the

JA-216
limited remand from the Ninth Circuit, there are no
hearings or motions scheduled before this Court, and
that is likely to continue for some time.
D. There Is No Basis for Issuance of a Stay.
Unicolors has failed to demonstrate that even one
of the four relevant factors favor issuing the stay
(assuming this Court has the authority to issue the
requested stay, a position for which Unicolors failed
to provide any authority): (1) Unicolors has failed to
make a strong showing that it is likely to succeed on
the merits; (2) Unicolors will not be irreparably
injured absent a stay; (3) issuance of a stay could
substantially injure the parties by, e.g., causing
lengthy, avoidable delay; and (4) issuances of a stay
would not serve any legitimate public interest.
First, Unicolors has failed to demonstrate that it
has a likelihood of success at the Supreme Court.
Although the Supreme Court did grant certiorari in
this case, the obvious explanation is that there is a
conflict between the Ninth Circuit and the Eleventh
Circuit on the issue presented by this case,1 and the
Supreme Court wanted to facilitate uniformity, as
Unicolors requested in its Petition. Only four votes
are required to grant certiorari, so the Court’s action
does not suggest that there are five justices who want
resolve the conflict, let alone five votes to resolve the
conflict in favor of the Eleventh Circuit’s approach.
1 Roberts v. Gordy, 877 F.3d 1024 (11th Cir. 2017); Gold
Value v. Sanctuary Clothing, 925 F.3d 1140 (9th Cir. 2019), cert.
denied, 140 S. Ct. 1294 (Mar. 9, 2020); Unicolors, Inc. v. H&M
Hennes & Mauritz, L.P, 959 F.3d 1194 (9th Cir. 2020).

JA-217
We cannot accurately predict how the Court is
leaning.
Second, Unicolors has failed to make a showing of
irreparable harm. As demonstrated above, Unicolors
would actually stand to benefit if the Copyright Office
were to issue a favorable letter soon. Conversely,
while an adverse letter would obviously be
detrimental to Unicolors under any circumstances, it
will not be materially more detrimental just because
it is issued this year, as opposed to next year. There
is no irreparable harm to the parties.
In fact, the only possible harm which Unicolors
identifies is the time the Copyright Office would
spend in issuing a letter which might, or might not,
prove to be unnecessary. None of us know why the
Copyright Office has not yet responded to this this
Court’s inquiry, or how much work remains before it
is prepared to do so. Such speculation is not a
sufficient basis to artificially suspend the ongoing
work, only to later need the Copyright Office to
restart the process after months or more of delay and
inactivity. Arguably, that scenario would require
more work than just allowing the Copyright Office to
proceed with the response it is presumably preparing
at this time.
Third, Unicolors argues that issuance of a stay
would not prejudice the parties because such a stay
would purportedly cause only a “modest delay.” (DKT
306, at 4:26.) Unicolors does not explain that
argument, as it has no way of knowing how much
delay would be occasioned by the requested stay. We

JA-218
do know that the current inquiry has been before the
Copyright Office for nine months, and proceedings
before the Supreme Court will likely consume about
another year. It is reasonable to hope that, absent a
stay, the Copyright Office will respond while the
matter is pending before the Supreme Court, allowing
matters to proceed without delay upon remand to the
District Court. On the other hand, if a new or renewed
inquiry must be sent to the Copyright Office after
remand to Ninth Circuit and then to this Court, it
seems reasonable to assume that matters will be
delayed by nine-to-twelve months, if not longer, for no
good reason. Given that this matter has already been
pending for over five years, such additional delay
should be avoided if possible.
Finally, the purported “public interest” identified
by Unicolors, i.e., prolonging civil litigation for the
benefit of non-parties who favor one side, is not a
legitimate reason for issuing a stay.
III. CONCLUSION
For the above reasons, H&M NY respectfully
requests that the Court deny Unicolors’ request to
extend the requested deadline for the Copyright
Office to respond to this Court’s inquiry. In the event
the Copyright Office should respond to the Court’s
inquiry before the Supreme Court has ruled, this
Court may then consider whether a stay would be
appropriate under the circumstances then extant, but
currently unknowable.

JA-219
Dated: June 4, 2021

NIXON PEABODY, LLP
By: /s/ Staci Jennifer Riordan
Staci Jennifer Riordan
Dale A. Hudson
Aaron M. Brian
Attorneys for Defendant

JA-220
Stephen M. Doniger (SBN 179314)
stephen@donigerlawfirm.com
Scott Alan Burroughs (SBN 235718)
scott@donigerlawfirm.com
Trevor W. Barrett, Esq. (SBN 287174)
tbarrett@donigerlawfirm.com
DONIGER / BURROUGHS
603 Rose Avenue
Venice, California 90291
Telephone: (310) 590-1820
Attorneys for Plaintiff
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC.,
Case No.: 2:16-cv-02322 AB (SKx)
Honorable André Birotte, Jr. Presiding
Plaintiff,
vs.
H&M HENNES & MAURITZ LP; et al.,
Defendants.
REPLY IN SUPPORT OF NOTICE OF
SUPREME COURT GRANT OF PETITION FOR
WRIT OF CERTIORARI AND REQUEST TO
CONTINUE RESPONSE DATE FROM
COPYRIGHT OFFICE

JA-221
Plaintiff Unicolors, Inc. respectfully submits this
reply in support of its request that the Court continue
the date by which a response is requested from the
U.S. Copyright Office to this Court’s referral. See Dkt.
No. 306. Defendant H & M Hennes & Mauritz L.P.’s
opposition to this request, Dkt. No. 307, advances a
host of purported obstacles and caveats, seeking to
complicate a basic procedural step that will promote
efficient and informed decision-making while
extending ordinary comity to the U.S. Supreme Court
and the U.S. Copyright Office. H&M’s desire to
complicate matters only confirms the appropriateness
of extending the Copyright Office’s deadline to
respond to permit the Supreme Court to resolve the
threshold legal question whether a response is
appropriate in the first place.
In addition, the Copyright Office this morning has
submitted correspondence to this Court, served on the
parties, indicating it did not learn of this Court’s
referral until after the Supreme Court’s grant of
certiorari on June 1, and that preparation of a
response would take between 45 and 90 days. Ltr.
from Regan A. Smith, General Counsel and Associate
Register of Copyrights (June 7, 2021). As a result, any
response would not arrive until well after the parties
have expended substantial resources preparing and
submitting briefing before the Supreme Court.
Because a response from the Copyright Office is no
longer imminent and the June 18 response date is no
longer practical, the most prudent course is to further
continue the Copyright Office’s response date pending
the Supreme Court’s decision.

JA-222
Request for Continuance. H&M first asks
“whether [a continuance] is even allowable, let alone
feasible,” claiming that Unicolors asks the Court to
“disobey a Ninth Circuit Order without citation” while
“fail[ing] to advise the Court how [the Court] might
rescind a letter already sent.” Dkt. No. 307 at 2. But
continuing the Copyright Office’s response date does
not disobey the Ninth Circuit’s instructions at all—
this Court’s referral to the Copyright Office would
still stand, pending affirmance of the Ninth Circuit’s
ruling that such a referral is appropriate. This Court
selected the current response date in exercise of its
broad discretion, as a federal court, to “manage [its]
own affairs so as to achieve the orderly and
expeditious disposition of cases.” Link v. Wabash R.
Co., 370 U.S. 626, 630-31 (1962). Nothing in the Ninth
Circuit’s decision limits that discretion, and, now that
the U.S. Supreme Court has granted certiorari, this
Court has the authority to determine that it is in the
interests of all concerned that this case not be
litigated both in this Court and in the Supreme Court
at the same time.
As for the imagined concern about the feasibility
of a continuance, that is easily solved: The Court can
issue an order accompanied by a letter that informs
the Copyright Office that in light of the Supreme
Court’s grant of certiorari, the previously requested
response date of June 18 is continued, and the
Copyright Office need not respond to the referral
unless and until the Supreme Court affirms the Ninth
Circuit’s ruling that the referral was mandated under
§ 411. Indeed, the Copyright Office’s letter makes
clear it is aware of Unicolors’ request to continue the

JA-223
response date and prepared to proceed “in whatever
manner the Court directs.” Ltr. from Regan A. Smith,
General Counsel and Associate Register of Copyrights
(June 7, 2021). In addition, H&M’s purported worries
that delaying the response date would result in
inefficiencies by causing the Copyright Office to
“artificially suspend [its] ongoing work,” Dkt. No. 307
at 5, are baseless in light of the Copyright Office’s
letter to the Court, which indicates that it has not yet
begun its work on its response, and would need
between 45 and 90 days to prepare one. Ltr. from
Regan A. Smith, General Counsel and Associate
Register of Copyrights (June 7, 2021). There are no
valid concerns about the workability of Unicolors’
request.
H&M next speculates that “matters may play out
very differently than is assumed by Unicolors” and
that H&M’s own assessment of some number of
“scenarios” reveals an “entire picture” under which
the Copyright Office should proceed with a process
that the Supreme Court may rule is not necessary.
Dkt. No. 307 at 2-3. But Unicolors’ request assumed
no particular response from the Copyright Office. Just
the opposite: It is the possibility of several different
responses—and the desire to avoid parallel litigation
over a given response’s import when the very
propriety of the referral is under Supreme Court
review—that makes continuance so plainly
appropriate. The strong likelihood is that a Copyright
Office response issued in 45 to 90 days will (a) be
rendered unnecessary and ineffective after the
Supreme Court’s decision, (b) prove disruptive to the
Supreme Court’s decision making process, or (c) both.

JA-224
H&M offers no justification for forging ahead anyway
when such an expedient method of avoiding those
results is available.
On that score, H&M cannot refute that a
continuance prejudices no party. In fact, it is so
unable to conceive any prejudice to itself that it
devotes its attention to arguing that it is in Unicolors’
interest for the Copyright Office to respond during the
pendency of Supreme Court proceedings—despite
Unicolors’ own contrary conclusion. H&M’s logic
seems to be that if the Copyright Office finds that it
would have granted registration in spite of the alleged
inaccuracy on Unicolors’ application—a finding that
H&M itself opposes and will undoubtedly resist in
this Court no matter what the Copyright Office says—
that might result in the Supreme Court “simply
dismiss[ing] the appeal as moot.” Dkt. No. 307 at 3-4.
But an abstract possibility that some response from
the Copyright Office could potentially pull the rug
from under the Supreme Court’s evaluation of the
important legal issue on which it has granted review
is, if anything, a reason to grant Unicolors’ request
and continue the Copyright Office’s response date, not
a reason to deny that relief. The point of Unicolors’
request is to avoid just such potential disruption, in
whatever form or for whoever’s benefit, it may
materialize.
In short, the best interests of all involved—the
parties, this Court, the Copyright Office, and the
Supreme Court—are served by first resolving the
propriety of a referral under § 411(b)(1)(A) in the
Supreme Court, then proceeding to the § 411(b)(3)

JA-225
process as necessary. H&M, perhaps seeing the
writing on the wall in light of the Supreme Court’s
decision to review the Ninth Circuit’s ruling, appears
to perceive some advantage in a messy, expensive,
and unpredictable two-track process. But its
self-interested desire to complicate things should not
stand in the way of justice and judicial economy. The
Court should grant the requested continuance.
Appropriateness of a stay. H&M’s objection to
Unicolors’ alternative stay request begins by pointing
out that “there is nothing occurring before this Court
which should be stayed.” Dkt. No. 307 at 4. This
misses the point. While Unicolors agrees that a
continuance, rather than a stay, may be the simplest
procedural mechanism for pausing proceedings
currently directed by this Court, this Court could also
fashion a stay that would operate to suspend the
effectiveness of the referral to the Copyright Office
pending Supreme Court review.
A stay is appropriate here. Although H&M
contends that “[w]e cannot accurately predict how the
[Supreme] Court is leaning” on the merits, Dkt. No.
307 at 5, it cannot dispute that Unicolors has the
requisite “substantial case on the merits,” Leiva-Perez
v. Holder, 640 F.3d 962, 964 (9th Cir. 2011). Nor could
it, because this Court has already properly ruled in
Unicolors’s favor on these same issues. Absent a stay,
Unicolors also would face irreparable harm in the
form of a parallel litigation process that would be
unnecessary—indeed, that never should have been
initiated at all—if the Supreme Court reverses the
Ninth Circuit. H&M does not even attempt to respond

JA-226
to this obvious harm, let alone demonstrate why it is
unlikely. See Dkt. No. 307 at 5. Nor, for reasons
explained above, can H&M even claim that it would
somehow be prejudiced by a stay. Under its own
position in this case—that the claimed inaccuracy in
Unicolors’ registration is material—the Supreme
Court will in all events need to resolve the propriety
of a referral to the Copyright Office. Resolving the
threshold issue of the propriety of referral first, as
§ 411(b)(3) itself contemplates, cannot possibly
prejudice H&M. Finally, H&M cannot and does not
refute that the Supreme Court’s resolution of a circuit
conflict on an important issue of law would serve the
public interest by clarifying the law governing
recurring disputes involving litigants across the
country.
For the reasons stated in the request and above,
Unicolors respectfully requests that the Court grant
the requested continuance or, in the alternative, stay
the proceedings pending the Supreme Court’s
decision in this case.
Respectfully submitted,
Dated: June 7, 2021
By:

/s/ Scott Alan Burroughs
Scott Alan Burroughs, Esq.
Stephen M. Doniger, Esq.
Trevor W. Barrett, Esq.
DONIGER / BURROUGHS
Attorneys for Plaintiff
UNICOLORS, INC.

JA-227
Certificate of Registration
Registration Number VA-1-770-400 Effective date of
registration: February 14, 2011
This Certificate issued under the seal of the
Copyright Office in accordance with title 17, United
States Code, attests that registration has been made
for the work identified below. The information on
this certificate has been made part of the Copyright
Office records.
[h/w signature]
Acting Register of Copyrights, United States of
America
Title

––––––––––––––––––––––––––––––––––––––––

Title of Work:

Floral:
EH103, EH105, EH111,
CEH113, EH123, EH132,
CEH146,CEH147, EH149,
EH157, CEH175,
EH181,CEH182, EH183,
EH185, CEH194, EH196,
EH200,EH210 Ethnic; EH101,
EH102, EH106, CEH109,
EH115, CEH116, EH119,
EH120, EH125, EH133, EH142,
EH144

Completion/Publication

––––––––––––––––––

JA-228
Year of
Completion:

2011

Date of 1st
Publication:

January 15, 2011

Author

–––––––––––––––––––––––––––––––––––––

Author:

UNICOLORS, INC. AKA
UNICOLORS STUDIO

Author
Created:

2-Dimensional artwork

Work made for
hire:

Yes

Citizen
of:
Copyright
claimant
Copyright
Claimant:

United
States

Domiciled
in:

United
States

––––––––––––––––––––––––
UNICOLORS, INC. AKA
UNICOLORS STUDIO
3251 E. 26th Street, Los
Angeles, CA, 90058

Certification –––––––––––––––––––––––––––––––
Name:

NADAR PAZIRANDEH

Date:

January 28, 2011

JA-229
Registration #: VA001770400
Service Request #: 1-570056087

UNICOLORS, INC.
3251 E. 26th STREET
Los Angeles, CA 90058

JA-230
EH101.tif
Not Actual Size, 75% of actual size

JA-231

JA-232
EXHIBIT 37
Physical Exemplar Introduced at Trial (Will Be
Submitted Upon Request)

JA-233
EXHIBIT 38
Physical Exemplar Introduced at Trial (Will Be
Submitted Upon Request)

